APPENDIX

TABLE OF APPENDICES

PAGE

1

Appendix A

Decision of the United State Court of Ap­
peals for the Sixth circuit

App-l

2

Appendix B

Decision of The United States District Court
Michigan Eastern District

App-6

3

Appendix C

Decision of the United State Court of Ap­
peals for the Sixth circuit rehearing

App-23

4

Appendix D

Decision of the Michigan Court of Appeals

App-25

5

Appendix E

Decision of the Michigan Supreme Court
Denying Review

App-37

6

Appendix F

Decision of the Michigan Oakland county
6th circuit court in Constant v DTE

App-39

7

Appendix G

Decision of the Michigan Oakland county
6th circuit court in Constant v Hammond

App-44

8

Appendix H

Decision of the Michigan Oakland county
6th circuit court in Constant v Prince

App-49

9

Appendix I

Article 6, Clause 2 - The Supremacy Clause
of the United States

App-63

10

Appendix J

Amendment 4 - Search and Seizure

App-64

11

Appendix K

Amendment 7 - Trial by Jury in Civil Cases.

App-65

12

Appendix L

Amendment 14 - Citizenship Rights - Due
process and Equal Protection of the Laws
Section 1.

App-66

13

Appendix M

18 USC § 1341 - Frauds and swindles

App-68

IX

TABLE OF APPENDICES

PAGE

14

Appendix N

18 USC § 1343 - Fraud by wire, radio, or
television

App-71

15

Appendix 0

18 USC § 1962— Racketeer Influenced and
Corrupt Organizations Act - Prohibited acts

App-72

16

Appendix P

18 USC § 1964 ■ Civil remedies

App-86

17

Appendix Q

42 USC § 1983. Civil action for deprivation
of rights

App-92

18

Appendix R

28 USC § 1331. Federal question

App-101

19

Appendix S

The 2/5/2013 Order for me to show cause
why an order of preliminary injunction shall
not issue against me. Also contains the nonfiled motion for the order.

App'124

20

Appendix T

The 2/20/2013 order for affidavits and briefs

App-132

21

Appendix U

The 3/27/2013 order of preliminary injunc­
tion against me

App-133

22

Appendix V

The 8/14/2013 order of dismissal

App*140

23

Appendix W

Judge Chabot’s 11/23/2016 voluntary self- disqualification order

App-141

24

Appendix X

The 6/7/2017 bench warrant for me to be ar­
rested with a $10,000 cash bond.

App-142

25

Appendix Y

The 6/11/2018 bench warrant for me to be
arrested with a $10,000 cash bond.

App-144

26

Appendix Z

The Transcripts of 8/14/2013 - The DTE

App-146

x

TABLE OF APPENDICES

PAGE

motion for voluntary dismissal
27

Appendix AA The Transcripts of 8/3/2016 - The DTE
motion to re-assign case to Judge Kumar

App*154

28

Appendix AB The Transcripts of 8/17/2016 - The DTE
motion to re-assign case to Judge Kumar

App-168

29

Appendix AC The Transcripts of 9/28/2016 - The DTE
motion to strike my complaint

App-180

30

Appendix AD The Transcripts of 11/23/2016 - The DTE
motion to strike my complaint

App-194

31

Appendix AE The transcripts of 6/7/2017

App*205

32

Appendix AF The transcripts of 9/11/2019 in USDC-MIED

App-210

33

Appendix AG The original 2/5/2013 DTE complaint pa­
pers.

App-237

34

Appendix AH The 3/1/2013 DTE brief in support of its mo­
tion for preliminary injunction against me,
with Hammond's affidavit and a DTE 1912
ROW Agreement.

App-242

35

Appendix AI

Halash's emails to me.

App-253

36

Appendix AJ

The register of actions for Oakland CTY 6th.
Cir. Ct., 2013-132055-CH, DTE v Constant.

App-256

37

Appendix AK The register of actions for Oakland CTY
6tth. Cir. Ct., 2016-153074'AW, Constant v
Mich. State Atty Gen et. al.

xi

App-263

TABLE OF APPENDICES

PAGE

38

Appendix AL The register of actions for Oakland CTY 6th.
Cir. Ct., 2016-153631-CZ, Constant v DTE

App*267

39

Appendix AM The register of actions for Oakland CTY 6th.
Cir. Ct., 2016-155099'CZ, Constant v
Hammond.

App-280

40

Appendix AN The register of actions for Oakland CTY 6th.
Cir. Ct., 2016-155238'CZ, Constant v
Prince.

App-288

41

Appendix AO The register of actions for Mich. COA,
317976, DTE v Constant.

App*296

42

Appendix AP The register of actions for Mich. COA,
336489, Constant v Hammond.

App-310

43

Appendix AQ The register of actions for Mich. COA,
336620, Constant v DTE.

App-318

44

Appendix AR The register of actions for Mich. COA,
337483, Constant v Prince.

App-327

45

Appendix AS The register of actions for Mich. COA,
338455, Joseph Constant v Leland Prince

App‘333

46

Appendix AT The register of actions for Mich. COA,
338471, Constant v DTE

App-338

47

Appendix AU The register of actions for Mich. COA,
338685, Constant v DTE

App-341

48

Appendix AV The register of actions for Mich. COA,
338686, Constant v DTE

App-344

49

Appendix AW The register of actions for Mich. COA,

App*351

Xll

j

TABLE OF APPENDICES

PAGE

339034, Constant v DTE .
50

Appendix AX The register of actions for Mich. COA,
339311, Constant v Hammond

App-354

51

Appendix AY The register of actions for Mich. Supreme
Ct., 150846, DTE v Constant

App-356

52

Appendix AZ The register of actions for Mich. Supreme
Ct., 153609, Constant v Michigan Atty.
Grievance Commission

App*370

53

Appendix BA The Mich. Supreme Ct., registers of action
for cases: 158458, 158459,158460,158461,
158457, Constant v Hammond, Prince and
DTE

App-373

54

Appendix BB The Docket's History for USDC-MIED, 19cv 10339, Constant v DTE Electric et. al.

App-381

55

Appendix BC The Docket's History for US 6th Cir. COA,
20-1514, Constant v DTE Electric et. al.

App-389

56

Appendix BD The Ingodwee trust case Docket's history

App-396

57

Appendix BE The Court reporter’s email that attests to
the absence of media that should have con­
tained the 2/20/20 record of the motion hear­
ing event before Judge Kumar

App-398

58

Appendix BF The 2017 Billing invoices from Herweyer
and CMDA to DTE for Hammond

App-399

59

Appendix BG The 2017 Billing invoices from Herweyer
and CMDA to DTE for DTE

App-406

xm

TABLE OF APPENDICES

PAGE

60

Appendix BH The 2019 Billing invoices from Herweyer
and CMDA to DTE for Hammond

App-421

61

Appendix BI

The 2019 Billing invoices from Herweyer
and CMDA to DTE for DTE

App-431

62

Appendix B J

The Affidavit of Herweyer

App*440

63

Appendix BK My May 2016 letters to DTE CEO Anderson
and Hammond

App-445

64

Appendix BL Herweyer's 2016 letter to me not to sue DTE
for any reasons

App-447

65

Appendix BM Herweyer’s Statement on why DTE filed the
August 2013 motion for voluntary dismissal.

App*448

66

Appendix BN My motions in the US COA to strike Her*
weyer's appearance for DTE, because it was
a cloaked appearance for a judge Kumar
and the Enterprise.

App-450

67

Appendix BO Judge Ritter's Story and others that made
the same crimes as he had done.

App-460

xiv

Case: 20-1514

Document: 52-1

Filed: 04/29/2021

Page: 1

(1 of 5)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Deborah S. Hunt
Clerk

100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Filed: April 29, 2021
Mr. David N. Asmar
Oakland County Corporation Counsel
1200 N. Telegraph Road
Department 419
Pontiac, MI 48341
Joseph Constant
49 Highland Drive
Bloomfield Hills, MI 48302
Mr. Lincoln Glen Herweyer
Law Office
35054 Twenty Three Mile Road
Suite 115
New Baltimore, MI 48047
Ms. Heather S. Meingast
Office of the Attorney General
of Michigan
P.O.Box 30217
Lansing, MI 48909
Re: Case No. 20-1514, Joseph Constantv. DTE Electric Company, etal
Originating Case No.: 2:19-cv-10339
Dear Counsel and Mr. Constant,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Sharday S. Swain
Case Manager
Direct Dial No. 513-564-7027
cc: Ms. Kinikia D. Essix
Enclosure
Mandate to issue

Appendix-A
App-1

Tel. (513) 564-7000
www.ca6.uscourts.gov

Case: 20-1514

Document: 52-2

Filed: 04/29/2021

(2 of 5)

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-1514
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

Apr 29, 2021
DEBORAH S. HUNT, Clerk

JOSEPH CONSTANT,

)
)
)
)

Plaintiff-Appellant,
v.
DTE ELECTRIC COMPANY, aka DTE Energy,
aka Detroit Edison Company, aka DTE, et a!.,

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)

Defendants-Appellees.
ORDER

Before: COLE, Chief Judge; GILMAN and McKEAGUE, Circuit Judges.
Joseph Constant, a pro se Michigan resident, appeals the district court’s judgment
dismissing his civil action for failing to state a claim and for lack of subject-matter jurisdiction.
This case has been referred to a panel of the court that, upon examination, unanimously agrees that
oral argument is not needed. See Fed. R. App. P. 34(a). Constant has also filed various requests
to strike attorneys’ appearances, arguments, and filings; to issue various sanctions; to vacate state
court judgments; to grant oral argument; and to allow him to file multiple reply briefs.
This appeal originates from a 2013 state lawsuit between Constant and the Detroit Electric
Company (DTE) in which the Michigan courts granted DTE injunctive relief, allowing it to trim
trees on Constant’s property in order to provide clearance for an electrical line. Constant appealed
that determination ail the way to the United States Supreme Court, but he did not obtain relief. See
DTE Elec. Co. v. Constant, No. 317976, 2014 WL 6861225 (Mich. Ct. App. Dec. 4, 2014) (per
curiam), leave to appeal denied, 869 N.W.2d 580 (Mich. 2015), cert, denied, 136 S. Ct. 2503
(2016). Constant has since filed many unsuccessful lawsuits in both state and federal court

App-2

Case: 20-1514

Document: 52-2

Filed: 04/29/2021

Page: 2

No. 20-1514
-2-

challenging this determination and claiming fraud and a conspiracy against him. See, e.g.,
Constant v. Chabot, No. 2:17-cv-10018 (E.D. Mich. Feb. 1, 2017) (order); Constant v. Schuette,
No. 2:16-cv-l 1639 (E.D. Mich. Sept. 8,2016) (order); Constant v. Hammond, No. 2:16-cv-10629
(E.D. Mich. May 19,2016) (order); Constant v. Schuette, No. 2:15-cv-l 1928 (E.D. Mich. July 17,
2015) (order); Constant v. DTE Electric, No. 2:15-cv-11927 (E.D. Mich. July 17, 2015) (order);
Constant v. Kumar, No. 2:15-cv-l 1926 (E.D. Mich. July 15, 2015) (order). The Michigan Court
of Appeals ultimately rejected Constant’s many state-court appeals and ordered him to pay
damages, expenses, and reasonable attorneys’ fees to the various defendants due to the meritless
and vexatious nature of his many lawsuits. See Constant v. Hammond, Nos. 336489, 336620,
337483, 338455, 338686, 2018 WL 3943081 (Mich. Ct. App. Aug. 16, 2018) (per curiam).
In the current case, Constant sues Michigan appellate Judges Deborah A. Servitto, Karen
M. Fort Flood, and Jane M. Beckering; Oakland County Judges Shalina D. Kumar, Michael Davide
Warren, Jr., Cheryl A. Matthews, Rae Lee Chabot, and Nanci J. Grant (Judicial Defendants); and
DTE, Leland Prince, and James M. Hammond (DTE Defendants). Constant claims generally that
the defendants collectively engaged in a grand racketeering conspiracy to deprive him of his rights
and that the DTE Defendants paid off the many judges involved in his lawsuits to fraudulently and
criminally rule against him.

The various defendants moved to dismiss, and the district court

granted their motions. The district court determined that the Judicial Defendants were entitled to
absolute judicial immunity, that it lacked subject-matter jurisdiction to preside over Constant’s
claims against private entities, that it could not review state-court judgments under the RookerFeldman doctrine, see D.C. Court ofAppeals v. Feldman, 460 U.S. 462 (1983); Rooker v. Fidelity
Tr. Co., 263 U.S. 413 (1923), and that Constant’s complaint was barred by resjudicata. The district
court also ordered that Constant must obtain permission from the district court before filing any
new actions due to his history of filing repetitive and vexatious lawsuits.
On appeal, Constant argues at length that various Michigan judges—and Chief Judge
Denise Page Hood, by virtue of having ruled against him below—are engaged in a criminal
enterprise to defraud him and deprive him of his rights, that the Judicial Defendants were engaged

App-3

(3 of 5)

Case: 20-1514

Document: 52-2

Filed: 04/29/2021

Page: 3

No. 20-1514
-3-

in the illegal practice of law, and that the bars on his lawsuit should not apply due to their corrupt
actions. The Court of Appeals Judicial Defendants responded that they are entitled to absolute
judicial immunity. Constant filed a reply expanding on his belief that the Michigan judiciary is
corrupt, and he has since sought leave to file two amended reply briefs.
We review de novo a district court’s judgment dismissing a complaint pursuant to Federal
Rule of Civil Procedure 12(b)(6). Wesley v. Campbell, 779 F.3d 421, 428 (6th Cir. 2015). To
avoid dismissal, “a complaint must contain sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. We also review de novo a district court’s
decision to dismiss a complaint for lack of subject-matter jurisdiction under Rule 12(b)(1). See
Gaylor v. Hamilton Crossing CMBS, 582 F. App’x 576, 579 (6th Cir. 2014); In re Carter, 553
F.3d 979, 984 (6th Cir. 2009). A complaint is subject to dismissal under Rule 12(b)(1) if the facts,
accepted as true and viewed in the light most favorable to the plaintiff, show that the court lacks
subject-matter jurisdiction. SeeAskins v. Ohio Dep’tofAgric., 809 F.3d 868, 872 (6th Cir. 2016).
Pleadings drafted by pro se litigants should be held to a less stringent standard than those drafted
by lawyers and should be construed liberally, Martin v. Overton, 391 F.3d 710,712 (6th Cir. 2004),
but pro se litigants are not exempt from the requirements of the Federal Rules of Civil Procedure,
see Wells v. Brown, 891 F.2d 591, 594 (6th Cir. 1989).
The district court did not err by concluding that the Judicial Defendants were entitled to
absolute judicial immunity. Judges are immune from suit for monetary damages unless the action
complained of was non-judicial or was performed in the complete absence ofjurisdiction. Mireles
v. Waco, 502 U.S. 9, 11-12 (1991) (per curiam). Constant makes a wide range of accusations
against the defendants and the Michigan judiciary generally concerning perceived corruption, but
the complaints of wrongdoing committed against him all pertain to his belief that the defendants
conspired to issue unfavorable orders and judgments against him, such as providing DTE with an

App-4

(4 of 5)

Case: 20-1514

Document: 52-2

Filed: 04/29/2021

Page: 4

No. 20-1514
-4injunction to trim trees on his property and dismissing his many lawsuits. These actions were
taken in the judges’ judicial function, and they are therefore entitled to immunity even if Constant
believes that the actions derived from bad faith, malice, or corruption. See id. at 11; Brookings v.
Clunk, 389 F.3d 614, 617 (6th Cir. 2004). The district court also did not err by concluding that it
could not interfere with the state-court orders issued by the Michigan courts concerning his dispute
with DTE, see Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005); Brent v.
Wayne Cnty. Dep’t of Hum. Servs., 901 F.3d 656, 674 (6th Cir. 2018), that Constant is trying to
relitigate many issues raised in prior lawsuits that are barred by res judicata, and that it did not
have a basis to assert subject-matter jurisdiction over Constant’s claims against non-diverse private
actors. Moreover, Constant’s allegations that a grand conspiracy exists amongst the Michigan
judiciary deriving ultimately from orders allowing DTE to trim some of his trees for a power line
could be considered “totally implausible, attenuated, unsubstantial, frivolous, devoid of merit, or
no longer open to discussion.” Apple v. Glenn, 183 F.3d 477, 479 (6th Cir. 1999) (per curiam);
see Wagenknecht v. United States, 533 F.3d 412, 417 (6th Cir. 2008).
The district court also did not abuse its discretion by imposing prefiling restrictions on
Constant due to his history of repetitive and vexatious litigation. See Feathers v. Chevron U.S.A.,
Inc., 141 F.3d 264, 269-70 (6th Cir. 1998); Ortman v. Thomas, 99 F.3d 807, 811 (6th Cir. 1996).
Accordingly, we AFFIRM the district court’s judgment and DENY all of Constant’s
pending motions.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

App-5

(5 of 5)

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11169

Page lot 17

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOSEPH CONSTANT,
Plaintiff,
Civil Action No. 19-10339
v.

HON. DENISE PAGE HOOD
DTE ELECTRIC COMPANY,
LELAND PRINCE, JAMES M.
HAMMOND, SHALINA D. KUMAR,
CHERYL A. MATTHEWS, MICHAEL
DAVID WARREN, JR., NANCI J.
GRANT, RAE LEE CHABOT, KAREN
M. FORT HOOD, DEBORAH A.
SERVITTO, and JANE M. BECKERING,
Defendants.

ORDER GRANTING DEFENDANTS*
MOTIONS TO DISMISS IECF Nos. 23.24. 25]
and ENJOINING ANY FURTHER FILINGS
BY PLAINTIFF WITHOUT LEAVE OF THE COURT
I.

INTRODUCTION
Pro se Plaintiff filed the instant cause of action on February 4, 2019, and filed

an amended complaint on June 17,2019 (the “First Amended Complaint”)* There are
three “groups” of Defendants, each of which has filed a Motion to Dismiss: (1) the
“Court of Appeals Defendants” (Deborah A. Servitto, Karen M. Fort Hood, and Jane
M. Beckering) [ECF No. 23]; (2) the “DTE Defendants” (DTE Electric Company,

Appendix B
App-6

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11170

Page 2 of 17

Leland Prince, and James M. Hammond) [ECF No. 24]; and (3) the “Oakland County
Defendants” (Shalina D. Kumar, Michael David Warren, Jr., Cheryl A. Matthews, Rae
Lee Chabot, and Nanci J. Grant) [ECF No. 25]. In their Motion to Dismiss, the DTE
Defendants also ask the Court to enjoin Plaintiff from filing additional suits regarding
the underlying subject matter without the court’s permission.
Plaintiff filed three documents that the Court will treat as his collective response
to the Motions to Dismiss. [ECF Nos. 29, 30, 31] The issues in the Motions to
Dismiss have been adequately presented in the parties’ briefs, such that oral arguments
are not necessary. See E.D. Mich. L.R. 7.1(f)(2). For the reasons set forth below, the
Court GRANTS all three Motions to Dismiss and ENJOINS Plaintiff from filing any
new cases against any of the named Defendants regarding the underlying subject
matter of this case without leave of the Court.
II.

BACKGROUND1
In 2013, DTE brought suit against Plaintiff in the Oakland County Circuit Court

(“Circuit Court”). Defendant Leland Prince is an in-house DTE attorney who handled
the trial court litigation of a 2013 lawsuit filed by DTE against Plaintiff. Defendant

‘For a more detailed description of the underlying events and history of
Plaintiff s state court cases, see the Michigan Court of Appeals decision issued on
August 16, 2018, as amended on August 21, 2018. ECF No. 23-2 {DTE v.
Hammond et al, unpublished per curiam opinion of the Court of Appeals, issued
August 16, 2018 (Docket Nos. 336489; 336620; 337483; 338455; 338686)).
2

App-7

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11171

Page 3 of 17

James Hammond is a DTE employee who submitted an affidavit in the 2013 suit, the
substance of which was that trees on Plaintiffs property needed to be trimmed. As a
result ofthe 2013 suit, preliminary and permanent injunctions orders issued by Circuit
Court judge and Defendant Shalina D. Kumar allowed DTE to trim trees on Plaintiffs
property. Plaintiff appealed the Circuit Court orders to the Michigan Court of
Appeals, the Michigan Supreme Court, and the United States Supreme Court, but none
of those courts reversed the trial court or issued a judgment in favor of Plaintiff. See
DTE v. Constant, unpublished per curiam opinion of the Court of Appeals, issued
December 4, 2104 (Docket No. 317976) (Michigan Court of Appeals); DTE v.
Constant, 498 Mich.App. 883 (2015) (Michigan Supreme Court); Constant v. DTE,
136 S.Ct. 1664 (2016).
Since the 2013 suit, Plaintiff has initiated many cases against DTE, its
representatives, and/or the Oakland County Defendants, including:
A.

The cases attached to the Motion to Dismiss filed by the DTE
Defendants, which include: (i) a Judgment of the Michigan Court of
Appeals - issued by Defendants Karen M. Fort Hood, Deborah A.
Servitto, and Jane M. Beckering - affirming the dismissal of five of
Plaintiffs state court lawsuits, including lawsuits against DTE (2 cases),
Prince (2 cases), and Hammond (1 case); (ii) an order issued by Judge
Sean F. Cox of this court dismissing claims brought by Plaintiff against
DTE and Hammond (No. 15-11927); and (iii) a second order by Judge
Cox dismissing a cause of action brought by Plaintiff against Hammond
(No. 16-10629). See ECF Nos. 24-2, 24-3, and 24-4.

B.

Numerous cases filed in state court and federal court against, among
3

App-8

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11172

Page 4 of 17

others, Defendants ShalinaD. Kumar, Michael David Warren, Cheryl A.
Matthews, Rae Lee Chabot, and Nanci J. Grant, all of whom are or were
Circuit Court judges who presided over all or part of Plaintiff s cases in
the Circuit Court. See, e.g., Constant v. Chabot, No. 17-10018 (E.D.
Mich. Feb. 1, 2017) (ECF No. 4, PgID 14); Constant v. Kumar, No. 1511926 (E.D. Mich. 2015).
All of Plaintiff s prior causes of action alleged injury to his vegetation or claimed
injury from the judgment(s) entered against him in the state court actions he filed.
In the instant action, Plaintiff alleges that the Court of Appeals Defendants and
the Oakland County Defendants conspired with the DTE Defendants. Plaintiffalleges
the DTE Defendants donated funds to the judicial election campaigns of the Court of
Appeals Defendants and the Oakland County Defendants so that the Court of Appeals
Defendants and the Oakland County Defendants would decide Plaintiffs state-court
lawsuits against the DTE Defendants in favor of the DTE Defendants. ECF No. 11,
PgID 149-56.
III.

ANALYSIS
Pro se litigants are held to a less stringent standard than formal pleadings

drafted by lawyers, Haines v. Kerner, 404 U.S. 519, 520 (1972), but the leniency
granted to pro se litigants is not boundless. Martin v. Overton, 391 F.3d 710,714 (6th
Cir. 2004). All litigants must conduct a reasonable inquiry before filing any pleadings.
Fed. R. Civ. P. 11(b).
A.

The Court of Appeals Defendants and the Oakland County
4

App-9

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11173

Page 5 of 17

Defendants are Entitled to Absolute Immunity
It is well-established law that judges are absolutely immune from suits arising
out of the performance oftheir judicial functions. See, e.g., Pulliam v. Allen, 466 U.S.
522 (1984) (judicial immunity is a bar to a Section 1983 claim for damages, but not
necessarily a Section 1983 claim for prospective injunctive relief); Mann v. Conlin,
22 F.3d 100, 103 (6th Cir. 1994) (same). See also Federal Courts Improvement Act
of 1996. Pub. Law No. 104-317, § 309(c), 110 Stat. 3847, 3853 (1996) (forbidding
injunctive relief absent a violation of a declaratory decree or the unavailability of
declaratory relief, therefore effectively - if not formally - extending absolute judicial
immunity to claims for injunctive relief).
Having reviewed Plaintiff s First Amended Complaint, the Court concludes that
none of the alleged actions by any of the Court of Appeals Defendants or the Oakland
County Defendants falls outside of the scope ofjudicial immunity. Regardless of the
manner in which Plaintiff alleges the Court of Appeals Defendants and Oakland
County Defendants, including conspiring with others to benefit DTE, Plaintiffs
allegations directly challenge actions taken by such defendants in the exercise oftheir
judicial functions.

Specifically, and by example, the Court notes that Plaintiff

challenges that the conspiracy “unlawfully, illegally and illicitly and fraudulently
deliver[ed] to DTE the [following] listed racketeering and conspiracy objectives ...
5

App-10

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11174

Page 6 of 17

1) A judgment of property easement rights over and against [his] property without
DTE paying [Plaintiff] any money for the easement rights[;] 2) An order ofpermanent
injunction against [Plaintiff; and] 3) an order of preliminary injunction against
[Plaintiff.]” ECF No. 29, PgID 11019-20. The Court finds that allegations set forth
in the First Amended Complaint fail to allege, and the Court finds that the allegations
do not allow for an interpretation, that any actions by any of the Court of Appeals
Defendants or the Oakland County Defendants stem from any activity(ies) other than
those undertaken in the performance of his or her judicial functions.
Accordingly, the Court holds that the Court of Appeals Defendants and the
Oakland County Defendants are entitled to absolute judicial immunity. The Court
dismisses Plaintiffs cause of action against the Court of Appeals Defendants and the
Oakland County Defendants.
B.

DTE Defendants - Absence of Subject Matter Jurisdiction

In the First Amended Complaint, Plaintiff indicates that this Court has federal
question jurisdiction over his 42 U.S.C. § 1983 claims against the DTE Defendants.
ECF No. 11, PgID 150 (1J10) (“This complaint in this United States Federal District
Court now seeks to establish these violations of the Constitution and Federal laws of
the United States in more details and to secure the remedies of the law, that the
Constitution and the laws of the United holds, that I am entitled to.5’). As recently
6

App-11

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11175

Page 7 of 17

stated by Judge Cox:
“To state a claim under § 1983, a plaintiff must allege the
violation of a right secured by the Constitution and laws of the United
States, and must show that the alleged deprivation was committed by a
person acting under color ofstate law." Westv. Atkins, 487 U.S. 42,48,
108 S.Ct. 2250, 101 L.Ed.2d 40 (1988) (emphasis added).
Constant v. Hammond, No. 16-10629, ECF No. 10, PgID 118-19 (emphasis in
original).
Because the Court has dismissed the Court of Appeals Defendants and the
Oakland County Defendants, the only remaining Defendants in this action are: (1)
DTE, a private corporation; (2) Hammond, an employee of DTE; and (3) Prince, an
attorney for DTE. It is well-established law that:
[P]rivate corporations and their employees do not act under color of state
law. See, e.g., Jackson v. Metro. Edison Co., 419 U.S. 345, 358-59
(1974) (holding that heavily regulated electric company ’ s decision is not
a state action); Rendell-Baker v. Kohn, 457 U.S. 830, 840^12 (1982);
(holding that private school’s decisions not attributable to state despite
extensive state regulation of school); Blum v. Yaretsky, 457 U.S. 991,
1008-12 (1982) (holding that nursing home not a state actor despite
extensive state regulation of the industry); Adams v. Vandemark, 855
■ F.2d 312, 317 (6th Cir. 1988) (holding private corporation not a state
actor despite being subject to state regulation); Sanford v. DTE Energy
Co., 2009 WL 790496 (E.D. Mich. 2009).
Constant v. Hammond, No. 16-10629, ECF No. 10, PgID 119. Accordingly, each of
the DTE Defendants, without additional action, is a private actor and not a “person
acting under color of state law.” The Court finds that there are no factual allegations
7

App-12

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11176

Page 8 of 17

in the First Amended Complaint that reasonably suggest that any of the DTE
Defendants engaged in conduct that could be construed as “state action.” The Court
concludes that Plaintiffs Complaint does not state a Section 1983 claim against any
of the DTE Defendants.
For the reasons stated above, the Court holds that Plaintiffs First Amended
Complaint does not state a federal claim against any of the DTE Defendants over
which the Court can exercise subject matterjurisdiction pursuant to 28 U.S.C. § 1331.
The Court also finds that there is no diversity of citizenship between Plaintiff and any
of the DTE Defendants because, like Plaintiff, all ofthe DTE Defendants are residents
of the State of Michigan. The Court holds that it does not have diversity jurisdiction
over any of the DTE Defendants pursuant to 28 U.S.C. § 1332. Accordingly, the
Court dismisses Plaintiffs cause of action as to the DTE Defendants for lack of
subject matter jurisdiction.
To the extent that Plaintiffs Complaint, which spans more than 150 pages,
asserts any state-law claims against any of the DTE Defendants, this Court declines
to exercise supplemental jurisdiction over those state-law claims, having dismissed
any and all of Plaintiff s federal claims.
C.

Rooker-Feldman Doctrine Operates to Bar this Cause of Action

The Court notes that, pursuant to the Rooker-Feldman doctrine, the Court does
8

App-13

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11177

Page 9 of 17

not have jurisdiction to review or reverse orders issued in state court or state
administrative proceedings. See, e.g., ExxonMobil Corp. v. Saudi Basic Indust. Corp.,
544 U.S. 280,284 (2005) (Rooker-Feldman doctrine bars federal district courts from
exercising jurisdiction over “cases brought by state-court losers complaining of
injuries caused by state-courtjudgments rendered before the district court proceedings
commenced and inviting district court review and rejection of those judgments.”);
Brent v. Wayne Cnty. Dep’t of Human Servs., 901 F.3d 656, 674 (6th Cir. 2018)
(citation and internal quotations omitted) (Rooker-Feldman doctrine “precludes
federal district courts from hearing cases brought by state-court losers complaining
of injuries caused by state-court judgments.”); Gilbert v. Ill Bd. ofEduc., 591 F.3d
896,900 (7th Cir. 2010) (the Rooker-Feldman doctrine “ prevents a state-court loser
from bringing suit in federal court in order to effectively set aside the state-court
judgment”).
Plaintiffs alleged injuries stem from the state-court judgments rendered by the
Court of Appeals Defendants and the Oakland County Defendants, as demonstrated
by Plaintiffs express request that this Court “vitiate” those judgments in order to
grant him relief. See, e.g.,-ECF No. 11, PgID 270 (1J409); PgID 295 (1J470); PgID296
(Tl 479). See also ECF No. 11, PgID 345-46. To grant Plaintiff the relief he seeks,
however, the Court would have to review and reverse the state court decision rendered
9

App-14

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11178

Page 10 of 17

by the Court of Appeals Defendants and the state court decisions of many of the
Oakland County Defendants. For the Court to engage in that level of review, the
Court would have to ignore - and violate - the established principles of the RookerFeldman doctrine. See, e.g., Hall v. Callahan, 727 F.3d 450, 454 (6th Cir. 2013)
(plaintiffs claims against the state court judge who presided over plaintiffs state
court case directly implicated the Rooker-Feldman concerns). The Court will not do
so.

Accordingly, the Court declines to exercise jurisdiction over Plaintiffs cause
of action pursuant to the Rooker-Feldman doctrine.
D.

Res Judicata Operates to Bar Claims Against the DTE Defendants

The Full Faith and Credit Act provides, in relevant part, that “the records and
judicial proceedings of any court of any... State... shall have the same full faith and
credit in every court within the United States ... as they have by law or usage in the
courts of the state from which they are taken.” United States v. Dominguez, 359 F.3d
839, 842 (6th Cir. 2004). Under Michigan law, a final judgment on the merits bars a
subsequent suit involving the same transaction or occurrence and the same parties.
See, e.g., Sewell v. Clean Cut Mgt., Inc., 463 Mich. 569 (2001).
Resjudicata will apply if: (1) the prior action was decided on the merits; (2) the
decree in the prior action was a final decision; (3) the matter contested in the second
10

App-15

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11179

Page 11 of 17

case was or could have been resolved in the first; and (4) both actions involved the
same parties or their privies. Peterson Novelties, Inc. v. City of Berkley, 259
Mich.App. 1,10 (2003). Michigan courts have broadly defined res judicata to bar
litigation in the second action not only of those claims actually litigated in the first
action, but also every claim arising out of the same transaction that the parties,
exercising reasonable diligence, could have litigated but did not. Sewell, 463 Mich.
at 575; Dart v. Dart, 460 Mich. 573, 586 (1999) (in Michigan, resjudicata “bars not
only claims already litigated, but also every claim arising from the same transaction
that the parties, exercising reasonable diligence, could have raised but did not”);
Peterson, 259 Mich.App. at 11. For res judicata purposes, the test for determining
whether two claims arise out of the same transaction or occurrence is whether the
same facts or evidence are essential to the maintenance of the two actions. Jones v.
State Farm Mut. Ins. Co., 202 Mich.App. 393, 401 (1993).
The Court has reviewed the underlying nature of the cases attached to the
Motion to Dismiss filed by the DTE Defendants, including: (a) the Judgment of the
Michigan Court of Appeals - issued by the Court of Appeals Defendants - affirming
the dismissal of five of Plaintiff s state court suits against DTE, Prince, and Hammond
and summarizing many of Plaintiffs causes of action filed against the Oakland
County Defendants; and (b) the orders issued by Judge Cox dismissing causes of
11

App-16

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11180

Page 12 of 17

action brought by Plaintiff against DTE and Hammond (No. 15-11927) and Hammond
alone (No.16-10629). See ECF Nos. 24-2, 24-3, and 24-4.

The Court has also

reviewed the other federal causes of action filed by Plaintiff related to the 2013
lawsuit (No. 17-20018; No. 15-11928; No. 15-11926).
The Court concludes that Plaintiffs claims in the instant case seek to revisit
many of the issues previously decided - or allege claims that could have been raised
in: (1) the state court lawsuits filed by Plaintiff and decided by the Court of Appeals
Defendants and/or many of the Oakland County Defendants, or (2) the federal causes
of action cited in this Order. Accordingly, Plaintiffs claims against the DTE
Defendants are barred by res judicata.
IV.

PLAINTIFF ENJOINED FROM FILING FUTURE LAWSUITS
WITHOUT PERMISSION OF THE COURT
In Plaintiffs words, the instant action is approximately the 40th “case” he has

filed related to the 2013 suit. ECF No. 1, PgID 83-85. In reality, it is only the 14th
such case he has filed - five filed in the Circuit Court and nine filed in this court. Id.
The other 26 “cases” were appeals of those cases to the Michigan Court of Appeals,
the Michigan Supreme Court, the Sixth Circuit Court of Appeals, and the U.S.
Supreme Court. Id.

Most of the actions, particularly in this Court, have been

summarily dismissed by the various judges assigned to the case. See No. 15-11926,
Constant v. Kumar (Cox; summarily dismissed for absolute immunity); Constant v.
12

App-17

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11181

Page 13 of 17

DTE Electric Co., et al, No. 15-11927 (Cox; summarily dismissed under 28 U.S.C.
§ 1915(e)); Constant v. Schuette, et al, No. 15-11928 (Cox; summarily dismissed
under 28 U.S.C. § 1915(e)); Constant v. Hammond, No. 16-10629 (Cox; summarily
dismissed under 28 U.S.C. § 1915(e)); Constant v. Schuette, et al, No. 16-11639
(Cox; summarily dismissed for failure to pay filing fee); Constant v. Matthews, No.
16-14501 (O’Meara; granting motion to dismiss based on absolute immunity);
Constantv. Chabot, No. 17-10018 (Edmunds; summarily dismissed under 28 U.S.C.
§ 1915(e) due to absolute immunity).
As noted in a February 1, 2017 order issued by Judge Nancy G. Edmunds,
“Plaintiff has a history of filing meritless litigation against state court judges and
officials.” Constantv. Chabot, No. 17-10018 (E.D. Mich. Feb. 1,2017) (ECFNo. 4,
PgID 14 n.l) (citing No.15-11926, No. 15-11928). Judge Edmunds’ observations
were consistent with the views of the Michigan Court of Appeals, which upheld the
imposition of fees and costs by some of the Oakland County Defendants against
Plaintiff in conjunction with Plaintiffs litigation practices. See ECF No. 23-2, PgID
10877-88. For that reason, Judge Edmunds “strongly advised [Plaintiff] to review
Rule 11 of the Federal Rules of Civil Procedure before filing future lawsuits to
prevent against the imposition of monetary or injunctive sanctions.” Constant v.
Chabot, No. 17-10018 (E.D. Mich. Feb. 1, 2017) (ECF No. 4, PgID 14 n.l).
13

App-18

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11182

Page 14 of 17

The Sixth Circuit has held that district courts may properly enjoin vexatious
litigants from filing further actions against a defendant without first obtaining leave
of court. Feathers v. Chevron U.S.A., Inc., 141 F.3d 264,269 (6th Cir. 1998); see also
Filipas v. Lemons, 835 F.2d 1145, 1146 (6th Cir. 1987). “There is nothing unusual
about imposing prefiling restrictions in matters with a history of repetitive or
vexatious litigation.” Feathers, 141 F.3d at 269. A district court need only impose “a
conventional prefiling review requirement.” Id. The traditional tests applicable to
preliminary injunction motions need not be applied since the district court’s prefiling
review affects the district court’s inherent power and does not deny a litigant access
to courts of law. See In re Martin-Trigona, 737 F.2d 1254, 1262 (2d Cir. 1984). A
prefiling review requirement is a judicially imposed remedy whereby a plaintiff must
obtain leave of the district court to assure that the claims are not frivolous or
harassing. See e.g., Ortman v. Thomas, 99 F.3d 807, 811 (6th Cir. 1996). Often, a
litigant is merely attempting to collaterally attack prior unsuccessful suits. Filipas, 835
F.2d at 1146.
When filing the instant cause of action, the Court finds that Plaintiff failed to
take Judge Edmunds’ advice to review Rule 11 of the Federal Rules of Civil
Procedure before filing this lawsuit. First, as discussed above, the Court of Appeals
Defendants and Oakland County Defendants are unequivocally entitled to absolute
14

App-19

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11183

Page 15 of 17

immunity, a legal conclusion expressly made clear to Plaintiff more than two years
ago, with respect to at least two of Plaintiff s lawsuits filed in the Eastern District of
Michigan. See Constant v. Kumar, No. 15-11926 (ECF No. 12,PgID 1928) (“Having
reviewed Plaintiffs Complaint and Response, none of the alleged actions by Judge
Kumar fall outside of the scope of judicial immunity.”); No. 17-10018 (ECF No. 4,
PgID 14 n. 1) (same). Second, the Court has determined, Plaintiffs claims against the
DTE Defendants are not eligible for resolution in the Eastern District of Michigan.
As Plaintiff was expressly advised with respect to Hammond in 2016, the Court lacks
subject matter jurisdiction over the DTE Defendants because none of them are state
actors. See No. 16-10629, ECF No. 10, PgID 118-20.
Third, in this case, as in most of the other cases filed by Plaintiff against the
DTE Defendants and the Oakland County Defendants, Plaintiff is attempting to
collaterally attack prior unsuccessful lawsuits. All of Plaintiff s numerous meritless
actions filed in this court - and the five cases he filed in Circuit Court - related to the
2013 suit in Circuit Court. Most of Plaintiff s cases have been filed against the DTE
Defendants and the Oakland County Defendants, but in this case, Plaintiff has
expanded his scope to include the Michigan Court of Appeals Defendants, all of
whom are entitled to judicial immunity. Fourth, in addition to his claims being
rejected before every court he has appeared, Judge Edmunds cautioned Plaintiff about
15

App-20

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

PagelD.11184

Page 16 of 17

filing such cases in the future. Despite the foregoing facts, Plaintiff has not been
deterred and the parties sued in this action have incurred unnecessary fees and costs
to respond to Plaintiffs cause of action.
For all of the reasons stated above, the Court deems it appropriate to require
that Plaintiff obtain permission of the district court for any new action to assure that
the claims are not frivolous or harassing. Plaintiff is enjoined from further filing new
actions without permission from the judge assigned to any new proposed complaint.
V.

CONCLUSION
For the reasons set forth above,
IT IS ORDERED that the Motions to Dismiss filed by the Court of Appeals

Defendants [ECF No. 23], the DTE Defendants [ECF No. 24], and the Oakland
County Defendants [ECF No. 25] are GRANTED.
IT IS FURTHER ORDERED that this case is DISMISSED with prejudice.
Judgment shall be entered accordingly.
IT IS FURTHER ORDERED that Plaintiff Joseph Constant is ENJOINED
from filing any new action without first obtaining permission from the judge
assigned to any new proposed complaint sought to be filed, whether the
documents is entitled “Complaint” or a letter or any other document.
IT IS ORDERED.
16

App-21

Case 2:19-cv-10339-DPH-DRG ECF No. 34 filed 05/31/20

Dated: May 31, 2020

PagelD.11185

Page 17 of 17

s/Denise Page Hood______________
DENISE PAGE HOOD
UNITED STATES DISTRICT JUDGE

17

App-22

Case: 20-1514

Document: 66-1

Filed: 06/21/2021

Page: 1

No. 20-1514
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JOSEPH CONSTANT,
Plaintiff-Appellant,
v.
DTE ELECTRIC COMPANY, AKA DTE ENERGY, AKA DETROIT
EDISON COMPANY, AKA DTE, ET AL.,
Defendants-Appellees.

(1 of 2)

FILED

Jun 21, 2021
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: COLE, GILMAN and McKEAGUE, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Appendix C
App-23

Case: 20-1514

Document: 66-2

Filed: 06/21/2021

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Page: 1

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: June 21, 2021

Joseph Constant
49 Highland Drive
Bloomfield Hills, MI 48302
Re: Case No. 20-1514, Joseph Constant v. DTE Electric Company, et al
Originating Case No.: 2:19-cv-10339
Dear Mr. Constant,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Mr. David N. Asmar
Mr. Lincoln Glen Herweyer
Ms. Heather S. Meingast
Enclosure

App-24

(2 of 2)

Court of Appeals, State of Michigan
ORDER
Joseph Constant v James M. Hammond; Joseph Constant v DTE
Electric Company; Joseph Constant v Leland Prince; Joseph Constant
v Leland Prince; Joseph Constant v DTE Electric Company

Docket Nos. 336489; 336620; 337483; 338455; 338686

Karen M. Fort Hood
Presiding Judge
Deborah A. Servitto
Jane M. Beckering
Judges

2016-155099-CZ; 2016-153631-CZ; 2016-155238-CZ;
LC Nos.
2016-155238-CZ; 2016-153631-CZ
The Court orders that the August 16, 2018 opinion is hereby AMENDED as follows to
correct clerical errors. In the captions for docket numbers 337483 and 338455, and in the first paragraph
of the opinion, the name “Leland Price” is corrected to read “Leland Prince.” Also, in the last sentence
of the second paragraph of the opinion, the referenced date is corrected to read “December 4, 2014.”
In all other respects, the August 16, 2018 opinion remains unchanged.

cSSSSjSSv

A true copv entered and certified by Jerome W. Zimmer Jr„ Chief Clerk, on

liir1W

i

i

VK

£/9a

AUG 2 1 201
Date

Appendix D
App-25

j

STATE OF MICHIGAN
COURT OF APPEALS

JOSEPH CONSTANT,

UNPUBLISHED
August 16, 2018

P laint iff-Ap pe 1 lant,
v

No. 336489
Oakland Circuit Court
LC No. 2016-155099-CZ

JAMES M. HAMMOND
Defendant-Appellee.

JOSEPH CONSTANT,
Plaintiff-Appellant,
v

No. 336620
Oakland Circuit Court
LC No. 2016-153631-CZ

DTE ELECTRIC COMPANY,
Defendant-Appellee.

JOSEPH CONSTANT,
Plaintiff-Appellant,
v

No. 337483
Oakland Circuit Court
LC No. 2016-155238-CZ

LELAND PRICE,
Defendant-Appellee.

JOSEPH CONSTANT,
Plaintiff-Appellant,
v

No. 338455
Oakland Circuit Court
LC No. 2016-155238-CZ

LELAND PRICE,
-I-

App-26

Defendant-Appellee.
JOSEPH CONSTANT,
Plaintiff-Appellant,
v

No. 338686
Oakland Circuit Court
LC No. 2016-153631-CZ

DTE ELECTRIC COMPANY,
Defendant-Appellee.
Before: Fort Hood, P.J., and Servitto and Beckering, JJ.
Per Curiam.

In Docket No.’s 336489, 336620, 338455 and 338686, plaintiff appeals as of right orders
granting summary disposition in favor of defendants James M. Hammond, DTE Electric
Company, and Leland Price, and in Docket No. 337483 appeals by leave granted an order of the
trial court allowing plaintiff to file a fourth amended complaint upon the posting of a security
bond. The cases were consolidated on appeal. We affirm in all cases and further order damages
against plaintiff and in favor of all defendants for plaintiffs filing of these vexatious appeals
pursuant to MCR 7.216(C). We therefore remand each case to its respective trial court for a
determination of actual damages and expenses incurred, including reasonable attorney fees, to be
awarded to each defendant as a result of these vexatious appeals.
All of these appeals find their genesis in a 2013 action filed by defendant, DTE Electric
Company (“DTE”) against plaintiff in Oakland County Circuit Court seeking an injunction to
enter onto plaintiffs residential property to trim trees and conduct line clearance on the property
(hereafter “the 2013 case”). Defendant, Leland Prince (“Prince”), served as DTE’s counsel in
that case and defendant, James M. Hammond (“Hammond”) is a DTE employee who provided
an affidavit in that case attesting that the tree trimming and line clearance on plaintiffs property
was necessary and that plaintiff was preventing DTE from entering onto his property to perform
its job functions. The 2013 case, assigned to and heard by Judge Shalina Kumar, resulted in
DTE obtaining a preliminary injunction and, later, a permanent injunction. Plaintiff appealed the
decision concerning the preliminary injunction and a panel of this Court affirmed. DTE v
Constant, unpublished per curiam opinion of the Court of Appeals, issued December 4, 2104
(Docket No. 317976).
In order to fully understand the basis for plaintiffs appeals in the instant matters as well
as the substantial judicial resources that have been expended in these consolidated cases, this
Court finds it necessary to provide a detailed history of plaintiffs complaints in the Oakland
Circuit Court and his actions undertaken therein. Thus begins the laborious task of untangling
the myriad claims and actions that led to the present appeals.
-2-

App-27

After his unsuccessful appeal of the DTE preliminary injunction, plaintiff filed an action
against DTE in Oakland Circuit Court (Docket No. 336620), alleging that the 2013 case brought
by DTE was a fraud and brought to defraud him of compensation he claims due him for DTE’s
line clearance right-of-way and easement over his property.1 Plaintiff further alleged malicious
prosecution, abuse of process, fraudulent misrepresentation, false pretenses, wrongfully issued
preliminary injunction, fraud on the court, violation of MCR 2.114(D), libel, and violations of
civil rights, due process and privacy. This action was initially assigned to Judge Cheryl
Matthews, and when DTE moved to have the case reassigned to Judge Kumar (she having
presided over the original 2013 case), plaintiff moved to disqualify Judge Kumar, stating that she
was biased or prejudiced against him. Plaintiff noted that he had filed a federal lawsuit against
Judge Kumar for violating his due process and civil rights, exceeding and abusing her judicial
discretion, and for deliberate affirmative misconduct in the 2013 case, that he had filed a
complaint against Judge Kumar with the judicial tenure commission, and that he was preparing
to sue her in Oakland Circuit Court for fraud. In his motion to disqualify Judge Kumar, plaintiff
used violent, hateful, abusive and derogatory language of the most outrageous kind to describe
Judge Kumar. Though the case was nevertheless reassigned to Judge Kumar, the case was later
reassigned to Judge Matthews when Judge Kumar recused herself. Plaintiff also moved to
disqualify Judge Matthews, claiming that she too was biased and prejudiced against him after
Judge Matthews sanctioned him for filing a motion that violated MCR 2.114(D) and MCR
2.114(F). In his motion to disqualify Judge Matthews, plaintiff stated, “I believe that Judge Mrs
Matthews is a superlatively biased, prejudiced and a very bigoted human being and possibly a
Klan-level graded racist.” This case came to a conclusion when Judge Matthews granted DTE’s
motion for summary disposition. On defendant DTE’s later motion, Judge Matthews found that
plaintiffs action was frivolous and awarded DTE sanctions against plaintiff (Docket No.
338686).
Plaintiff also brought an action against defendant Prince, alleging that he was part of the
alleged fraud in the 2013 case, that Prince libeled plaintiff in that case, and that he “knowingly
signed, drove, and navigated the documents of the lawsuit, in full knowledge that it violated
MCR 2.114(D), and the professional and ethical codes of conduct that he is bound by, and he
knew that the entire act and process was abusive of the processes of law and was fully criminal
in conduct, malicious and libelous and tortious” (Docket No. 3378455). That case was assigned
to Judge Michael Warren, whom plaintiff also moved to disqualify, alleging that Judge Warren
was complicit with DTE’s alleged scheme to defraud plaintiff of claimed due compensation from
DTE and was partial toward DTE’s defense team. During the course of that action, Judge
Warren entered an order allowing plaintiff to file a fourth amended complaint only upon the
posting of a surety bond (Docket No. 337483). This case was resolved through Judge Warren’s
grant of Prince’s motion for summary disposition based on MCR 2.116(C)(8) and res judicata.
Prince’s later motion for sanctions for plaintiffs filing of a frivolous action was stayed pending
appeal.

i

In 2010 DTE trimmed several trees on plaintiffs property, prompting plaintiff to complain to
DTE that such trees were unlawfully trimmed and seeking from DTE, among other things,
payment of $16,000 in cash for easement rights over his property.

-3-

App-28

Finally, plaintiff brought an action against defendant Hammond alleging that an affidavit
provided by him in the 2013 case defamed and libeled him and that Hammond was a part of the
alleged fraud in the 2013 case (Docket No. 336489). This case was assigned to Judge Rae Lee
Chabot who recused herself for the stated reason of “personal fear of the in Pro Per Plaintiff’
whereupon the matter was reassigned to Judge Warren. Judge Warren granted summary
disposition in favor of defendant Hammond, finding that plaintiffs response to the motion was
untimely and not in conformity with page limitations, because plaintiff failed to state a claim on
which relief could be granted, because res judicata and the statute of limitations barred plaintiffs
claims, and because plaintiff abandoned his claims. On defendant Hammond’s later motion, the
trial court awarded him sanctions for plaintiffs frivolous action.
On appeal, plaintiff first asserts that DTE and its employees, including Prince and
Hammond, engaged in a civil conspiracy against plaintiff to obtain property easement rights over
his property and avoid paying plaintiff for it by committing a fraud upon the court in the 2013
case. We disagree.
We first note that a civil conspiracy claim was not brought by plaintiff against the any of
the defendants in the trial court. In civil actions, the failure to properly raise an issue in the trial
court generally constitutes a waiver of that issue on appeal. Johnson Family Ltd Pship v White
Pine Wireless, LLC, 281 Mich App 364, 377; 761 NW2d 353 (2008). We thus decline to review
any claim based on civil conspiracy. Plaintiffs claim on appeal, however, could be read as an
argument that reversal is warranted on the trial courts’ grant of summary disposition in
defendants’ favor on plaintiffs claim of fraud upon the court based upon untrue statements made
in the 2013 case. To the extent that is what plaintiff is instead asserting, this Court reviews a
trial court’s grant or denial of summary disposition de novo. Al-Shimmari v Detroit Med Ctr,
477 Mich 280, 287; 731 NW2d 29 (2007).
“In reviewing a motion for summary disposition under MCR 2.116(C)(7), a court
considers the affidavits, pleadings, and other documentary evidence presented by the parties and
accepts the plaintiffs well-pieaded allegations as tiue, except those contradicted by documentary
evidence.” McLean v Dearborn, 302 Mich App 68, 73; 836 NW2d 916 (2013). A summary
disposition motion brought under subrule (C)(7) “does not test the merits of a claim but rather
certain defenses,” such as prior judgment or statute of limitations, that may eliminate the need
for a trial. Nash v Duncan Park Com'n, 304 Mich App 599, 630; 848 NW2d 435 (2014).
A motion brought under subrule (C)(8) tests the legal sufficiency of the complaint solely
on the basis of the pleadings. Corley v Detroit Bd of Ed, 470 Mich 274, 277; 681 NW2d 342
(2004). When deciding a motion under subrule (C)(8), we accept all well-pleaded factual
allegations as true and construe them in the light most favorable to the nonmoving party. Dailey
v Dykema Gossett, 287 Mich App 296, 304-05; 788 NW2d 679 (2010).
A fraud upon the court occurs “when some material fact is concealed from the court or
some material misrepresentation is made to the court.” Matley v Matley, 242 Mich App 100,
101; 617 NW2d 718 (2000). “[Fjraud on the court cannot be committed in an adversary
proceeding with respect to facts not known by the court, but known by both parties.” Id. at 102.
Where a party alleges that a fraud has been committed on the court, “courts understandably look

-4-

App-29

with skepticism upon a dissatisfied party's claim of fraud and insist on strict factual proof.” Yee
v Shiawassee Co BdofCom'rs, 251 Mich App 379, 405; 651 NW2d 756 (2002).
The trial courts granted defendants’ motions for summary disposition based, in part, on
res judicata (Docket No’s 336620 and 338455). As stated in Adair v State, 470 Mich 105, 121;
680 NW2d 386 (2004):
The doctrine of res judicata is employed to prevent multiple suits litigating the
same cause of action. The doctrine bars a second, subsequent action when (1) the
prior action was decided on the merits, (2) both actions involve the same parties
or their privies, and (3) the matter in the second case was, or could have been,
resolved in the first. This Court has taken a broad approach to the doctrine of res
judicata, holding that it bars not only claims already litigated, but also every claim
arising from the same transaction that the parties, exercising reasonable diligence,
could have raised but did not. (internal citations omitted).
The 2013 case in which DTE sued plaintiff, and in which plaintiff asserts that the fraud occurred,
was decided on the merits. That case and the current cases involved the same parties or their
privies. The issue of whether DTE and its employees committed a fraud upon the court in the
2013 case could clearly have been resolved in the 2013 case. Plaintiff asserts that statements
contained in the 2013 complaint were false, as was Hammond’s affidavit submitted in that case
and other various assertions made by DTE. Resolution of whether those statements, assertions
and the affidavit were false would best be resolved in the first action by the trial court reviewing
the same. Thus, plaintiffs claim of fraud upon the court in the 2013 action is barred by res
judicata.
Witness immunity, another reason the trial courts relied upon in granting summary
disposition in defendants’ favor, also supports the trial courts’ rulings of dismissal of plaintiffs
claims of fraud. “Statements made during the course of judicial proceedings are absolutely
privileged, provided they are relevant, material, or pertinent to the issue being tried.” Maiden v
Rozwood, 461 Mich 109, 134; 597 NW2d 817 (1999). Falsity on the part of the witness does not
abrogate the privilege and the privilege is to be liberally construed so that participants injudicial
proceedings are free to express themselves without fear of retaliation. Id. As stated by Our
Supreme Court:
The confluence of principles related to res judicata, collateral estoppel,
and proximate cause serve to illustrate the logical underpinnings of the general
rule giving witnesses immunity from civil suit. ... If testimony in one suit,
accepted by the court but disputed by the losing litigant, can give rise to a second
suit, what would prevent a third suit arising from the unsatisfactory outcome of
the second? Or a fourth arising from the third?
Witness immunity is also grounded in the need of the judicial system for
testimony from witnesses who, taking their oath, are free of concern that they
themselves will be targeted by the loser for further litigation. Absent perjury of a
character requiring action by the prosecuting attorney, the testimony of a witness
is to be weighed by the factfinder in the matter at bar, not by a subsequent jury
-5-

App-30

summoned to determine whether the first lawsuit was tainted by fraud. [Daoud v
De Leau, 455 Mich 181, 202-03; 565 NW2d 639 (1997)]
Thus, statements made by DTE or its employees or privies in the 2013 case were subject to the
privilege of witness immunity. To the extent that plaintiff felt such statements were false and
perpetrated a fraud upon the court, he was required to raise those issues before the court hearing
the matter, not in a separate action. This holds true for claims relating to any fraud allegedly
perpetrated on the trial court in the 2013 action by DTE, Hammond, or Prince.
Plaintiff next asserts that because Judge Kumar recused herself from plaintiffs case
against DTE, disqualification of Judges Matthews and Warren was required under stare decisis
and that their disqualification was also required due to the extreme bias, prejudice and bigotry
Judges Matthews and Warren had against plaintiff (all dockets). In reviewing a motion to
disqualify a judge, we review the trial court's findings of fact for an abuse of discretion and
review the applicability of the facts to relevant law de novo. Armstrong v Ypsilanti Charter Twp,
248 Mich App 573, 596; 640 NW2d 321 (2001).
First, plaintiffs reliance on the principle of stare decisis as authority for Judges Matthews
and Warren’s disqualifications is misplaced. “Under the longstanding doctrine of stare decisis,
principles of law deliberately examined and decided by a court of competent jurisdiction should
not be lightly departed.” Lansing Sch Ed Ass'n v Lansing Bd of Ed, 487 Mich 349, 366; 792
NW2d 686 (2010). Stare decisis, is defined in Black’s Law Dictionary (7th ed.) as “[t]he doctrine
of precedent, under which it is necessary for a court to follow earlier judicial decisions when the
same points arise again in litigation.” Judge Kumar’s decision to recuse herself in a case is not a
principle of law that was decided. It was a factual determination she made for herself. Her
decision set no “precedent” in that case or other cases for other judges to recuse or disqualify
themselves.
As to whether Judges Matthews and Warren should have otherwise disqualified
themselves from plaintiffs cases, MCR 2.003(C)(1) provides, in relevant part:
(1) Disqualification of a judge is warranted for reasons that include, but are not
limited to, the following:
(a) The judge is biased or prejudiced for or against a party or attorney.
(b) The judge, based on objective and reasonable perceptions, has either (i) a
serious risk of actual bias impacting the due process rights of a party as
enunciated in Caperton v Massey, 556 US 868; 129 S Ct 2252; 173 L Ed 2d 1208
(2009), or (ii) has failed to adhere to the appearance of impropriety standard set
forth in Canon 2 of the Michigan Code of Judicial Conduct.
(c) The judge has personal knowledge of disputed evidentiary facts concerning
the proceeding.
This Court has previously stated that repeated rulings against a litigant, even if erroneous,
are not grounds for disqualification. Armstrong, 248 Mich App at 597, quoting Band v Livonia
Associates, 176 Mich App 95, 118; 439 NW2d 285 (1989). In addition, “it can never be the
-6-

App-31

case, in our judgment, that a judge can be required to disqualify himself on the basis of hostile
conduct directed toward him by the attorney or litigant, rather than on the basis of the judge's
own conduct. To require recusal in these circumstances would be to incentivize hostile conduct
by an attorney or litigant desirous of excluding disfavored judges from participation in their
cases.” Grace vLeitman, 474 Mich 1081, 1081-82; 711 NW2d 38 (2006).
Plaintiff contends that because he filed a lawsuit against Judge Matthews in federal court,
there was an “obvious presence of bias and prejudice” and she should have disqualified herself.
However, he has identified no specific conduct, aside from ruling against him that establishes
any bias or prejudice on the part of Judge Matthews. More importantly, were a party to obtain
disqualification on the bare fact that he has sued the judge, it would encourage judge shopping
by the filing of frivolous lawsuits. “Indeed, if anyone can force a judge's disqualification merely
by suing that judge, then any litigant would have an easy method of judge-shopping, eliminating
disfavored judges until the desired judge has been obtained. The destructive effect of such a rule
is too obvious to require further elaboration.” Grievance Adm'r v Fieger, 476 Mich 231, 274;
719 NW2d 123 (2006).
With respect to Judge Warren, plaintiff asserts that he has exhibited bias, prejudice and
bigotry by requiring plaintiff to post a $2500 cash bond to amend his complaint in the Prince
case (Docket No. 337483) and not allowing plaintiff to amend his complaint against Hammond
(Docket No. 336489). Neither of these cited reasons establishes any bias, prejudice or bigotry by
Judge Warren.
Plaintiff filed his complaint against Prince in September 2016, an amended complaint in
October 2016, a third amended complaint (with the court’s permission) in December 2016, and
then moved to file a fourth amended complaint in December 2016. He then moved to withdraw
his request to file a fourth amended complaint in January 2017. In February 2017, plaintiff again
filed a motion for leave to file a fourth amended complaint. Since the filing of the initial
complaint, defendant had only filed a motion for summary disposition in early November 2016
and it appears that little or no discovery had taken place In a February 27, 2017 order, Judge
Warren granted plaintiffs motion, subject to the posting of a $2500 cash bond. Judge Warren
noted case law providing that the assertion of groundless allegations or a tenuous legal theory
may be sufficient reason for ordering the posting of a security bond. Judge Warren further noted,
“the Plaintiff has filed several related lawsuits, all of which have been dismissed. His current
pleadings and motions provide little confidence that his positions are better grounded or more
reasoned in this case. The Plaintiffs seriatim amendments clearly result in needless incurring of
additional costs and fees by the Defendant. Nothing before the Court reveals why the claims and
allegations set forth in the Fourth Amended Complaint could not have been presented in the
original (or perhaps the First, or Second, or Third) Amended Complaint. Furthermore, for the
reasons articulated in the Response, the motion is dilatory and likely futile.” Plaintiff did not file
the fourth amended complaint.

-7-

App-32

MCR 2.209 provides for security bonds, in relevant part, as follows:
(A) Motion.
On motion of a party against whom a claim has been asserted in a civil action, if it
appears reasonable and proper, the court may order the opposing party to file with
the court clerk a bond with surety as required by the court in an amount sufficient
to cover all costs and other recoverable expenses that may be awarded by the trial
court, or, if the claiming party appeals, by the trial and appellate courts. The court
shall determine the amount in its discretion.
A court may require a security bond when there is a substantial reason for such a requirement. In
re Sur Bondfor Costs, 226 Mich App 321, 331; 573 NW2d 300 (1997). “A ‘substantial reason’
for requiring security may exist where there is a ‘tenuous legal theory of liability,’ or where there
is good reason to believe that a party’s allegations are ‘groundless and unwarranted. Id. at 331332. Given all of the prior amended complaints in this case and Judge Warren’s experience with
plaintiff in another substantially similar case, the requirement of a bond was warranted. The
bond requirement in no way establishes bias, prejudice or bigotry on the part of Judge Warren.
Plaintiff asserts that Judge Warren’s bias and prejudice was also demonstrated by his
refusal to allow plaintiff to file a fifth amended complaint. However, there is nothing in the
record to establish that plaintiffs motion to file a fifth amended complaint was addressed by
Judge Warren or that such was necessary, given its grant of summary disposition in Hammond’s
favor.
It plainly appears to this Court that plaintiffs allegations of bias, prejudice and bigotry
are nothing more than complaints against the trial court’s rulings against him, as his complaints
of the same (and motions to disqualify) appear in nearly every case where a decision against him
has been issued. Rather than review his claims and pleadings to ensure that they have a basis,
plaintiff engages in lengthy, hate-filled diatribes against each judge daring to not rule in his favor
and thereafter claims even more bias and prejudice on the judges’ parts based on his statements
and claims made against them. As previously noted, plaintiff has referred to Judge Kumar in the
most derogatory terms this Court has ever seen and caused Judge Chabot to recuse herself due to
her personal fear of plaintiff. Plaintiffs apparent forum-shopping undermines the essential
integrity of the judicial system and the blatant manipulation and exploitation of our judicial
system by a plaintiff asking redress for totally baseless non-grievances will not be tolerated.
Plaintiff next contends that his rights to equality and to speak for and represent himself
were grossly violated by Judge Matthews and Judge Warren. It appears that plaintiff may be
raising a due process argument. If that is the case, this issue presents a question of constitutional
law that we review de novo. People vAceval, 282 Mich App 379, 389; 764 NW2d 285 (2009).
As stated in Bonner v City of Brighton, 495 Mich 209, 224; 848 NW2d 380 (2014):
While the touchstone of due process, generally, “is protection of the individual
against arbitrary action of government,” the substantive component protects
against the arbitrary exercise of governmental power, whereas the procedural
component is fittingly aimed at ensuring constitutionally sufficient procedures for
-8-

App-33

the protection of life, liberty, and property interests.

“The Due Process Clause requires an unbiased and impartial decision maker. Thus,
where the requirement of showing actual bias or prejudice under MCR 2.003(B)(1) has not been
met, or where the court rule is otherwise inapplicable, parties have pursued disqualification on
the basis of the due process impartiality requirement.” Cain v Michigan Dept of Corr, 451 Mich
470, 497; 548 NW2d 210 (1996). In Crampton v Dep’t of State, 395 Mich 347, 351; 235 NW2d
352 (1975), our Supreme Court stated:
The United States Supreme Court has disqualified judges and decisionmakers
without a showing of actual bias in situations where “experience teaches that the
probability of actual bias on the part of the judge or decisionmaker is too high to
be constitutionally tolerable.” Among the situations identified by the Court as
presenting that risk are where the judge or decisionmaker
(1) has a pecuniary interest in the outcome;
(2) “has been the target of personal abuse or criticism from the party before him”;
(3) is “enmeshed in [other] matters involving petitioner ...”; or
(4) might have prejudged the case because of prior participation as an accuser,
investigator, fact finder or initial decisionmaker, [(citations omitted)]
Judicial disqualification pursuant to the Due Process Clause is only constitutionally required in
the most extreme cases. Cain, 451 Mich at 498.
Plaintiff asserts that Judge Matthews paid more attention to defense counsel’s arguments
than his and allowed counsel to “hijack” arguments (Docket No. 336620). At an August 3, 2016
hearing, plaintiff spoke and was clearly heard by judge Matthews. When plaintiff attempted to
inform Judge Matthews about other cases and issues, she simply guided him back to the issue at
hand. During a September 28, 2106 hearing Judge Matthews was extremely polite and helpful to
plaintiff. Plaintiff spoke at length and Judge Matthews listened attentively. Plaintiff has not
established that Judge Matthews responded to him in any way that was unprofessional.
Plaintiffs complaint concerning Judge Warren relates to Judge Warren’s alleged refiisal to allow
plaintiff to amend his complaint, which was previously addressed.
Finally, under a separate section entitled “Conclusion and Relief Requested” plaintiff
asked that every order against him be voided, including those ordering sanctions against him
because his claims in the trial court were not frivolous. While that is the extent of any
“argument” challenging the award of sanctions against him, this Court nevertheless addresses
this argument.
“A trial court’s finding that an action is frivolous is reviewed for clear error.” Kitchen v
jftfchen, 465 Mich 654, 661; 641 NW2d 245 (2002). We review the amount of sanctions
imposed by a trial court is reviewed for an abuse of discretion. BJ's & Sons Const Co, Inc v Van
Sickle, 266 Mich App 400, 410; 700 NW2d 432 (2005).
-9-

App-34

Reviewing plaintiffs complaints and amended complaints in these matters, the trial
courts could properly find that they were devoid of arguable legal merit. Plaintiff lost no
property or rights by virtue of the 2013 case. The only thing that happened to plaintiff is that the
trees on his property got trimmed around power lines and DTE maintained the ability to trim the
trees, ensuring the safety of the neighborhood and plaintiff. Plaintiff appealed that decision, and
this Court affirmed the trial court. He then applied for leave to appeal with the Supreme Court,
which denied his application, DTE v Constant, 498 Mich App 883; 869 NW2d 580 (2015), and
thereafter filed a petition for writ of certiorari with the United State Supreme Court, which was
also denied. Constant v DTE, 136 S Ct 1664; 194 L Ed 2d 776 (2016). Rather than accept that
the highest Court of our nation found no merit to his claims that DTE should have to pay him for
an easement over his property to maintain the power lines or should not have trimmed the trees
on his property around the power lines, plaintiff began a prolonged course of litigation in state
and federal courts against anyone involved in the 2013 case, including the trial judge. All of
these cases have resulted in dismissals and summary disposition rulings in favor of the
defendants.
Plaintiffs filings exhibit a belief that DTE, its employees and privies, the trial court
judge, the panel of judges who affirmed the lower court decision in the 2013 case, and a host of
others have gathered together to conspire against him and deprive him of the just compensation
allegedly due to him for the tree branches trimmed from his property and the easement over his
property to trim said trees. His pleadings in the trial court cases are often disjointed and irate and
sometimes border incoherent. In a response to defendant Hammond’s motion for summary
disposition, for example (Docket No. 336489), plaintiff stated:
Defendant Hammond did not seek the consent of the Gods, acknowledged in the
opening statements of the Michigan Constitution as the Authority for the State's
existence, for their consent to mess with me in trying to take the little that this
same Michigan God had granted to me in life, which includes property easements
rights over my property, my freedom on my property, my Good name, image, and
reputation, and the base of my approvability by prospective employers and
creditors, by means of fraud, deception, false pretense, fraudulent
misrepresentations, and malicious prosecution in a Michigan court of Justice, of
all sacred places. ... Hammond implicitly separated me, from other living things
that share and help complete my existence, the trees on my property. And I am
angry and bitter to the core more than the German Fuhrer held over 80+ years
ago, but I am not violent like the Fuhrer.
Defendant also sent a letter to defense counsel on June 6, 2016, stating that he was “strongly
convinced that you are left with no options than to hire a contract killer to kill me, and silence the
greatest evidence against you all, and your infidelity in this matter, me” and that he had notified
family in Africa and America of the situation “so they will know who to point law enforcement
to, to seek justice against, if anything happens to me mortally, in the course of these
proceedings.” Defendants have been forced to defend against actions against them that have no
basis in law and are unsupported by evidence and during those proceedings, have further been
-10-

App-35

forced to respond to a litany of meritless motions and to attempt to decipher the often off-topic
and peculiar pleadings and correspondences from plaintiff.
Despite the fact that plaintiff has already consumed extensive judicial time and resources
(requesting and receiving fee waivers in almost all cases) on his meritless and frivolous claims,
this Court has patiently and carefully scrutinized every aspect of his claims on appeal to
determine whether there is a scintilla of merit in any of them. Finding none, we affirm the trial
court rulings in all cases. We further find that, given the substantial history in these cases and all
related cases, plaintiffs appeals are vexatious in nature, taken without any reasonable basis for
belief that there was a meritorious issue to be determined on appeal. We therefore remand each
of these cases to the trial courts for a determination of actual damages and expenses incurred,
including reasonable attorney fees, to be awarded to each defendant as a result of the vexatious
appeals.2
Affirmed. We remand each case to its respective trial court pursuant to MCR
7.216(C)(2) for a determination of actual damages. We do not retain jurisdiction.

fsl Karen M. Fort Hood
/s/ Deborah A. Servitto
/s/ Jane M. Beckering

2 This Court has no doubt that it, too, will be accused of bias, prejudice, and bigotry against
plaintiff as have most, if not all, of the judges who have rendered opinions in any case dealing
with plaintiff.
-11-

App-36

Order

Michigan Supreme Court
Lansing, Michigan

April 2,2019

Bridget M. McCormack,
Chief Justice

158457-61

David F. Viviano,
ChiefJustice Pro Tem
StephenJ. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

JOSEPH CONSTANT,
Plaintiff-Appellant,
v

SC: 158457
COA: 336489
Oakland CC: 2016-155099-CZ

JAMES M. HAMMOND,
Defendant-Appellee.
JOSEPH CONSTANT,
Plaintiff-Appellant,
v

SC: 158458
COA: 336620
Oakland CC: 2016-153631-CZ

DTE ELECTRIC COMPANY,
Defendant-Appellee.
JOSEPH CONSTANT,
Plaintiff-Appellant,
v

SC: 158459
COA: 337483
Oakland CC: 2016-155238-CZ

LELAND PRINCE,
Defendant-Appellee.
JOSEPH CONSTANT,
Plaintiff-Appellant,
v

SC: 158460
COA: 338455
Oakland CC: 2016-155238-CZ

LELAND PRINCE,
Defendant-Appellee.

Appendix E
App-37

Justices

2

JOSEPH CONSTANT,
Plaintiff-Appellant,
v

SC: 158461
COA: 338686
Oakland CC: 2016-153631-CZ

DTE ELECTRIC COMPANY,
Defendant-Appellee.
On order of the Court, the application for leave to appeal the August 16, 2018
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

lift

&

$
&

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
April 2,2019

a0325

Clerk

App-38

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND
JOSEPH CONSTANT,
Plaintiff,

CD
CNI

"sf

O

CL

Case No. 16-153631-CZ
Hon. Cheryl A. Matthews

v

DTE ELECTRIC COMPANY,

LO
O

Defendant.

Z
<
“D

ORDER

o
CM

O

At a session of said Court held in the
Courthouse, City of Pontiac, Oakland County,
Michigan on
JAN 05 2017

c

PRESENT: THE HONORABLE CHERYL A. MATTHEWS, Circuit Judge

0

D

O

O
"O

c

(0

This matter is before the Court on the following three motions:
'

I. Plaintiffs Motion to Set Aside Sanctions;

03

O
co

II. Plaintiff’s Motion for Disqualification of Judge Cherly (sic) A Matthews (P44761)
Pursuant to MCR 2.003, MCR 2.119; and

LL

III. Defendant's Motion for Summary Disposition pursuant to MCR 2.116(C)(7) and

O

(C)(8)

c

■o

0
>
0

o
0

O'

The Court concludes that oral argument will not aid the Court in its decision on any of
the above stated motions and thus dispenses with oral argument. MCR 2.119(E)(3).
I. Plaintiffs Motion to Set Aside Sanctions
The Plaintiffs motion appears to be a motion for reconsideration although it is not
entitled as such. The Plaintiff has failed to show that he is entitled to relief pursuant to either

1

Appendix F
App-39

MCR 2.119 or MCR 2.612(C)(3) and therefore the Plaintiffs Motion to Set Aside Sanctions is
DENIED. Further, Judgment shall enter for the outstanding amount owed.
II. Plaintiff’s Motion for Disqualification of Judge Cherly (sic) A Matthews (P44761)
Pursuant to MCR 2.003, MCR 2.119
CO
CM
O

Q.
LO
O

The Plaintiff asks the Court to disqualify herself pursuant to MCR 2.003 and MCR 2.119
and alleges that she is personally biased, and prejudiced against him and extremely partial to
“fellow licensed attorney, Mr. Timothy Young (P22657).” The Plaintiff states in his motion that
he believes that he “cannot get fairness from her presiding over the case” and made other

Z
<
NO
CM

a)
O
>>

c

D

O

O

TD
C
CO
CO

o

statements in his motion regarding his dissatisfaction with this Court’s decisions.
MCR 2.003(C)(1)(a) and (b) states:
(C) Grounds.
(1) Disqualification of a judge is warranted for reasons that
include, but are not limited to, the following:
(a) The judge is biased or prejudiced for or against a party or
attorney.
(b) The judge, based on objective and reasonable perceptions, has
either (i) a serious risk of actual bias impacting the due process
rights of a party as enunciated in Caperton v Massey, 556 U.S.
868; 129 S Ct 2252; 173 L Ed 2d 1208 (2009), or (ii) has failed to
adhere to the appearance of impropriety standard set forth in
Canon 2 of the Michigan Code of Judicial Conduct.

U)

c

The Plaintiff has failed to meet the burden for establishing grounds for disqualification

LL
O
■O

<D
>

0)

o
<1>
QC

pursuant to section (C)(1)(a) and (b). This Court is not biased or prejudice for or against either
party. There is no risk of actual bias affecting the rights of the Plaintiff per Caperton and this
Court denies that it has at any time failed to adhere to standards of conduct imposed on this
Court to ensure the avoidance of even the appearance of impropriety. The Plaintiff has failed to
demonstrate that this Court has acted with any actual bias and has failed to cite any case law that
supports the Court’s disqualification. The Court’s actions toward the Plaintiff and toward the

2

App-40

Defendant have always been objective, reasonable, fair, and justified in view of the totality of the
facts and complicated procedural history that exists in this case.
Disqualification is not mandated, nor is it warranted in this matter, and therefore the
Plaintiff’s motion is DENIED.
CD
CM
O

CL
LO
O

Z
<

III. Defendant's Motion for Summary Disposition pursuant to MCR 2.116(C)(7) and (C)(8)
PROCEDURAL POSTURE
Plaintiff’s Complaint was filed on June 23, 2016. The Defendant filed a Motion for More
Definite Statement and to Strike all or Part of Plaintiff’s Complaint on July 20, 2016. The Court
granted that motion on September 28, 2016. Plaintiff filed a “Corrected Complaint” on

o
CM

September 30, 2016. However, the order reflecting the Court’s ruling on September 28, 2016

<D

was filed pursuant to MCR 2.602(B)(3) and therefore not entered until October 18, 2016. In the

O
>>
c

interim, on October 10, 2016, the Plaintiff filed an Application for Leave of the Court to Amend

O

Complaint (MCR 2.118(A)(2) (sic) with a Second Amended Complaint. The Plaintiff was not

D

O
•U

c

granted leave or ordered to file the Second Amended Complaint. Therefore, the Defendant’s

03

motion for summary disposition is based upon Plaintiff’s Corrected Complaint filed on

O)

September 30, 2016. Plaintiff filed other amended Complaints in this matter after October 10,

Ll

2016 that are improper and shall not be considered by this Court.

03

O
c
O
■o

The Defendant asks the Court to dismiss the entirety of the Plaintiffs Corrected

<D

>

<D
O
0

Q1

Complaint because every alleged claim is either barred by prior judgments, statute of limitations,
and/or failing to state a claim upon which relief can be granted. The Plaintiff’s Corrected
Complaint makes many allegations against persons not named in this matter and discusses other
litigation that has gone on with those individuals. The Plaintiff has previously initiated litigation
regarding the principal subject mailer of his current action and the Court declines to do written

3

App-41

findings of the procedural history of this matter because this Court has discovered that it has
already been done in other actions, and by both Defendant and Plaintiff, and restating same is not
necessary in this action.
STANDARD OF REVIEW
CD
CN

O

Q_
LO
O

Z

MCR 2.116(C)(7) states that entry of judgment, dismissal of the action, or other relief is
appropriate because of [...] prior judgment,

[...] statute of limitations, [...] before

commencement of the action. A party may support a motion under MCR 2.116(C)(7) by
affidavits, depositions, admissions, or other documentary evidence. If such material is submitted,

<

“3

it must be considered. MCR 2.116(G)(5). Moreover, the substance or content of the supporting

O
CN

proofs must be admissible in evidence. Unlike a motion under subsection (C)(10), a movant

0

under MCR 2.116(C)(7) is not required to file supportive material, and the opposing party need

O
>
c

not reply with supportive material. The contents of the complaint are accepted as true unless

O

contradicted by documentation submitted by the movant. Patterson v. Kleiman, 447 Mich. 429

O

■o

c

cu
(0

o

o>
c
LL
O

*o
0
>
0
O
0

tr

(1994). Maiden v Rozwood, 461 Mich 109 (1999).
A motion under MCR 2.116(C)(8) tests the legal sufficiency of the Complaint. All wellpleaded factual allegations are accepted as true and construed in a light most favorable to the
non-movant. Wade v. Dep'l of Corrections, 439 Mich 158, (1992). A motion under MCR
2.116(C)(8) may be granted only where the claims alleged are "so clearly unenforceable as a
matter of law that no factual development could possibly justify recovery." Id. at 163. "When
deciding a motion brought under this section, a court considers only the pleadings. MCR
2.116(G)(5)." Maiden.

4

App-42

DISCUSSION
The Plaintiff’s Corrected Complaint alleges the following counts:

CO

CNI

O

Q.

to

o
Z
<

O
CN

Count 1: Libel Against DTE Electric
Count 2: Fraud Against DTE Electric
Count 3: Violations (Malicious Prosecution Against DTE)
Count 4: Violations (Abuse of Process Against DTE)
Count 5: Violation (Fraudulent Misrepresentation Against DTE)
Count 6: Violations (False Pretenses Against DTE)
Count 7: Violations (Wrongful Enjoyment, Wrongfully-issued Preliminary Injunction Against
DTE)
Count 8: Violations (Fraud-On-The-Couit) (sic)
Count 9: (MCR 2.114(D) Violation Against DTE Electric and Mr. Leland Prince
After reviewing the admissible documentary evidence submitted in this matter and
considering the legal arguments of both Plaintiff and Defendant, the Court concludes that each
one of Plaintiffs Counts are barred by both MCR 2.116(C)(7) and (C)(8) and therefore summary

<D

o

c
o
O
~o
c

disposition in GRANTED.
Plaintiffs Corrected Complaint is DISMISSED WITH PREJUDICE. This order resolves
all pending claims and closes the case.

CD

CD

O
m
c
U.

IT IS SO ORDERED.

/s/Cheryl A. Matthews

JAN 05 2017
DATE

MB HON. CHERYL A. MATTHEWS

O

H—

■o

<d
>

<D
O
CD

oc

5

App-43

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND
JOSEPH CONSTANT,
Plaintiff,
Case No. 16-155099-CZ
Hon. Michael Warren

CM

v.

CD
O

JAMES M. HAMMOND,

2

<
CM
CM

O
LD

a
CO

o

CM

Defendant.
/

ORDER GRANTING
DEFENDANT'S MOTION, IN LIEU OF ANSWER TO COMPLAINT, FOR
SUMMARY DISPOSITION PURSUANT TO MCR 2.116(0(8) AND (7)

o

0

At a session of said Court, held in the
County of Oakland, State of Michigan
December 22,2016.

c

PRESENT: HON. MICHAEL WARREN

J

O

O
c

CD
CD

O
CD
C
LL
O
U
0

>

0
O
0

cc

The action is before the Court pursuant to the Defendant's Motion for
Summary Disposition pursuant to MCR 2.116(C)(7), (C)(8) and (C)(6); Plaintiff
having failed to respond to the Motion in a timely fashion in conformity with the
page limitation set forth in MCR 2.119(A)(2) and the Court having struck the
excessive answer the Plaintiff filed without leave, having denied the Plaintiffs
motion to file an answer in excess of twenty page limitation, and having denied
the Plaintiffs motion(s) to extend the time to answer the Defendant's Motion; the
Court recognizing its authority to issue orders establishing times for events
pursuant to MCR 2.116(G), MCR 2.119 and MCR 2.401; Kemerko Clawson LLC v
RXIV Inc, 269 Mich App 347 (2005), and additional authorities infra; the Court
finding that oral argument would not aid it in rendering a decision; and the Court
being otherwise advised in the premises:
THE COURT HEREBY GRANTS the Defendant's Motion for Summary Disposition
pursuant to MCR 2.116(C)(8) and (7) for the following (independent) reasons:
1. The Court is entitled to enforce its Scheduling Order. The Court has authority to
issue orders establishing times for events pursuant to MCR 2.116(G), MCR 2.119 and

Appendix G
App-44

CM
■st

O)

o
<
CM
CNJ

o
LU
O
CO
O
CNJ
0

O
c

3

o
O
TJ

c

CO
CO

O

D)
C
LL
O
“O

0

>

0
O
0

PC

MCR 2.401. See People v Grove, 455 Mich 439, 465 (1997) ("[t]he court rules provide
for and encourage the use of scheduling orders to promote the efficient processing of
civil and criminal cases); SCAO 2007-3. In fact, the Michigan Supreme Court has
affirmed summary disposition granted on the basis of a trial court enforcing its
summary disposition scheduling order. EDI Holdings LLC v Lear Corp, 469 Mich 1021
(2004) (summarily reversing the Court of Appeals' determination that the trial court
abused its discretion by refusing to accept a brief filed after the deadline established
by the trial court's summary disposition scheduling order: "The Court of Appeals
clearly erred in finding that the Oakland Circuit Court abused its discretion when it
enforced the summary disposition scheduling order"). Applying this precedent, our
Court of Appeals has reaffirmed a court's power to enforce its scheduling orders,
and in so doing, upheld this Court in enforcing its summary disposition scheduling
order in both Moore v Whiting, unpublished opinion per curiam of the Court of
Appeals, issued November 10, 2015 (Docket No. 323697) and Thigpen v Besatn
Entrance Solutions, unpublished opinion per curiam of the Court of Appeals, issued
September 16, 2014 (Docket No. 316696). See also Kemerko, 269 Mich App at 351-352,
353 (trial courts have authority to establish and enforce scheduling order deadlines
in connection with summary disposition motions); Bergin Financial, Inc v Delsean
Littlejohn, unpublished opinion per curiam of the Court of Appeals, decided
September 16, 2008 (Docket No. 278088) ("A trial court has no obligation to consider
whether enforcing a scheduling order is just under the circumstances. See Kemerko
Clawson LLC, supra at 352-353. In other words, a trial court has the discretion to
categorically refuse to consider a brief filed after the time set by a scheduling order.
See also EDI Holdings LLC v Lear Corp, 469 Mich 1021 [2004] [reinstating an order
granting summary disposition to the plaintiff because this Court 'clearly erred in
finding that the (circuit court) abused its discretion when it enforced the summary
disposition scheduling order']. Accordingly, the trial court was not required to
consider plaintiff s argument to the effect that the negligence of a particular attorney
should have been considered an excuse for the late filing. A party is responsible for
inaction by the party's agent. Alken-Ziegler v Waterbary Headers Corp, 461 Mich 219,
224 (1999). The trial court did not abuse its discretion in striking plaintiffs response
brief'). In short, a court need not prompt, await or accept an untimely brief. Id. See
also Citibank v Renner, unpublished opinion per curiam of the Court of Appeals,
issued November 27, 2012 (Docket No. 308841) (affirming summary disposition
where no response was filed and the trial court canceled oral argument: "The trial
court is not required to consider a response that was not timely filed. EDI Holdings,
LLC v Lear Corp, 469 Mich 1021. * * * A trial court does not abuse [its] discretion
when it dispenses with oral arguments, even if one party fails to respond to a
motion, if it is fairly apprised of the issues that need to be decided. Fisher [v Belcher,
269 Mich App 247,] 252 [2005]. Here, the trial court was apprised of all issues
because 'without plaintiffs argument, defendants' position required no further
elaboration'" [certain citations omitted]). In the instant case, the Plaintiff failed to
submit a timely brief in conformity with the page limitation requirements of MCR

2

App-45

CM
-3O
O
<
CM
CM

o
LD
Q

CO

o

CM

<D

O
c
O

O

"O

c

CO

O

U)

c

LL

2.119 despite ample opportunity to do so and he never sought leave to exceed the
page limitation before the briefing deadline in the Scheduling Order or before filing
his excessive, and thus, nonconforming brief. He also failed to notice for hearing his
motion to exceed the page limitation, as well as his motion(s) for additional time
which he filed on, and long after, the briefing deadline expired. This Court
nevertheless considered the foregoing motions and denied them because there was
no good cause to do grant them. It consequently struck the nonconforming,
excessive brief filed without leave. The Court need not await an untimely,
conforming brief in these circumstances (e.g., it need not prompt litigants to set
motions for hearing or await or accept answers exceeding the page limitation set in
MCR 2.119 where, as here, there was no cause to do so; courts also are not required
to grant additional time where a litigant had more time to respond than provided in
the Rules of Court and failed to show good cause for delay). Accordingly, under the
authorities supra, the Court is enforcing the Scheduling Order and its prior Orders
and granting the Defendant's Motion. As such, the Plaintiff is deemed to be without
any authority for any position in opposition to the Plaintiffs supported Motion (see
Scheduling Order). Further, the Court has been apprised of all the issues because,
given that the Plaintiff failed to respond, the Defendant's supported, unchallenged
arguments require no further elaboration. Citibank, supra. Under the authorities
supra and the Court7s prior Orders, the Court need not await or accept an untimely
filing, where as here, the Plaintiff failed to submit a timely, conforming responsive
brief despite ample opportunity to do so, and there has been no showing of good
cause to extend the page limitation in MCR 2.119 or the deadline for responsive
briefing set in the Court's Scheduling Order - a deadline which provided time
beyond the two weeks otherwise provided by the Rules of Court. To hold otherwise
in the instant circumstances effectively renders meaningless the power afforded by
MCR 2.401 to enforce scheduling orders in effort to promote the efficient
management of court dockets, and invites undue delay by litigants which, in turn,
derails the just, speedy, and economical progression and determination of every
action. This is a tact the Court will not follow where, as here, the moving party has
supported its submission.

O
■o

a>
>
a)
o
Q)

01

2. In addition, summary disposition pursuant to MCR 2.116(C)(8) is proper based on
the uncontroverted authorities and analysis in the Defendant's Motion which are
hereby incorporated and adopted herein,
Simply put, the Defendant's
uncontroverted exhibits, authorities and analysis, indisputably establish that the
Plaintiff has failed to state any viable claims against the Defendant whom he alleges
submitted a false affidavit in a prior judicial proceeding (Constant v DTE, Oakland
County Case No. 13-132055-CH) because (1) statements made by witnesses who are
an integral part of the judicial process "are wholly immune from liability for the
consequences of their testimony or related evaluations" - i.e., " [sjtatements made
during the course of judicial proceedings are absolutely privileged, provided they

3

App-46

are relevant, material, or pertinent to the issue being tried";1 and (2) there is no
cognizable civil action in Michigan for perjury or false swearing brought by a party
in which the testimony was introduced.2

c\i
O)

o
2
<
CNI
CN

o
LD

O

CD
O
CM
<D

O

3. Summary disposition is also proper pursuant to MCR 2.116(C)(7). Under MCR
2.116(C)(7), summary disposition is proper if the claim is barred because of
immunity, or a prior judgment.3 The Court incorporates the foregoing Discussion
establishing immunity. In addition, the Defendant's unchallenged arguments, legal
authorities, and exhibits, hereby incorporated, indisputably establish the Plaintiffs
claims are barred by res judicata and/or by the applicable states of limitation. The
time to raise assertions of false testimony is in the action in which they were
purportedly made. Maiden, supra. The Plaintiff did, in fact, argue to the Michigan
Court of Appeals that the Defendanf s Affidavit was false and that, thus, he was
entitled to relief. The Court of Appeals stated: "We have reviewed all remaining
issues and requests for relief and find them to be without merit." DTE Electric Co v
Constant, unpublished opinion per curiam of the Court of Appeals, issued December
4, 2014 (Docket No. 317976). Since the Court of Appeals has already determined, in
the only appropriate case in which it could be determined, that the Plaintiffs claims
for relief based on the Defendant's purportedly false affidavit are without merit, the
opinion settles the matter and the instant action is barred by res judicata as each
element has been met.4

C
13
O

O
T3
C
(0

CD

O

03
C
I_L

o
*o

(1)

>
03
O
03

o:

1 Maiden v Rozwood, 461 Mich 109,134 (1999) (internal quotations and citations omitted). See additional
authorities in the Defendant's Motion and Brief hereby incorporated.
2 Id. (citations omitted) ("Absent perjury of a character requiring action by the prosecuting attorney, the
testimony of a witness is to be weighed by the factfinder in the matter at bar, not by a subsequent jury
summoned to determine whether the first lawsuit was tainted").
As stated in footnote 3 of the Defendant's Brief, the Court in Maiden affirmed summary disposition under
MCR 2.116(C)(8) based on immunity. There is no reason to dispute the holding. However, its
substantive analysis also provides a basis for granting summary disposition under MCR 2.116(C)(7)
which specifically identifies immunity.
3 In determining whether a party is entitled to judgment as a matter of law under MCR 2.117(C)(7), a
court must accept as true a plaintiffs well pleaded factual allegations and construe them in favor of the
plaintiff's favor, unless contradicted by submitted affidavits or documentary evidence. See e.g., Pusakulich
v Ironwood, 247 Mich App 80, 82 (2001). If no material facts are in dispute, then whether the movant is
entitled to summary disposition is a question of law. Huron Tool & Engineering Co v Precision Consulting
Services Inc, 209 Mich App 365, 377 (1995).
4 Res judicata bars a second, subsequent action when (1) the first action was decided on the merits; (2)
both actions involve the same parties or their privies; and (3) the matter in the second action was or could
have been resolved in the first. Adair v State, 470 Mich 105,121 (2004).
The Plaintiff's filing of two additional actions in federal court against the Defendant based on his
allegedly false affidavit which have been dismissed with prejudice arguably constitute an additional basis
for barring the instant action by res judicata. These are not the bases for finding res judicata here.
4

App-47

cnj
O)
O
<

CNI

CM

o

LU
Q

CD

o
CM

<D

o
c
o
O
u
c
CD

The Plaintiff's defamation claim must additionally fall because it is time-barred by
the one year statute of limitations applicable to defamation claims. MCL 600.5805(9);
Mitan v Campbell 474 Mich 21, 23 (2005), citing MCL 600.5805(9). The Court
incorporates the Defendant's uncontroverted authorities and analysis of irrefutable
facts at pages 7-8 of its Supporting Brief (including but not limited to the fact that the
Affidavit was signed and used in 2013 yet the instant action was not filed until 2016,
years later).5
4. In addition, the Plaintiff has abandoned any contrary position. Mitcham v City of
Detroit, 355 Mich 182, 203 (1959) (a party may not "leave it up to this Court to
discover and rationalize the basis for his claims, or unravel and rationalize the basis
for his arguments, and then search for authority either to sustain or reject his
position"); Walters v Nadell, 481 Mich 377, 388 (2008) ("Trial Courts are not the
research assistants of the litigants; the parties have a duty to fully present legal
arguments for its resolution of their dispute"); Houghton v Keller, 256 Mich App 336,
339-340 (2003) ("failure to properly address the merits of [one's] assertion of error
constitutes abandonment of the issue, ★ * [A party] may not merely announce his
position and leave it to this Court to discover and rationalize the basis for his claims .
. . nor may he give issues cursory treatment with little or no citation of supporting
authority").
Thus, for all of the foregoing reasons, the Motion is properly granted.6

ORDER

CD

O

O)

c
u_
o

■o

CD
>
<D

o
(D
01

In light of the foregoing, the COURT HEREBY GRANTS the Defendant's Motion
for Summary Disposition pursuant to MCR 2.116(C)(8) and (7).

This Opinion & Order resolves the last pending claim and closes the case.
/s/Michael Warren
HON. MICHAEL WARREN,
CIRCUIT COURT JUDGE
5 The Court need not address whether "fraud" is time-barred because the substance of the claim has been
rendered meritless under MCR 2.116(C)(8) and (7) for other reasons.
6 The Court need not address the Defendant's alternative argument for summary disposition under MCR
2.116(C)(6).

5 .

App-48

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND
JOSEPH CONSTANT,
Plaintiff,
v.

Case No. 16-155238-CZ
Hon. Michael Warren

LELAND PRINCE,
Defendant.
OPINION AND ORDER REGARDING
DEFENDANTS MOTION, IN LIEU OF ANSWER TO THIRD AMENDED
COMPLAINT, FOR SUMMARY DISPOSITION AND
FOR VEXATIOUS LITIGANT INJUNCTION

IO
CM

At a session of said Court, held in the
County of Oakland, State of Michigan
May 2,2017.

N

PRESENT: HON. MICHAEL WARREN

O.

J

J

©

CM
CM

OPINION

IO

I
Q)

Overview

O
>*

c

3

Before the Court is Defendant Leland Prince's Motion, In lieu of Answer to

o

Plaintiff's Third Amended Complaint, for Summary Disposition and For Vexatious

O

■o

c

(0

Litigant Injunction. At stake are:

(0

o

O)

c

Li.

£

.

•

Whether the Plaintiff's Third Amended Complaint should be dismissed because
it fails to state any viable cause of action and is otherwise barred by the
immunity afforded by the "litigation privilege" and/or by res judicata? The
answer is "yes" because the same nucleus of common facts has been previously
litigated, some of the claims are not recognized by Michigan, and others are

■u

0>

>

0)

1

o
Q)

O'

Appendix H
App-49

barred by immunity, and as such, the Defendant's Motion for Summary
Disposition is granted pursuant to MCR 2.116(C)(7) and (8).
•

Whether the Defendant's request for a "vexatious litigant injunction" can be
granted by this Court when the Defendant's own authority reflects that the
power to grant such an order, if it exists at all, belongs to the Chief Judge of this
Circuit Court pursuant to the "Chief Judge Rule," particularly MCR
8.110(C)(3)(a)? Because the answer is "no," this portion of the Defendant's
Motion is denied without prejudice to seeking and obtaining such relief from the
Chief Judge.
Oral argument is dispensed pursuant to MCR 2.119(E)(3) as the briefing and the

Court s independent familiarity with the instant action and its underpinnings are more
than sufficient to address the issues presented.

s
Q_

II

m

CM

The Defendant's Motion for Summary disposition is granted

o

A

CM
CM
LO

0>

O

Standards of review

A motion for summary disposition pursuant to MCR 2.116(C)(7) is proper if the
cause of action is barred, inter alia, because of a prior judgment (e.g., res judicata or

c

collateral estoppel) or "immunity granted by law . . . ." "Under MCR 2.116(C)(7), the

o

trial court must accept as true the contents of the complaint, unless they are

3
O

■o

c

contradicted by documentary evidence submitted by the moving party." Davis v City of

(0
<9

o

U)

Detroit, 269 Mich App 376, 378 (2005). If there is no factual dispute, whether a plaintiff's
claim is barred under a principle set forth in MCR 2.116(C)(7) is a question of law for

c

the court to decide. If a factual dispute exists, however, summary disposition is not

Li.

appropriate. RDM Holdings, Ltd v Continental Plastics Co, 281 Mich App 678, 687 (2008)

O

(citations omitted).

O

>

O
O

2

O'

App-50

A motion brought pursuant to MCR 2.116(C)(8) tests the legal sufficiency of the
complainf, and may be granted only where the claims alleged are "so clearly
unenforceable as a matter of law that no factual development could possibly justify
recovery." Maiden v Rozioood, 461 Mich 109/ 119 (1999). Only the pleadings may be
considered/ and all well pleaded factual allegations are accepted as true and construed
in a light most favorable to the nonmovant. Id.

B
Procedural background

The procedural history articulated in the Defendant7 s briefing, hereby

s
CL
tf>
CM

o

incorporated, reflects the slew of state, federal, and administrative complaints filed by
the Plaintiff, acting in pro per, centering on a dispute with DTE Energy ("DTE") and
springing from civil litigation DTE filed in 2013 before the Honorable Shalina Kumar in
which DTE obtained a preliminary injunction permitting DTE to enter onto the

CM
CM

Plaintiffs property to trim trees and/or conduct line clearance in connection with an

in

easement. Defendant Prince is an in-house attorney employed by DTE who handled
the trial court proceedings in the 2013 litigation (intermittently, the "original action").

<D

O
c

D
O

o
■o

c

The original action before Judge Kumar was affirmed by the Court of Appeals, and
leave was denied by the Michigan Supreme Court. The Plaintiff thereafter sought leave
before the United States Supreme Court, which likewise was denied. Two grievances
before the Attorney Grievance Commission, including one against the instant

«

Defendant, have been dismissed for lack of merit. The Plaintiff's subsequent lawsuit

CB

against the Attorney Grievance Commission before the Michigan Supreme Court was

O
O)

c

also denied.1 Complaints filed by the Plaintiff before the Michigan Judicial Tenure
against Judge Kumar and the Court of Appeals judges affirming Judge Kumar's rulings

LL
O
TJ
Q)

>

0)
O
Q)

1 On March 7, 2017, the Michigan Supreme Court denied the Plaintiffs motion for reconsideration
regarding the Court's ruling on the grievance against the instant Defendant. Constant v Grievance
Commission,__ Mich __ ; 890 NW2d 672 (2017).
3

cc

App-51

in the original action granting DTE's motion for preliminary injunction and subsequent
motion for voluntary dismissal have been rejected.

The Plaintiff has additionally

summarily lost lawsuits he filed in the United States District Court for the Eastern
District of Michigan seeking (1) to compel the State of Michigan and various political
subdivisions to prosecute DTE employee James Hammond for supposed perjury arising
from an affidavit he submitted in the original action; (2) retribution against Judge
Kumar; (3) and relief against James Hammond (in two separate lawsuits). He appealed
those losses to the Sixth Circuit Court of Appeals for the United States and lost. He also
has lost several additional lawsuits he filed in the Oakland County Circuit Court
including (1) an action against DTE arguing that the 2013 action in front of Judge
Kumar was a fraud (Oakland County Case No. 2016-153631-CZ before the Honorable

S

Cheryl Matthews); (2) another action against Mr. Hammond (ultimately transferred to

m

this Court from the Honorable Rae Lee Chabot) claiming that Hammond's affidavit

Q_
CM
h-

o

CM
CM
IO

defamed the Plaintiff and was part of fraud (Oakland County Case No. 2016-155099CZ); (3) a complaint for writ of mandamus against the same state political subdivisions
he sued unsuccessfully in federal court to prosecute Hammond for his supposed false
affidavit (Oakland County Case No. 16-153074-AW assigned to and dismissed by this
Court). Each of the Oakland County lawsuits were dismissed on summary disposition.

Q)

o
c

3
O

o

*D
C
TO

The instant case centers on the same common nucleus of operative fact as the
foregoing cases - i.e., the original action filed by DTE before Judge Kumar and the
supposed false affidavit by Hammond.

The Plaintiffs pro se Third Amended

Complaint spans more than sixty pages to allege the following 11 claims:

TO

o

O)

c
LL
O
■o
<D

>

0)
O
0)

• Tort of Spoliation (Count I)
• Civil Conspiracy (Count II)
• Fraud on the Court (Count III)
• Fraud (Count IV)
4

ft

App-52

• Two Counts labeled "Count V" for Fraudulent Misrepresentation
• Abuse of Process (Count VII)2
• Libel and The Doctrine of Continuing Offense (Count VIII)
• Tortious Interference in my career, work, employments, and livelihood
(Count IX)
• Collateral Violations of MCR 2.114(D) (Count X)
• Violations of MCR 9.104(1), (2)(3), (4), (5) (Count XI)3

C
Rulings

s

The Court incorporates by reference the Defendant's arguments for dismissal

to

under MCR 2.116(C)(8) and/or MCR 2.116(C)(7) due to failure to state a claim,

Q_

eg

immunity pursuant to the "litigation privilege," and/or by res judicata.
Ni

o

CM
CM
lf>

xz
0)

O
*

c

3
O

o

T3
C

«

More

particularly, and without limiting those arguments:

• "Tort of Spoliation" (Count I) is dismissed pursuant to MCR 2.116(C)(8) because
Michigan does not recognize spoliation of evidence as a valid cause of action.
Teel v Meredith, 284 Mich App 660, 661, 662, 665 (2009). Rather, spoliation is an
evidentiary concept and constitutes a discovery violation; its redress is left to the
trial court before which the evidence would be presented to craft the appropriate
evidentiary sanction. Id. at 666. See generally Id. at 661-674. None of the
jurisprudence cited in the Plaintiffs pleading or Response warrant a contrary
finding. In fact, the Plaintiff's own pleading acknowledges that spoliation of
evidence is controlled by a jury instruction, M Civ JI2d 6.01(d).4

<0

O

O)
C
LL
O
■o
0)

>

O

2 No Count is denominated as Count VI.
3 With exhibits, the pleading spans seven hundred sixty nine pages.
* Third Amended Complaint at Paragraph 43. The jurisprudence cited in the pleading further confirms
that Michigan has yet to recognize spoliation of evidence as a valid, independent cause of action. It is not
a trial court's function to legally recognize a cause of action the appellate courts and Michigan legislature
have yet to create.
5

o
<D
O'

App-53

•

"Violations of MCR 9.104(1), (2), (3), (4), (5)" (Count XI) fails to state an
actionable claim because, by its own terms, MCR 9.104 clarifies that violations of
its subrules are grounds for discipline" under the disciplinary proceedings
defined in Subchapter 9.100 of the Michigan Rules of Court. Additionally, MRPC
1.0(b) and Michigan jurisprudence clearly and unambiguously establish that
violations of the Michigan Rules of Professional Conduct do not give rise to a
civil cause of action. MCL 1.0(b) (violations of the MRPC "do not, however, give
rise to a cause of action for enforcement of a rule or for damages caused by
failure to comply with an obligation or prohibition imposed by a rule"); Watts v
Polaczyk, 242 Mich App 600, 607 n 1 (failure to comply with the requirements of
the MRPC do not give rise to a cause of action for enforcement of rules);
Underwood v Bullard, unpublished opinion per curiam of the Court of Appeals,
issued January 20, 2009 (Docket Nos 279457 and 280528); 2009 WL 127658 at *3.
Furthermore, even if violations of MCR 9.104 could give rise to civil cause of
action (and it plainly does not), the Attorney Grievance Commission and the
Michigan Supreme Court have already ruled that the Plaintiffs allegations of
misconduct by the instant Defendant are without any merit. The Michigan
Supreme Courf s decision in Constant v Attorney Grievance Commission, 500 Mich
890 (2016), reconsideration denied _ Mich
890 NW2d 672 (2017) is binding
on this Court.

*

Collateral Violations of MCR 2.114(D)" (Count X) is dismissed pursuant to MCR
2.116(C)(8) because no authority before the Court recognizes a cognizable cause
of action for violation of the Rule in a prior lawsuit. By its terms, MCR 2.114(D)
simply addresses the effect of a signature of an attorney (or party) on a document
filed with the Court in a lawsuit. The remedy for violating MCR 2.114(D) is
located in MCR 2.114(E) which provides that, "on motion of a party or on the
court's own initiative," the tried court presiding over the action in which the
Rule was violated may impose the "appropriate sanction" (emphasis supplied).
This language confirms that violation of MCR 2.114(D) does not give rise to a
separate cause of action in a second lawsuit, and it is not this trial court's
function to create a new cause of action our appellate courts and legislature have
yet to recognize.

S
CL
IT)
CM

hO
CM
CM

w
<D

o
*

c

3
O

o

■o

c
re

re
O
O)

c

Count X also falls pursuant to MCR 2.116(C)(7) (res judicata). Violation of MCR
2.114 by "DTE's attorney" was raised and rejected by the Court of Appeals in the
original action. DTE Electric Co v Constant, 2014 WL 6861225 at *2. The Plaintiffs

LL
L.

£
■o
0)

>
O

6

o
<D
CL

App-54

instant pleading confirms that "DTE's attorney" in the original action was the
instant Defendant5
• The balance of the Plaintiffs claims fall pursuant to MCR 2.116(C)(8) and/or
MCR 2.116(C)(7) (immunity and/or res judicata) because:

S

CL

ID
CM

O
CM
CM
ID

Q>

O
*
c
3
O

o

C
(0

(1) Based on the Defendants authorities and analysis in Argument I of its
Supporting Brief, pages 6 through the first paragraph on page 9, hereby
incorporated, the purportedly false Hammond affidavit and other statements
made by attorneys, including but not limited to the instant Defendant, and
witnesses during the course of judicial proceedings are absolutely privileged
provided they are relevant, material or pertinent to the issue being tried.
Sanders v Leeson Air Conditioning Corp,, 362 Mich 692, 695 (1961) (dismissing
counts for libel, malicious use of process, and abuse of process); Daoud v De
Leau, 455 Mich 181 (1997) (dismissing fraud and perjury claims as barred by
the doctrines of absolute witness immunity and res judicata); Maiden, 461
Mich at 134 (discussing witness immunity); Oesterle v Wallace, 272 Mich App
260, 264 (2006) (discussing attorneys and witnesses and dismissing
defamation claim). Falsity or malice on the part of the witness or attorney
does not abrogate the privilege. Sanders, 362 Mich at 695 (internal citations
and quotations omitted) (reiterating that "If statements made in the course of
judicial proceedings, in pleadings or in argument, are relevant, material, or
pertinent to the issue, their falsity or the malice of their author is not open to
inquiry. They are then absolutely privileged" [emphasis supplied]); Maiden,
461 Mich at 134, citing Sanders, 362 Mich at 695. The affidavit, arguments by
the instant Defendant, and documents submitted in the original action before
Judge Kumar were relevant, material and pertinent to the issue being tried
(access by way of easement to trim trees). The Plaintiff's argument that the
affidavit and other statements by DTE witnesses are not relevant, material or
pertinent because they are "fake, fictitious and bogus" based on Table 1 and

flj

O
o
c
LL

£
■o
0>

>

<D
O

5 Res judicata bars a second, subsequent action when (1) the first action was decided on the merits; (2)
both actions involve the same parties or their privies; and (3) the matter in the second action was or could
have been resolved in the first. Adair v State, 470 Mich 105,121 (2004).
7

a>
CL

App-55

attendant exhibits in his Response ignores the immunity the privilege
provides.6
Litigation immunity cannot be avoided "by artful pleading; the gravamen of
plaintiff's is determined by considering the entire claim." Maiden, 461 Mich at
135. In the instant case, the gravamen of the Plaintiffs Third Party Complaint
is that the instant Defendant supposedly injured the Plaintiff by filing
Hammond s purported false affidavit in the original action and making
arguments based on that affidavit. Just as in Maiden and Sanders, it does not
matter how the Plaintiff fashions his claims, none are viable due to litigation
immunity.
(2) Furthermore, no matter the label, no cognizable civil action in Michigan
arising from perjury or false swearing in one suit exists so as to authorize a
second suit brought by a party to the prior suit. As explained by our Supreme
Court in Dauod v De Leau, 455 Mich 181,200-203 (1997) (citations omitted):

s
Q_

Where statutes and court rules provide effective means for dealing
with a judgment fraudulently obtained through perjury, it is
neither sound law nor sound policy to permit a separate cause of
action for fraud.

LO
CM
1^

o

CM
CM

***

w

The confluence of principles related to res judicata, collateral
estoppel, and proximate cause serve to illustrate the logical
underpinnings of the general rule giving witnesses immunity from
civil suit. ... If testimony in one suit, accepted by the court but
disputed by the losing litigant, can give rise to a second suit, what
would prevent a third suit arising from the unsatisfactory outcome
of the second? Or a fourth arising from the third?

Q>

o

>»

c
3
O

o
■o

c

(0

Witness immunity is also grounded in the need of the judicial
system for testimony from witnesses who, taking their oath, are
free of concern that they themselves will be targeted by the loser for
further litigation. Absent perjury of a character requiring action by

(0

o

U)
£
LL
6

O
TJ
0)

>
4)

Our Supreme Court's decision in Daoud is especially instructive because it addressed a somewhat

factually analogous setting as it involved claims that witnesses perjured themselves in an earlier civil
action (before the probate court) causing the plaintiff injury (loss of parental rights).
8

O
0)

O'

App-56

the prosecuting attorney, the testimony of a witness is to be
weighed by the factfinder in the matter at bar, not by a subsequent
jury summoned to determine whether the first lawsuit was tainted
by fraud.
***

[A] second suit for fraud, based on perjury ("intrinsic fraud"), may
not be filed against a person involved in a first suit, if the statutes
and court rules provide an avenue for bringing the fraud to the
attention of the first court and asking for relief there........

CL

in

CM

N.
O
CM
CM

in
0)

O
5*
C
3
O

O
"O
C
(0

As previously discussed, the gravamen of the Plaintiffs Third Party
Complaint is that the instant Defendant supposedly injured the Plaintiff by
filing Hammond's purported false affidavit in the original action and making
arguments based on that affidavit. However, under the foregoing principles,
the Hammond affidavit cannot provide the basis for the instant claims
because multiple forums have determined the affidavit does not constitute
perjury of a character requiring action by the prosecuting attorney, and the
Plaintiff has lost each proceeding he initiated to compel the State of Michigan
and various political subdivisions to prosecute Hammond. The balance of
allegations in the Third Amended Complaint, taken as true, likewise fail to
state or infer perjury of a character requiring action by the prosecuting
attorney as the Plaintiff has lost every proceeding he has initiated against the
instant Defendant, DTE, Hammond and others based on the same nucleus of
operative fact. .
Consequently, the foregoing jurisprudence confirms that the time to raise
assertions of false testimony was in the action in which they were
purportedly made - i.e., the original action. Sanders, supra.

<0

o

O)

c

(3) Res judicata also bars the Plaintiffs claims for the reasons discussed by the
Defendant in Argument 11(A) hereby incorporated and DTE Electric Co v
Constant, 2014 WL* 6861225 at *2 -*3.

LL

O
■o
0)

>

0)

(4) The Defendant's Reply, Argument I (excluding the statute of limitations), hereby
incorporated further establishes why the Plaintiff's conspiracy claim is not viable
and requires dismissal under MCR 2.116(C)(8), at a minimum.
9

o

0>

O'

App-57

The Court declines to address the Defendants statute of limitations argument as it is
unnecessary to the resolution of the Motion which is resolved by the foregoing Rulings.
Ill
The Defendants Motion for Vexatious Litigation Injunction is denied without
prejudice to seeking and obtaining such relief before the Chief Judge pursuant to the
Chief Judge Rule, MCR 8.110(C)(3)(a)
The Defendant requests this Court to include in its "judgment" an "order
enjoining [the Plaintiff] from filing another action arising out of the same nucleus of
operative facts unless he first petitions this Court for, and obtains, permission to do so."
Directly on point, albeit non-binding, is Chastang v Sandies, unpublished opinion per
Q.

m

CM

curiam of the Court of Appeals, issued January 22, 2015 (Docket No. 318640), lv den 498
Mich 885 (2015). The Court in Chastang affirmed an order issued in Wayne Court
Circuit Court pursuant to a "complaint for supervisory control by Chief Judge . . .

o

CSI

pursuant MCR 8.110(C)(3)(a)" enjoining a "prolific litigant" from "filing any complaint

CM
lO

or pleading in the Third Circuit Court without seeking and obtaining an order from the
Chief Judge approving the filing of any complaint or pleading[.]"

<D

o

In that case, the

litigant had filed over 80 federal cases from 1995 until 2008 when he was enjoined by

>»

United States District Court for the Eastern District of Michigan Judge Marianne O.

E
3
O

Battaru from filing future actions without first seeking and obtaining leave of court.

o

■o

Thereafter, he filed at least five more actions in Wayne County Circuit Court naming

c

similar defendants and claims to federal actions he had filed relating to his incarceration

re
O

for two federal bank robbery convictions, one of which occurred in Michigan.

U)

Recognizing that no binding Michigan authority exists on the issue, the Court of

c

Appeals in Chastang affirmed the order on the basis of (1) federal precedent holding that

LL

similar "pre-filing" orders do not violate due process rights, and (2) Michigan

£

jurisprudence confirming that this State's circuit courts have subject matter jurisdiction

“O

0)

>

a>

to grant injunctive relief.
10

o
a>
O'

App-58

Although Chastang is very instructive given the absence of binding state
authority on the issue and its thoughtful application of Michigan subject matter
jurisdiction principles and federal precedent, it does not provide the power to this Court
to consider or grant the Defendant's request.

Rather, under Chastang, that power

belongs to the Chief Judge of this Circuit Court (the Honorable Nanci Grant). The
procedural setting in Chastang was a complaint for supervisory control by the Chief
Judge of the Third Circuit Court pursuant to MCR 8.110(C)(3)(a). MCR 8.113 is the
' Chief Judge Rule" and subrule (C)(3)(a) provides:

S

a.

to
<M

(3) As director of the administration of the court, a chief judge shall have
administrative superintending power and control over the judges of
the court and all court personnel with authority and responsibility to:
(a) supervise caseload management and monitor disposition of the
judicial work of the court[.J

o

CM
CM

This Court lacks the "administrative superintending power and control over the

lO

judges of the court and all court personnel with authority" and "responsibility to . . .
supervise caseload management and monitor disposition of the judicial work of the

0)

O
>i

c

3
O

o

court." Without such authority or responsibility, this Corut lacks the power to consider
or order the relief requested. Consequently, this portion of the Motion is denied
without prejudice to the Defendant seeking an order from the Chief Judge.

■o

c

(9

o

o>
c
LL

£
•o

0)
>

o
o

11 •

a>
a:

App-59

ORDER
Based on the foregoing Opinion, die Court
1. GRANTS Defendant's Motion for Summary Disposition in lieu of Answer to
Third Amended Complaint pursuant to MCR 2.116(C)(8) and (7).
2. DENIES WITHOUT PREJUDICE the Defendant's Motion for Vexatious Litigant
Injunction.
This resolves the last pending claim and closes the case.
/s/Michael Warren

O.

HON. MICHAEL WARREN
CIRCUIT COURT JUDGE

in
cm

o

CM
CM

in
Q)

o
>1

c
3
o

o
•c
c

(0

re
O
o>
c
LL
O
■o

d>

>
a>
o

12

0)

o'

App-60

I

TOje Circuit Court
for tj)£ Huxtlj fubmal Circuit of jKkfnpn
COURTHOUSE TOWER

PONTIAC,. MICHIGAN 4834t-0404

May 2,2017

Michael Warren

TELEPHONE
(248) 975-4250

CIRCUIT JUDGE

FACSIMILE
(248) 975-9796

Re:

Constant v. Prince 2016-155238-CZ

Dear Joseph Constant:

S

Q_
IO
CM
1^

o

CM
CM

in

a
<D

o
c

3
O

Pursuant to Administrative Order 2007-3, mandatory eFiling is required
on all pending "C", "N", "A", and "P" case types assigned to Judge Michael
Warren. Beginning on May 1, 2017 the 6th Judicial Circuit Court of Oakland
County moved to a new version of eFile entitled Tyler Odyssey. Service Contact
information will not be migrated from Wiznet to the new system. You are
receiving this one-time courtesy notification because your case falls into one of
the eFile categories, yet to date, you have not registered as a user with the
Court's Tyler (Odyssey) e-filing system for this case. Your enrollment is essential
in order to file, serve and/or receive filings on your case (except as otherwise
indicated in SCAO 2007-3[8]). Please contact Odyssey regarding enrollment at 1800-297-5377 or efiIing.support@tylertech.com. (Training and support
information also is available through these contact resources.)
In the alternative, you must file a motion before the Court to remove
yourself from the program. We suggest you review SCAO 2007-3(3)(b)
regarding any such motion as well as MCR 2.119(A).

o
•a
c

(C
(0

This will be your last notice reminding you of the Court's e-filing
requirement. For your convenience, we have enclosed a courtesy copy of the
Court's most recent filing.

O

Very truly yours,
Chambers of the Hon. Michael Warren

Ui

c

LL

Enclosure

O
■o
Q)

>
4>

O
0)

App-61

_____i

PROOF OF SERVICE
The undersigned certifies that e-service was attempted with the
Court's Order Regarding Opinion & Order Regarding
Defendant's Motion, in Lieu of Answer to Third Amended
Complaint, for Summary Disposition and for Vexatious Litigant
Injunction, upon parties in the above case (as this is an e-filing
case subject to the e-filing and e-service requirements). However,
parties are not properly attached as e-filing contacts. Therefore, a
one-time courtesy copy was mailed on
„
May 2,2017 J
/

'/

B

4

JC

(

/

0.
in
CM

tj-

o

CM
CM

m
a
0

O
c

□
O
o
-a
c

(0
(0

O
o>
c
LL

o
TJ
0

>

0
O
0

O'

App-62

8/19/2021

SupremacyClause

Supremacy Clause
Article VI. Paragraph 2 of the U.S. Constitution is commonly referred to as the
Supremacy Clause. It establishes that the federal constitution, and federal law
generally, take precedence over state laws, and even state constitutions. It prohibits
states from interfering with the federal government's exercise of its constitutional
powers, and from assuming any functions that are exclusively entrusted to the federal
government. It does not, however, allow the federal government to review or veto state
laws before they take effect.
Last updated in June of 2017 by Stephanie Jurkowski.
• wex

Appendix
hltps://vwAv.law.cornell.edu'we>/supremacy_clause

App-63

I
1/1

Fourth Amendment

8/17/2021

Fourth Amendment
Amendment IV
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no warrants
shall issue, but upon probable cause, supported by oath or affirmation, and particularly
describing the place to be searched, and the persons or things to be seized.

Appendix J
https://www.law.cornell.edu/coratitutionffourth_arnendment

App-64

1/1

8/17/2021

Seventh Amendment

Seventh Amendment
Amendment VII
In suits at common law, where the value in controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and no fact tried by a jury, shall be otherwise
reexamined in any court of the United States, than according to the rules of the common
law.

APPENDIX K
https://www.law.cornetl.edu/constitution/seventh_amendment

App-65

1/1

8/19/2021

14th Amendment

14th Amendment
Amendment XIV
Section 1.
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No state
shall make or enforce any law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.

Section 2.
Representatives shall be apportioned among the several states according to their
respective numbers, counting the whole number of persons in each state, excluding
Indians not taxed. But when the right to vote at any election for the choice of electors for
President and Vice President of the United States, Representatives in Congress, the
executive and judicial officers of a state, or the members of the legislature thereof, is
denied to any of the male inhabitants of such state, being twentv-one years of aae. and
citizens of the United States, or in any way abridged, except for participation in rebellion,
or other crime, the basis of representation therein shall be reduced in the proportion
which the number of such male citizens shall bear to the whole number of male citizens
twenty-one years of age in such state.

Section 3.
No person shall be a Senator or Representative in Congress, or elector of President
and Vice President, or hold any office, civil or military, under the United States, or under
any state, who, having previously taken an oath, as a member of Congress, or as an
officer of the United States, or as a member of any state legislature, or as an executive
or judicial officer of any state, to support the Constitution of the United States, shall

Appendix L
https://www.law.cornell.edu/constitirtion/amendmenbdv

App-66

1/2

8/19/2021

14th Amendment

have engaged in insurrection or rebellion against the same, or given aid or comfort to
the enemies thereof. But Congress may by a vote of two-thirds of each House, remove
such disability.

Section 4.
The validity of the public debt of the United States, authorized by law, including debts
incurred for payment of pensions and bounties for services in suppressing insurrection
or rebellion, shall not be questioned. But neither the United States nor any state shall
assume or pay any debt or obligation incurred in aid of insurrection or rebellion against
the United States, or any claim for the loss or emancipation of any slave; but all such
debts, obligations and claims shall be held illegal and void.

Section 5.
The Congress shall have power to enforce, by appropriate legislation, the provisions of
this article.

wex resources
Section 1.

https://www.law.cornell.edu/constitutiOfVamKTdmenbiv

App-67

2/2

8/17/2021

18 U.S. Code § 1341 - Frauds and swindles

18 U.S. Code § 1341 - Frauds and swindles
Whoever, having devised or intending to devise anv scheme or artifice to defraud, or
for obtaining money or property by means of false or fraudulent pretenses,
representations, or promises, or to sell, dispose of, loan, exchange, alter, give away,
distribute, supply, or furnish or procure for unlawful use any counterfeit or spurious
coin, obligation, security, or other article, or anything represented to be or intimated or
held out to be such counterfeit or spurious article, for the purpose of executing such
scheme or artifice or attempting so to do, places in any post office or authorized
depository for mail matter, any matter or thing whatever to be sent or delivered by the
Postal Service, or deposits or causes to be deposited any matter or thing whatever to
be sent or delivered by any private or commercial interstate carrier, or takes or receives
therefrom, any such matter or thing, or knowingly causes to be delivered by mail or
such carrier according to the direction thereon, or at the place at which it is directed to
be delivered by the person to whom it is addressed, any such matter or thing, shall be
fined under this title or imprisoned not more than 20 years, or both. If the violation
occurs in relation to, or involving any benefit authorized, transported, transmitted,
transferred, disbursed, or paid in connection with, a presidential^ declared major
disaster or emergency (as those terms are defined in section 102 of the Robert T.
Stafford Disaster Relief and Emergency Assistance Act (42 U.S.C. 5122)). or affects a
financial institution, such person shall be fined not more than $1,000,000 or imprisoned
not more than 30 years, or both.
Whoever, for the purpose of conducting, promoting, or carrying on by means of the
Postal Service, any scheme or device mentioned in section 1341 of this title or any
other unlawful business, uses or assumes, or requests to be addressed by, any
fictitious, false, or assumed title, name, or address or name other than his own proper
name, or takes or receives from any post office or authorized depository of mail matter,
any letter, postal card, package, or other mail matter addressed to any such fictitious,
false, or assumed title, name, or address, or name other than his own proper name,
shall be fined under this title or imprisoned not more than five years, or both.
Whoever, having devised or intending to devise any scheme or artifice to defraud, or
for obtaining money or property by means of false or fraudulent pretenses,

Appendix M
https://www.law.cornell.edu/uscode/texl/18/1343

App-68

1/3

8/17/2021

18 U.S. Code § 1341 - Frauds and swindles

representations, or promises, transmits or causes to be transmitted by means of wire,
radio, or television communication in interstate or foreign commerce, any writings, signs,
signals, pictures, or sounds for the purpose of executing such scheme or artifice, shall
be fined under this title or imprisoned not more than 20 years, or both. If the violation
occurs in relation to, or involving any benefit authorized, transported, transmitted,
transferred, disbursed, or paid in connection with, a presidential^ declared major
disaster or emergency (as those terms are defined in section 102 of the Robert T.
Stafford Disaster Relief and Emergency Assistance Act (42 U.S.C. 51221V or affects a
financial institution, such person shall be fined not more than $1,000,000 or imprisoned
not more than 30 years, or both.
Whoever knowingly executes, or attempts to execute, a scheme or artifice—
(1)
to defraud a financial institution; or
(2)
to obtain any of the moneys, funds, credits, assets, securities, or other property owned
by, or under the custody.or control of, a financial institution, by means of false or
fraudulent pretenses, representations, or promises;
shall be fined not more than $1,000,000 or imprisoned not more than 30 years, or both.
(1) If a person is—
(A)
violating or about to violate this chapter or section 287. 371 (insofar as such violation
involves a conspiracy to defraud the United States or any agency thereof), or 1001 of
this title;
(B)
committing or about to commit a banking law violation (as defined in section 3322(d) of
this title): or
(C)
committing or about to commit a Federal health care offense;
the Attorney General may commence a civil action in any Federal court to enjoin such
violation.
(2) If a person is alienating or disposing of property, or intends to alienate or dispose of
property, obtained as a result of a banking law violation (as defined in section 3322(d)
of this title) or a Federal health care offense or property which is traceable to such
violation, the Attorney General may commence a civil action in any Federal court—

https://www.law.cornell.edu/uscode/te>l/18/1343

App-69

2/3

8/17/2021

18 U.S. Code § 1341 - Frauds and swindles

(A)
to enjoin such alienation or disposition of property; or
(B) for a restraining order to—
(i)
prohibit any person from withdrawing, transferring, removing, dissipating, or disposing
of any such property or property of equivalent value; and
(ii)
appoint a temporary receiver to administer such restraining order.
(3)
A permanent or temporary injunction or restraining order shall be granted without bond.
(b)
The court shall proceed as soon as practicable to the hearing and determination of
such an action, and may, at any time before final determination, enter such a
restraining order or prohibition, or take such other action, as is warranted to prevent a
continuing and substantial injury to the United States or to any person or class of
persons for whose protection the action is brought. A proceeding under this section is
governed by the Federal Rules of Civil Procedure, except that, if an indictment has
been returned against the respondent, discovery is governed by the Federal Rules of
Criminal Procedure.

https://www.law.cornell.edu/uscode/te)4/18/1343

App-70

3/3

8/26/2021

18 U.S. Code § 1343- Fraud by wire, radio, or telewsion

18 U.S. Code § 1343 - Fraud by wire, radio, or
television
Whoever, having devised or intending to devise any scheme or artifice to defraud, or
for obtaining money or property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to be transmitted by means of wire,
radio, or television communication in interstate or foreign commerce, any writings, signs,
signals, pictures, or sounds for the purpose of executing such scheme or artifice, shall
be fined under this title or imprisoned not more than 20 years, or both. If the violation
occurs in relation to, or involving any benefit authorized, transported, transmitted,
transferred, disbursed, or paid in connection with, a presidential^ declared major
disaster or emergency (as those terms are defined in section 102 of the Robert T.
Stafford Disaster Relief and Emergency Assistance Act (42 U.S.C. 51221). or affects a
financial institution, such person shall be fined not more than $1,000,000 or imprisoned
not more than 30 years, or both.
Whoever knowingly executes, or attempts to execute, a scheme or artifice—

(D
to defraud a financial institution; or
(2)
to obtain any of the moneys, funds, credits, assets, securities, or other property owned
by, or under the custody or control of, a financial institution, by means of false or
fraudulent pretenses, representations, or promises;
shall be fined not more than $1,000,000 or imprisoned not more than 30 years, or both.

Appendix N
https7/www.law.cornell.edu/uscode/te)l/18/1343

App-71

1/1

18 U.S. Code § 1962 - Prohibited activities

8/17/2021

18 U.S. Code § 1962 - Prohibited activities
(a)
It shall be unlawful for anv person who has received any income derived, directly or
indirectly, from a pattern of racketeering activity or through collection of an unlawful
debt in which such person has participated as a principal within the meaning of section
2, title 18, United States Code, to use or invest, directly or indirectly, any part of such
income, or the proceeds of such income, in acquisition of any interest in, or the
establishment or operation of, anv enterprise which is engaged in, or the activities of
which affect, interstate or foreign commerce. A purchase of securities on the open
market for purposes of investment, and without the intention of controlling or
participating in the control of the issuer, or of assisting another to do so, shall not be
unlawful under this subsection if the securities of the issuer held by the purchaser, the
members of his immediate family, and his or their accomplices in any pattern or
racketeering activity or the collection of an unlawful debt after such purchase do not
amount in the aggregate to one percent of the outstanding securities of any one class,
and do not confer, either in law or in fact, the power to elect one or more directors of
the issuer.
(b)
It shall be unlawful for any person through a pattern of racketeering activity or through
collection of an unlawful debt to acquire or maintain, directly or indirectly, any interest in
or control of anv enterprise which is engaged in, or the activities of which affect,
interstate or foreign commerce.
(c)
It shall be unlawful for any person employed by or associated with any enterprise
engaged in, or the activities of which affect, interstate or foreign commerce, to conduct
or participate, directly or indirectly, in the conduct of such enterprise's affairs through a
pattern of racketeering activity or collection of unlawful debt.
(d)
It shall be unlawful for any person to conspire to violate any of the provisions of
subsection (a), (b), or (c) of this section.
(a) Whoever violates any provision of section 1962 of this chapter shall be fined under
this title or imprisoned not more than 20 years (or for life if the violation is based on a

APPENDIX O
https ://wiftw.law.cornell.edu/uscode/te>i/18/1962

App-72

1/14

18 U .S. Code § 1962 - Prohibited activities

8/17/2021

racketeering activity for which the maximum penalty includes life imprisonment), or both
and shall forfeit to the United States, irrespective of any provision of State law—
(1)
any interest the person has acquired or maintained in violation of section 1962;
(2) any—
(A)
interest in;
(B)
security of;
(C)
claim against; or
(D)
property or contractual right of any kind affording a source of influence over;
anv enterprise which the person has established, operated, controlled, conducted, or
participated in the conduct of, in violation of section 1962; and
(3)
any property constituting, or derived from, any proceeds which the person obtained,
directly or indirectly, from racketeering activity or unlawful debt collection in violation of
section 1962.
The court, in imposing sentence on such person shall order, in addition to any other
sentence imposed pursuant to this section, that the person forfeit to the United States
all property described in this subsection. In lieu of a fine otherwise authorized by this
section, a defendant who derives profits or other proceeds from an offense may be
fined not more than twice the gross profits or other proceeds.
(b) Property subject to criminal forfeiture under this section includes—

(1)
real property, including things growing on, affixed to, and found in land; and
(2)
tangible and intangible personal property, including rights, privileges, interests, claims
and securities.
(c)
All right, title, and interest in property described in subsection (a) vests in the United
States upon the commission of the act giving rise to forfeiture under this section. Any
such property that is subsequently transferred to a person other than the defendant
may be the subject of a special verdict of forfeiture and thereafter shall be ordered

https://www.law.cornell.edu/uscode/text/18/1962

App-73

2/14

18 U.S. Code § 1962- Prohibited activities

8/17/2021

forfeited to the United States, unless the transferee establishes in a hearing pursuant to
subsection (I) that he is a bona fide purchaser for value of such property who at the
time of purchase was reasonably without cause to believe that the property was subject
to forfeiture under this section.
(d)
(1) Upon application of the United States, the court may enter a restraining order or
injunction, require the execution of a satisfactory performance bond, or take any other
action to preserve the availability of property described in subsection (a) for forfeiture
under this section—
(A)
upon the filing of an indictment or information charging a violation of section 1962 of
this chapter and alleging that the property with respect to which the order is sought
would, in the event of conviction, be subject to forfeiture under this section; or
(B) prior to the filing of such an indictment or information, if, after notice to persons
appearing to have an interest in the property and opportunity for a hearing, the court
determines that—

(0
there is a substantial probability that the United States will prevail on the issue of
forfeiture and that failure to enter the order will result in the property being destroyed,
removed from the jurisdiction of the court, or otherwise made unavailable for forfeiture;
and
(ii)
the need to preserve the availability of the property through the entry of the requested
order outweighs the hardship on any party against whom the order is to be entered:
Provided, however, That an order entered pursuant to subparagraph (B) shall be
effective for not more than ninety days, unless extended by the court for good cause
shown or unless an indictment or information described in subparagraph (A) has been
filed.
(2)
A temporary restraining order under this subsection may be entered upon application of
the United States without notice or opportunity for a hearing when an information or
indictment has not yet been filed with respect to the property, if the United States
demonstrates that there is probable cause to believe that the property with respect to
which the order is sought would, in the event of conviction, be subject to forfeiture
under this section and that provision of notice will jeopardize the availability of the

https7/www.law.cornell.edu/uscode/te)4/18/1962

App-74

3/14

8/17/2021

18 U.S. Code § 1962 - Prohibited activities

property for forfeiture. Such a temporary order shall expire not more than fourteen days
after the date on which it is entered, unless extended for good cause shown or unless
the party against whom it is entered consents to an extension for a longer period. A
hearing requested concerning an order entered under this paragraph shall be held at
the earliest possible time, and prior to the expiration of the temporary order.
(3)
The court may receive and consider, at a hearing held pursuant to this subsection
evidence and information that would be inadmissible under the Federal Rules of
Evidence.
(e)
Upon conviction of a person under this section, the court shall enter a judgment of
forfeiture of the property to the United States and shall also authorize the Attorney
General to seize all property ordered forfeited upon such terms and conditions as the
court shall deem proper. Following the entry of an order declaring the property
forfeited, the court may, upon application of the United States, enter such appropriate
restraining orders or injunctions, require the execution of satisfactory performance
bonds, appoint receivers, conservators, appraisers, accountants, or trustees, or take
any other action to protect the interest of the United States in the property ordered
forfeited. Any income accruing to, or derived from, an enterprise or an interest in an
enterprise which has been ordered forfeited under this section may be used to offset
ordinary and necessary expenses to the enterprise which are required by law, or which
are necessary to protect the interests of the United States or third parties.
(f)
Following the seizure of property ordered forfeited under this section, the Attorney
General shall direct the disposition of the property by sale or any other commercially
feasible means, making due provision for the rights of any innocent persons. Any
property right or interest not exercisable by, or transferable for value to, the United
States shall expire and shall not revert to the defendant, nor shall the defendant or any
person acting in concert with or on behalf of the defendant be eligible to purchase
forfeited property at any sale held by the United States. Upon application of a person.
other than the defendant or a person acting in concert with or on behalf of the
defendant, the court may restrain or stay the sale or disposition of the property pending
the conclusion of any appeal of the criminal case giving rise to the forfeiture, if the
applicant demonstrates that proceeding with the sale or disposition of the property will
result in irreparable injury, harm or loss to him. Notwithstanding 31 U.S.C. 3302(b). the

https://www.law.cornell.edu/uscode/texf/18/1962

App-75

4/14

J

18 U.S. Code § 1962 - Prohibited activities

8/17/2021

proceeds of any sale or other disposition of property forfeited under this section and
any moneys forfeited shall be used to pay all proper expenses for the forfeiture and the
sale, including expenses of seizure, maintenance and custody of the property pending
its disposition, advertising and court costs. The Attorney General shall deposit in the
Treasury any amounts of such proceeds or moneys remaining after the payment of
such expenses.
(g) With respect to property ordered forfeited under this section, the Attorney General
is authorized to—
(1)
grant petitions for mitigation or remission of forfeiture, restore forfeited property to
victims of a violation of this chapter, or take any other action to protect the rights of
innocent persons which is in the interest of justice and which is not inconsistent with the
provisions of this chapter;
(2)
compromise claims arising under this section;
(3)
award compensation to persons providing information resulting in a forfeiture under this
section;
(4)
direct the disposition by the United States of all property ordered forfeited under this
section by public sale or any other commercially feasible means, making due provision
for the rights of innocent persons: and
(5)
take appropriate measures necessary to safeguard and maintain property ordered
forfeited under this section pending its disposition.
(h) The Attorney General may promulgate regulations with respect to—

(D
making reasonable efforts to provide notice to persons who may have an interest in
property ordered forfeited under this section;
(2)
granting petitions for remission or mitigation of forfeiture;
(3)
the restitution of property to victims of an offense petitioning for remission or mitigation
of forfeiture under this chapter;
(4)

https ://www.law.cornell.edu/uscode/te)d/18/1962

App-76

5/14

8/17/2021

18 U.S. Code § 1962 - Prohibited activities

the disposition by the United States of forfeited property by public sale or other
commercially feasible means;
(5)
the maintenance and safekeeping of any property forfeited under this section pending
its disposition; and

(6)
the compromise of claims arising under this chapter.
Pending the promulgation of such regulations, all provisions of law relating to the
disposition of property, or the proceeds from the sale thereof, or the remission or
mitigation of forfeitures for violation of the customs laws, and the compromise of claims
and the award of compensation to informers in respect of such forfeitures shall apply to
forfeitures incurred, or alleged to have been incurred, under the provisions of this
section, insofar as applicable and not inconsistent with the provisions hereof. Such
duties as are imposed upon the Customs Service or any person with respect to the
disposition of property under the customs law shall be performed under this chapter by
the Attorney General.
(i) Except as provided in subsection (/), no party claiming an interest in property subject
to forfeiture under this section may—

d)
intervene in a trial or appeal of a criminal case involving the forfeiture of such property
under this section; or
(2)
commence an action at law or equity against the United States concerning the validity of
his alleged interest in the property subsequent to the filing of an indictment or
information alleging that the property is subject to forfeiture under this section.

(i)
The district courts of the United States shall have jurisdiction to enter orders as
provided in this section without regard to the location of any property which may be
subject to forfeiture under this section or which has been ordered forfeited under this
section.
(k)
In order to facilitate the identification or location of property declared forfeited and to
facilitate the disposition of petitions for remission or mitigation of forfeiture, after the
entry of an order declaring property forfeited to the United States the court may, upon
application of the United States, order that the testimony of any witness relating to the

https7/vvww.law.cornell.edu/Liscode/te)d/18/1962

App-77

6/14

8/17/2021

18 U.S. Code § 1962- Prohibited activities

property forfeited be taken by deposition and that any designated book, paper,
document, record, recording, or other material not privileged be produced at the same
time and place, in the same manner as provided for the taking of depositions under
Rule 15 of the Federal Rules of Criminal Procedure.
(I)
(1)
Following the entry of an order of forfeiture under this section, the United States shall
publish notice of the order and of its intent to dispose of the property in such manner as
the Attorney General may direct. The Government may also, to the extent practicable,
provide direct written notice to anv person known to have alleged an interest in the
property that is the subject of the order of forfeiture as a substitute for published notice
as to those persons so notified.
(2)
Any person, other than the defendant, asserting a legal interest in property which has
been ordered forfeited to the United States pursuant to this section may, within thirty
days of the final publication of notice or his receipt of notice under paragraph (1),
whichever is earlier, petition the court for a hearing to adjudicate the validity of his
alleged interest in the property. The hearing shall be held before the court alone,
without a jury.
(3)
The petition shall be signed by the petitioner under penalty of perjury and shall set forth
the nature and extent of the petitioner’s right, title, or interest in the property, the time
and circumstances of the petitioner’s acquisition of the right, title, or interest in the
property, any additional facts supporting the petitioner’s claim, and the relief sought.
(4)
The hearing on the petition shall, to the extent practicable and consistent with the
interests of justice, be held within thirty days of the filing of the petition. The court may
consolidate the hearing on the petition with a hearing on any other petition filed by a
person other than the defendant under this subsection.
(5)
At the hearing, the petitioner may testify and present evidence and witnesses on his
own behalf, and cross-examine witnesses who appear at the hearing. The United States
may present evidence and witnesses in rebuttal and in defense of its claim to the
property and cross-examine witnesses who appear at the hearing. In addition to
testimony and evidence presented at the hearing, the court shall consider the relevant

https://www.law.cornell.edu/uscode/te>4/18/1962

App-78

7/14

8/17/2021

18 U.S. Code § 1962 - Prohibited activities

portions of the record of the criminal case which resulted in the order of forfeiture.
(6) If, after the hearing, the court determines that the petitioner has established by a
preponderance of the evidence that—
(A)
the petitioner has a legal right, title, or interest in the property, and such right, title, or
interest renders the order of forfeiture invalid in whole or in part because the right, title,
or interest was vested in the petitioner rather than the defendant or was superior to any
right, title, or interest of the defendant at the time of the commission of the acts which
gave rise to the forfeiture of the property under this section; or
(B)
the petitioner is a bona fide purchaser for value of the right, title, or interest in the
property and was at the time of purchase reasonably without cause to believe that the
property was subject to forfeiture under this section;
the court shall amend the order of forfeiture in accordance with its determination.
(7)
Following the court’s disposition of all petitions filed under this subsection, or if no such
petitions are filed following the expiration of the period provided in paragraph (2) for the
filing of such petitions, the United States shall have clear title to property that is the
subject of the order of forfeiture and may warrant good title to any subsequent
purchaser or transferee.
(m) If any of the property described in subsection (a), as a result of any act or omission
of the defendant—

(D
cannot be located upon the exercise of due diligence;
(2)
has been transferred or sold to, or deposited with, a third party;
(3)
has been placed beyond the jurisdiction of the court;
(4)
has been substantially diminished in value; or
(5)
has been commingled with other property which cannot be divided without difficulty;
the court shall order the forfeiture of any other property of the defendant up to the
value of any property described in paragraphs (1) through (5).
(a)

https ://www.!aw.cornell.ediVuscode/texl/18/1962

App-79

8/14

8/17/2021

18U.S. Code § 1962- Prohibited activities

The district courts of the United States shall have jurisdiction to prevent and restrain
violations of section 1962 of this chapter bv issuing appropriate orders, including, but
not limited to: ordering anv person to divest himself of any interest, direct or indirect, in
anv enterprise: imposing reasonable restrictions on the future activities or investments
of anv person, including,' but not limited to, prohibiting anv person from engaging in the
same type of endeavor as the enterprise engaged in, the activities of which affect
interstate or foreign commerce; or ordering dissolution or reorganization of any
enterprise, making due provision for the rights of innocent persons.
(b)
The Attorney General may institute proceedings under this section. Pending final
determination thereof, the court may at any time enter such restraining orders or
prohibitions, or take such other actions, including the acceptance of satisfactory
performance bonds, as it shall deem proper.

(c)
Any person injured in his business or property by reason of a violation of section 1962
of this chapter may sue therefor in any appropriate United States district court and shall
recover threefold the damages he sustains and the cost of the suit, including a
reasonable attorney’s fee, except that no person mav rely upon any conduct that would
have been actionable as fraud in the purchase or sale of securities to establish a
violation of section 1962. The exception contained in the preceding sentence does not
apply to an action against anv person that is criminally convicted in connection with the
fraud, in which case the statute of limitations shall start to run on the date on which the
conviction becomes final.
(d)
A final judgment or decree rendered in favor of the United States in any criminal
proceeding brought by the United States under this chapter shall estop the defendant
from denying the essential allegations of the criminal offense in any subsequent civil
proceeding brought by the United States.
(a)
Any civil action or proceeding under this chapter against any person may be instituted
in the district court of the United States for any district in which such person resides, is
found, has an agent, or transacts his affairs.
(b)
In any action under section 1964 of this chapter in any district court of the United States
in which it is shown that the ends of justice require that other parties residing in any

https:/Awvw.law.correll.edu/uscaJe/tert/18/1962

App-80

9/14

8/17/2021

18 U.S. Code § 1962- Prohibited activities

other district be brought before the court, the court may cause such parties to be
summoned, and process for that purpose may be served in any judicial district of the
United States bv the marshal thereof.
(c)
In any civil or criminal action or proceeding instituted by the United States under this
chapter in the district court of the United States for any judicial district, subpenas issued
by such court to compel the attendance of witnesses may be served in any other judicial
district, except that in any civil action or proceeding no such subpena shall be issued for
service upon any individual who resides in another district at a place more than one
hundred miles from the place at which such court is held without approval given by a
judge of such court upon a showing of good cause.
(d)
All other process in any action or proceeding under this chapter may be served on any
person in any judicial district in which such person resides, is found, has an agent, or
transacts his affairs.
In any proceeding ancillary to or in any civil action instituted by the United States under
this chapter the proceedings may be open or closed to the public at the discretion of
the court after consideration of the rights of affected persons.
(a)
Whenever the Attorney General has reason to believe that anv person or enterprise
may be in possession, custody, or control of any documentary materials relevant to a
racketeering investigation, he may, prior to the institution of a civil or criminal
proceeding thereon, issue in writing, and cause to be served upon such person, a civil
investigative demand requiring such person to produce such material for examination,
(b) Each such demand shall—

(1)
state the nature of the conduct constituting the alleged racketeering violation which is
under investigation and the provision of law applicable thereto;
(2)
describe the class or classes of documentary material produced thereunder with such
definiteness and certainty as to permit such material to be fairly identified;
(3)
state that the demand is returnable forthwith or prescribe a return date which will
provide a reasonable period of time within which the material so demanded may be

https ://www.law.cornell.edu/uscode/te)4/18/1962

App-81

10/14

8/17/2021

18 U.S. Code § 1962- Prohibited activities

assembled and made available for inspection and copying or reproduction; and
(4)
identify the custodian to whom such material shall be made available,
(c) No such demand shall—
(1)
contain any requirement which would be held to be unreasonable if contained in a
subpena duces tecum issued by a court of the United States in aid of a grand jury
investigation of such alleged racketeering violation; or
(2)
require the production of any documentary evidence which would be privileged from
disclosure if demanded by a subpena duces tecum issued by a court of the United
States in aid of a grand jury investigation of such alleged racketeering violation.
(d) Service of any such demand or any petition filed under this section may be made
upon a person by—
(1)
delivering a duly executed copy thereof to any partner, executive officer, managing
agent, or general agent thereof, or to any agent thereof authorized by appointment or
by law to receive service of process on behalf.of such person, or upon any individual
person:
(2)
delivering a duly executed copy thereof to the principal office or place of business of the
person to be served; or
(3)
depositing such copy in the United States mail, by registered or certified mail duly
addressed to such person at its principal office or place of business.
(e)
A verified return by the individual serving any such demand or petition setting forth the
manner of such service shall be prima facie proof of such service. In the case of service
by registered or certified mail, such return shall be accompanied by the return post
office receipt of delivery of such demand.
(f)

(D
The Attorney General shall designate a racketeering investigator to serve as racketeer
document custodian, and such additional racketeering investigators as he shall
determine from time to time to be necessary to serve as deputies to such officer.

https7/www.law.cornell.edu/uscode/te)d/18/1962

App-82

11/14

8/17/2021

18 U.S. Code § 1962 - Prohibited activities

(2)
Any person upon whom any demand issued under this section has been duly served
shall make such material available for inspection and copying or reproduction to the
custodian designated therein at the principal place of business of such person, or at
such other place as such custodian and such person thereafter may agree and
prescribe in writing or as the court may direct, pursuant to this section on the return
date specified in such demand, or on such later date as such custodian may prescribe
in writing. Such person may upon written agreement between such person and the
custodian substitute for copies of all or any part of such material originals thereof.
(3)
The custodian to whom any documentary material is so delivered shall take physical
possession thereof, and shall be responsible for the use made thereof and for the
return thereof pursuant to this chapter. The custodian may cause the preparation of
such copies of such documentary material as may be required for official use under
regulations which shall be promulgated by the Attorney General. While in the
possession of the custodian, no material so produced shall be available for
examination, without the consent of the person who produced such material, by any
individual other than the Attorney General. Under such reasonable terms and
conditions as the Attorney General shall prescribe, documentary material while in the
possession of the custodian shall be available for examination by the person who
produced such material or any duly authorized representatives of such person.
(4)
Whenever any attorney has been designated to appear on behalf of the United States
before any court or grand jury in any case or proceeding involving any alleged violation
of this chapter, the custodian may deliver to such attorney such documentary material
in the possession of the custodian as such attorney determines to be required for use
in the presentation of such case or proceeding on behalf of the United States. Upon the
conclusion of any such case or proceeding, such attorney shall return to the custodian
any documentary material so withdrawn which has not passed into the control of such
court or grand jury through the introduction thereof into the record of such case or
proceeding.
(5) Upon the completion of—
(i)
the racketeering investigation for which anv documentary material was produced under
this chapter, and

https://www.law.corne!l.edu/usctxJe/te>l/18/1962

App-83

12/14

8/17/2021

18 U.S. Code § 1962 - Prohibited activities

(ii)
any case or proceeding arising from such investigation, the custodian shall return to the
person who produced such material all such material other than copies thereof made by
the Attorney General pursuant to this subsection which has not passed into the control
of any court or grand jury through the introduction thereof into the record of such case
or proceeding.
(6)
When any documentary material has been produced by anv person under this section
for use in any racketeering investigation, and no such case or proceeding arising
therefrom has been instituted within a reasonable time after completion of the
examination and analysis of all evidence assembled in the course of such investigation,
such person shall be entitled, upon written demand made upon the Attorney General, to
the return of all documentary material other than copies thereof made pursuant to this
subsection so produced by such person.
(7) In the event of the death, disability, or separation from service of the custodian of
any documentary material produced under any demand issued under this section or the
official relief of such custodian from responsibility for the custody and control of such
material, the Attorney General shall promptly—
(i)
designate another racketeering investigator to serve as custodian thereof, and
(ii)
transmit notice in writing to the person who produced such material as to the identity
and address of the successor so designated.
Any successor so designated shall have with regard to such materials all duties and
responsibilities imposed by this section upon his predecessor in office with regard
thereto, except that he shall not be held responsible for any default or dereliction which
occurred before his designation as custodian.
(9)
Whenever any person fails to comply with any civil investigative demand duly served
upon him under this section or whenever satisfactory copying or reproduction of any
such material cannot be done and such person refuses to surrender such material, the
Attorney General may file, in the district court of the United States for any judicial district
in which such person resides, is found, or transacts business, and serve upon such
person a petition for an order of such court for the enforcement of this section, except
that if such person transacts business in more than one such district such petition shall

https://www.law.corndl.edu/uscode/te>t/18/1962

App-84

13/14

8/17/2021

18 U.S. Code § 1962 - Prohibited activities

be filed in the district in which such person maintains his principal place of business, or
in such other district in which such person transacts business as may be agreed upon
by the parties to such petition.
(h)
Within twenty days after the service of any such demand upon any person, or at any
time before the return date specified in the demand, whichever period is shorter, such
person may file, in the district court of the United States for the judicial district within
which such person resides, is found, or transacts business, and serve upon such
custodian a petition for an order of such court modifying or setting aside such demand.
The time allowed for compliance with the demand in whole or in part as deemed proper
and ordered by the court shall not run during the pendency of such petition in the court.
Such petition shall specify each ground upon which the petitioner relies in seeking such
relief, and may be based upon any failure of such demand to comply with the provisions
of this section or upon any constitutional or other legal right or privilege of such person.
(i)
At any time during which any custodian is in custody or control of any documentary
material delivered by anv person in compliance with any such demand, such person
may file, in the district court of the United States for the judicial district within which the
office of such custodian is situated, and serve.upon such custodian a petition for an
order of such court requiring the performance by such custodian of any duty imposed
upon him by this section.
(j)
Whenever any petition is filed in any district court of the United States under this
section, such court shall have jurisdiction to hear and determine the matter so
presented, and to enter such order or orders as may be required to carry into effect the
provisions of this section.

htlps://www.!aw.cornell.edu/uscode/te)d/18/1962

App-85

14/14

18 U.S. Code § 1964- Civil remedies

8/26/2021

18 U.S. Code § 1964 - Civil remedies
(a)
The district courts of the United States shall have jurisdiction to prevent and restrain
violations of section 1962 of this chapter by issuing appropriate orders, including, but
not limited to: ordering anv person to divest himself of any interest, direct or indirect, in
anv enterprise: imposing reasonable restrictions on the future activities or investments
of anv person, including, but not limited to, prohibiting anv person from engaging in the
same type of endeavor as the enterprise engaged in, the activities of which affect
interstate or foreign commerce; or ordering dissolution or reorganization of any
enterprise, making due provision for the rights of innocent persons.
(b)
The Attorney General may institute proceedings under this section. Pending final
determination thereof, the court may at any time enter such restraining orders or
prohibitions, or take such other actions, including the acceptance of satisfactory
performance bonds, as it shall deem proper.
(c)
Any person injured in his business or property by reason of a violation of section 1962
of this chapter may sue therefor in any appropriate United States district court and shall
recover threefold the damages he sustains and the cost of the suit, including a
reasonable attorney’s fee, except that no person mav rely upon any conduct that would
have been actionable as fraud in the purchase or sale of securities to establish a
violation of section 1962. The exception contained in the preceding sentence does not
apply to an action against anv person that is criminally convicted in connection with the
fraud, in which case the statute of limitations shall start to run on the date on which the
conviction becomes final.
(d)
A final judgment or decree rendered in favor of the United States in any criminal
proceeding brought by the United States under this chapter shall estop the defendant
from denying the essential allegations of the criminal offense in any subsequent civil
proceeding brought by the United States.

(a)
Any civil action or proceeding under this chapter against any person may be instituted

Appendix P
https ://www.law.cornell.edu/uscode/te>4/ia/1964

App-86

1/6

8/26/2021

18 U.S. Code § 1964 ■ Civil remedies

in the district court of the United States for any district in which such person resides, is
found, has an agent, or transacts his affairs.
(b)
In any action under section 1964 of this chapter in any district court of the United States
in which it is shown that the ends of justice require that other parties residing in any
other district be brought before the court, the court may cause such parties to be
summoned, and process for that purpose may be served in any judicial district of the
United States by the marshal thereof.
(c)
In any civil or criminal action or proceeding instituted by the United States under this
chapter in the district court of the United States for any judicial district, subpenas issued
by such court to compel the attendance of witnesses may be served in any other judicial
district, except that in any civil action or proceeding no such subpena shall be issued for
service upon any individual who resides in another district at a place more than one
hundred miles from the place at which such court is held without approval given by a
judge of such court upon a showing of good cause.
(d)
All other process in any action or proceeding under this chapter may be served on any
person in any judicial district in which such person resides, is found, has an agent, or
transacts his affairs.
In any proceeding ancillary to or in any civil action instituted by the United States under
this chapter the proceedings may be open or closed to the public at the discretion of
the court after consideration of the rights of affected persons.
(a)
Whenever the Attorney General has reason to believe that anv person or enterprise
may be in possession, custody, or control of any documentary materials relevant to a
racketeering investigation, he may, prior to the institution of a civil or criminal
proceeding thereon, issue in writing, and cause to be served upon such person, a civil
investigative demand requiring such person to produce such material for examination,
(b) Each such demand shall—

(D
state the nature of the conduct constituting the alleged racketeering violation which is
under investigation and the provision of law applicable thereto;
(2)

httpsy/www.l aw.cornell.edu/uscode/texl/18/1964

App-87

2/6

8/26/2021

18 U.S. Code § 1964 - Civil remedies

describe the class or classes of documentary material produced thereunder with such
definiteness and certainty as to permit such material to be fairly identified;
(3)
state that the demand is returnable forthwith or prescribe a return date which will
provide a reasonable period of time within which the material so demanded may be
assembled and made available for inspection and copying or reproduction; and
(4)
identify the custodian to whom such material shall be made available,
(c) No such demand shall—

d)
contain any requirement which would be held to be unreasonable if contained in a
subpena duces tecum issued by a court of the United States in aid of a grand jury
investigation of such alleged racketeering violation; or
(2)
require the production of any documentary evidence which would be privileged from
disclosure if demanded by a subpena duces tecum issued by a court of the United
States in aid of a grand jury investigation of such alleged racketeering violation.
(d) Service of any such demand or any petition filed under this section may be made
upon a person by—
(1)
delivering a duly executed copy thereof to any partner, executive officer, managing
agent, or general agent thereof, or to any agent thereof authorized by appointment or
by law to receive service of process on behalf of such person, or upon any individual
person:
(2)
delivering a duly executed copy thereof to the principal office or place of business of the
person to be served; or
(3)
depositing such copy in the United States mail, by registered or certified mail duly
addressed to such person at its principal office or place of business.
(e)
A verified return by the individual serving any such demand or petition setting forth the
manner of such service shall be prima facie proof of such service. In the case of service
by registered or certified mail, such return shall be accompanied by the return post
office receipt of delivery of such demand.

https7Avww.law.cornell.edu/uscode/te>4/18/1964

App-88

3/6

8/26/2021

18 U.S. Code § 1964 ■ Civil remedies

(f)

d)
The Attorney General shall designate a racketeering investigator to serve as racketeer
document custodian, and such additional racketeering investigators as he shall
determine from time to time to be necessary to serve as deputies to such officer.
(2)
Any person upon whom any demand issued under this section has been duly served
shall make such material available for inspection and copying or reproduction to the
custodian designated therein at the principal place of business of such person, or at
such other place as such custodian and such person thereafter may agree and
prescribe in writing or as the court may direct, pursuant to this section on the return
date specified in such demand, or on such later date as such custodian may prescribe
in writing. Such person may upon written agreement between such person and the
custodian substitute for copies of all or any part of such material originals thereof.
(3)
The custodian to whom any documentary material is so delivered shall take physical
possession thereof, and shall be responsible for the use made thereof and for the
return thereof pursuant to this chapter. The custodian may cause the preparation of
such copies of such documentary material as may be required for official use under
regulations which shall be promulgated by the Attorney General. While in the
possession of the custodian, no material so produced shall be available for
examination, without the consent of the person who produced such material, by any
individual other than the Attorney General. Under such reasonable terms and
conditions as the Attorney General shall prescribe, documentary material while in the
possession of the custodian shall be available for examination by the person who
produced such material or any duly authorized representatives of such person.
(4)
Whenever any attorney has been designated to appear on behalf of the United States
before any court or grand jury in any case or proceeding involving any alleged violation
of this chapter, the custodian may deliver to such attorney such documentary material
in the possession of the custodian as such attorney determines to be required for use
in the presentation of such case or proceeding on behalf of the United States. Upon the
conclusion of any such case or proceeding, such attorney shall return to the custodian
any documentary material so withdrawn which has not passed into the control of such
court or grand jury through the introduction thereof into the record of such case or

https://www.law.cornel!.edu/uscode/te>t/18/1964

App-89

4/6

8/26/2021

18 U.S. Code§ 1964-Civil remedies

proceeding.
(5) Upon the completion of—
(i)
the racketeering investigation for which anv documentary material was produced under
this chapter, and
(ii)
any case or proceeding arising from such investigation, the custodian shall return to the
person who produced such material all such material other than copies thereof made by
the Attorney General pursuant to this subsection which has not passed into the control
of any court or grand jury through the introduction thereof into the record of such case
or proceeding.
(6)
When any documentary material has been produced by any person under this section
for use in any racketeering investigation, and no such case or proceeding arising
therefrom has been instituted within a reasonable time after completion of the
examination and analysis of all evidence assembled in the course of such investigation,
such person shall be entitled, upon written demand made upon the Attorney General, to
the return of all documentary material other than copies thereof made pursuant to this
subsection so produced by such person.
(7) In the event of the death, disability, or separation from service of the custodian of
any documentary material produced under any demand issued under this section or the
official relief of such custodian from responsibility for the custody and control of such
material, the Attorney General shall promptly—
(i)
designate another racketeering investigator to serve as custodian thereof, and
(ii)
transmit notice in writing to the person who produced such material as to the identity
and address of the successor so designated.
Any successor so designated shall have with regard to such materials all duties and
responsibilities imposed by this section upon his predecessor in office with regard
thereto, except that he shall not be held responsible for any default or dereliction which
occurred before his designation as custodian.
(g)
Whenever any person fails to comply with any civil investigative demand duly served
upon him under this section or whenever satisfactory copying or reproduction of any

https://wrtw.law.cornell.edu/uscode/te)d/18/1964

App-90

5/6

18 U.S. Code § 1964- Civil remedies

8/26/2021

such material cannot be done and such person refuses to surrender such material, the
Attorney General may file, in the district court of the United States for any judicial district
in which such person resides, is found, or transacts business, and serve upon such
person a petition for an order of such court for the enforcement of this section, except
that if such person transacts business in more than one such district such petition shall
be filed in the district in which such person maintains his principal place of business, or
in such other district in which such person transacts business as may be agreed upon
by the parties to such petition.
(h)
Within twenty days after the service of any such demand upon any person, or at any
time before the return date specified in the demand, whichever period is shorter, such
person may file, in the district court of the United States for the judicial district within
which such person resides, is found, or transacts business, and serve upon such
custodian a petition for an order of such court modifying or setting aside such demand.
The time allowed for compliance with the demand in whole or in part as deemed proper
and ordered by the court shall not run during the pendency of such petition in the court.
Such petition shall specify each ground upon which the petitioner relies in seeking such
relief, and may be based upon any failure of such demand to comply with the provisions
of this section or upon any constitutional or other legal right or privilege of such person.
(i)
At any time during which any custodian is in custody or control of any documentary
material delivered by any person in compliance with any such demand, such person
may file, in the district court of the United States for the judicial district within which the
office of such custodian is situated, and serve upon such custodian a petition for an
order of such court requiring the performance by such custodian of any duty imposed
upon him by this section.
(j)
Whenever any petition is filed in any district court of the United States under this
section, such court shall have jurisdiction to hear and determine the matter so
presented, and to enter such order or orders as may be required to carry into effect the
provisions of this section.

https://www.law.cornell.edu/uscode/te)d/18/1964

App-91

6/6

42 U.S. Code § 1983- Ciul action for deprivation of rights

8/17/2021

42 U.S. Code § 1983 - Civil action for deprivation
of rights
Every person who, under color of any statute, ordinance, regulation, custom, or usage,
of any State or Territory or the District of Columbia, subjects, or causes to be subjected,
any citizen of the United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought against a judicial officer for an
act or omission taken in such officer’s judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated or declaratory relief was unavailable.
For the purposes of this section, any Act of Congress applicable exclusively to the
District of Columbia shall be considered to be a statute of the District of Columbia.
(1) Preventing officer from performing duties
If two or more persons in any State or Territory conspire to prevent, by force,
intimidation, or threat, any person from accepting or holding any office, trust, or place of
confidence under the United States, or from discharging any duties thereof; or to induce
by like means any officer of the United States to leave any State, district, or place,
where his duties as an officer are required to be performed, or to injure him in his
person or property on account of his lawful discharge of the duties of his office, or while
engaged in the lawful discharge thereof, or to injure his property so as to molest,
interrupt, hinder, or impede him in the discharge of his official duties;
(2) Obstructing justice; intimidating party, witness, or juror
Iflwo or more persons in any State or Territory conspire to deter, by force, intimidation,
or threat, any party or witness in any court of the United States from attending such
court, or from testifying to any matter pending therein, freely, fully, and truthfully, or to
injure such party or witness in his person or property on account of his having so
attended or testified, or to influence the verdict, presentment, or indictment of any
grand or petit juror in any such court, or to injure such juror in his person or property on
account of any verdict, presentment, or indictment lawfully assented to by him, or of his
being or having been such juror; or if two or more persons conspire for the purpose of

Appendix Q
https^/www.law.cornell.edu/uscode/te>4/42/1983

App-92

1/9

8/17/2021

42U.S. Code § 1983 - Civil action for deprivation of rights

impeding, hindering, obstructing, or defeating, in any manner, the due course of justice
in any State or Territory, with intent to deny to any citizen the equal protection of the
laws, or to injure him or his property for lawfully enforcing, or attempting to enforce, the
right of any person, or class of persons, to the equal protection of the laws;
(3) Depriving persons of rights or privileges
If two or more persons in any State or Territory conspire or go in disguise on the
highway or on the premises of another, for the purpose of depriving, either directly or
indirectly, any person or class of persons of the equal protection of the laws, or of equal
privileges and immunities under the laws; or for the purpose of preventing or hindering
the constituted authorities of any State or Territory from giving or securing to all
persons within such State or Territory the equal protection of the laws; or if two or more
persons conspire to prevent by force, intimidation, or threat, any citizen who is lawfully
entitled to vote, from giving his support or advocacy in a legal manner, toward or in
favor of the election of any lawfully qualified person as an elector for President or Vice
President, or as a Member of Congress of the United States; or to injure any citizen in
person or property on account of such support or advocacy; in any case of conspiracy
set forth in this section, if one or more persons engaged therein do, or cause to be
done, any act in furtherance of the object of such conspiracy, whereby another is
injured in his person or property, or deprived of having and exercising any right or
privilege of a citizen of the United States, the party so injured or deprived may have an
action for the recovery of damages occasioned by such injury or deprivation, against
any one or more of the conspirators.
(R.S. §1980.)
Every person who, having knowledge that any of the wrongs conspired to be done, and
mentioned in section 1985 of this title, are about to be committed, and having power to
prevent or aid in preventing the commission of the same, neglects or refuses so to do, if
such wrongful act be committed, shall be liable to the party injured, or his legal
representatives, for all damages caused by such wrongful act, which such person by
reasonable diligence could have prevented; and such damages may be recovered in an
action on the case; and any number of persons guilty of such wrongful neglect or
refusal may be joined as defendants in the action; and if the death of any party be
caused by any such wrongful act and neglect, the legal representatives of the
deceased shall have such action therefor, and may recover not exceeding $5,000

https://www.law.cornell.edu/uscode/te)d/42/1983

App-93

2/9

8/17/2021

42U.S. Code §1983- Civil action for deprivation of rights

damages therein, for the benefit of the widow of the deceased, if there be one, and if
there be no widow, then for the benefit of the next of kin of the deceased. But no action
under the provisions of this section shall be sustained which is not commenced within
one year after the cause of action has accrued.
(R.S. §1981.)
The United States attorneys, marshals, and deputy marshals, the United States
magistrate judges appointed by the district and territorial courts, with power to arrest,
imprison, or bail offenders, and every other officer who is especially empowered by the
President, are authorized and required, at the expense of the United States, to institute
prosecutions against all persons violating any of the provisions of section 1990 of this
title or of sections 5506 to 5516 and 5518 to 5532 of the Revised Statutes, and to
cause such persons to be arrested, and imprisoned or bailed, for trial before the court
of the United States or the territorial court having cognizance of the offense.
(a) Applicability of statutory and common law
The jurisdiction in civil and criminal matters conferred on the district courts by the
provisions of titles 13, 24, and 70 of the Revised Statutes for the protection of all
persons in the United States in their civil rights, and for their vindication, shall be
exercised and enforced in conformity with the laws of the United States, so far as such
laws are suitable to carry the same into effect; but in all cases where they are not
adapted to the object, or are deficient in the provisions necessary to furnish suitable
remedies and punish offenses against law, the common law, as modified and changed
by the constitution and statutes of the State wherein the court having jurisdiction of
such civil or criminal cause is held, so far as the same is not inconsistent with the
Constitution and laws of the United States, shall be extended to and govern the said
courts in the trial and disposition of the cause, and, if it is of a criminal nature, in the
infliction of punishment on the party found guilty.
(b) Attorney’s fees
In any action or proceeding to enforce a provision of sections 1981. 1981a. 1982. 1983.
1985. and 1986 of this title, title IX of Public Law 92-318 f20 U.S.C. 1681 et seq.], the
Religious Freedom Restoration Act of 1993 [42 U.S.C. 2000bb et seq.], the Religious
Land Use and Institutionalized Persons Act of 2000 [42 U.S.C. 2000cc et seq.], title VI of
the Civil Rights Act of 1964 [42 U.S.C. 2000d et seq.], or section 12361 of title 34. the
court, in its discretion, may allow the prevailing party, other than the United States, a

https://www.law.cornelt.edu/uscode/text/42/1983

App-94

3/9

J

8/17/2021

42U.S. Code § 1983- Civil action for deprivation of rights

reasonable attorney’s fee as part of the costs, except that in any action brought against
a judicial officer for an act or omission taken in such officer’s judicial capacity such
officer shall not be held liable for any costs, including attorney’s fees, unless such
action was clearly in excess of such officer's jurisdiction.
(c) Expert fees
In awarding an attorney's fee under subsection (b) in any action or proceeding to
enforce a provision of section 1981 or 1981a of this title, the court, in its discretion, may
include expert fees as part of the attorney’s fee.
The district courts of the United States and the district courts of the Territories, from
time to time, shall increase the number of United States magistrate judges, so as to
afford a speedy and convenient means for the arrest and examination of persons
charged with the crimes referred to in section 1987 of this title: and such magistrate
judges are authorized and required to exercise all the powers and duties conferred on
them herein with regard to such offenses in like manner as they are authorized by law to
exercise with regard to other offenses against the laws of the United States. Said
magistrate judges are empowered, within their respective counties, to appoint, in writing,
under their hands, one or more suitable persons, from time to time, who shall execute
all such warrants or other process as the magistrate judges may issue in the lawful
performance of their duties, and the persons so appointed shall have authority to
summon and call to their aid the bystanders or posse comitatus of the proper county, or
such portion of the land or naval forces of the United States, or of the militia, as may be
necessary to the performance of the duty with which they are charged; and such
warrants shall run and be executed anywhere in the State or Territory within which they
are issued.
Every marshal and deputy marshal shall obey and execute all warrants or other
process, when directed to him, issued under the provisions of section 1989 of this title.
Every marshal and deputy marshal who refuses to receive any warrant or other process
when tendered to him, issued in pursuance of the provisions of this section, or refuses
or neglects to use all proper means diligently to execute the same, shall be liable to a
fine in the sum of $1,000, for the benefit of the party aggrieved thereby.
(R.S. §§1985, 5517.)
Every person appointed to execute process under section 1989 of this title shall be

https://www.law.cornell.edu/uscode/te)d/42/1983

App-95

4/9

42 U.S. Code § 1983 - Civil action for deprivation of rights

8/17/2021

entitled to a fee of $5 for each party he may arrest and take before any United States
magistrate judge, with such other fees as may be deemed reasonable by the magistrate
judge for any additional services necessarily performed by him, such as attending at the
examination, keeping the prisoner in custody, and providing him with food and lodging
during his detention, and until the final determination of the magistrate judge; such fees
to be made up in conformity with the fees usually charged by the officers of the courts
of justice within the proper district or county, as near as may be practicable, and paid
out of the Treasury of the United States on the certificate of the judge of the district
within which the arrest is made, and to be recoverable from the defendant as part of the
judgment in case of conviction.
Whenever the President has reason to believe that offenses have been, or are likely to
be committed against the provisions of section 1990 of this title or of section 5506 to
5516 and 5518 to 5532 of the Revised Statutes, within any judicial district, it shall be
lawful for him, in his discretion, to direct the judge, marshal, and United States attorney
of such district to attend at such place within the district, and for such time as he may
designate, for the purpose of the more speedy arrest and trial of persons so charged,
and it shall be the duty of every judge or other officer, when any such requisition is
received by him to attend at the place and for the time therein designated.
(R.S. § 1988; June 25, 1948, ch. 646, §1,62Stat 909.)
The holding of any person to service or labor under the system known as peonage is
abolished and forever prohibited in any Territory or State of the United States; and all
acts, laws, resolutions, orders, regulations, or usages of any Territory or State, which
have heretofore established, maintained, or enforced, or by virtue of which any attempt
shall hereafter be made to establish, maintain, or enforce, directly or indirectly, the
voluntary or involuntary service or labor of any persons as peons, in liquidation of any
debt or obligation, or otherwise, are declared null and void.
(R.S. §1990.)
In all cases of criminal contempt arising under the provisions of this Act, the accused,
upon conviction, shall be punished by fine or imprisonment or both: Provided however,
That in case the accused is a natural person the fine to be paid shall not exceed the
sum of $1,000, nor shall imprisonment exceed the term of six months: Provided further,
That in any such proceeding for criminal contempt, at the discretion of the judge, the
accused may be tried with or without a jury: Provided further, however, That in the event

https ://www.law.cornell.edu/iiscode/te)d/42/1983

App-96

5/9

8/17/2021

42U.S. Code § 1983 - Civil action for deprivation of rights

such proceeding for criminal contempt be tried before a judge without a jury and the
sentence of the court upon conviction is a fine in excess of the sum of $300 or
imprisonment in excess of forty-five days, the accused in said proceeding, upon
demand therefore, shall be entitled to a trial de novo before a jury, which shall conform
as near as may be to the practice in other criminal cases.
This section shall not apply to contempts committed in the presence of the court or so
near thereto as to interfere directly with the administration of justice nor to the
misbehavior, misconduct, or disobedience, of any officer of the court in respect to the
writs, orders, or process of the court.
Nor shall anything herein or in any other provision of law be construed to deprive courts
of their power, by civil contempt proceedings, without a jury, to secure compliance with
or to prevent obstruction of, as distinguished from punishment for violations of, any
lawful writ, process, order, rule, decree, or command of the court in accordance with the
prevailing usages of law and equity, including the power of detention.
On and after August 11,1978, it shall be the policy of the United States to protect and
preserve for American Indians their inherent right of freedom to believe, express, and
exercise the traditional religions of the American Indian, Eskimo, Aleut, and Native
Hawaiians, including but not limited to access to sites, use and possession of sacred
objects, and the freedom to worship through ceremonials and traditional rites.
(a) Congressional findings and declarations
The Congress finds and declares that—

(D
for many Indian people, the traditional ceremonial use of the peyote cactus as a
religious sacrament has for centuries been integral to a way of life, and significant in
perpetuating Indian tribes and cultures;
(2)
since 1965, this ceremonial use of peyote bv Indians has been protected by Federal
regulation;
(3)
while at least 28 States have enacted laws which are similar to, or are in conformance
with, the Federal regulation which protects the ceremonial use of peyote by Indian
religious practitioners, 22 States have not done so, and this lack of uniformity has

https://www.lmcornell.edu/iJSCode/teal/42/1983

App-97

6/9

8/17/2021

42 U.S. Code § 1983 - Civil action for deprivation of rights

created hardship for Indian people who participate in such religious ceremonies;
(4)
the Supreme Court of the United States, in the case of Employment Division v. Smith,
494 U.S. 872 (1990V held that the First Amendment does not protect Indian
practitioners who use peyote in Indian religious ceremonies, and also raised uncertainty
whether this religious practice would be protected under the compelling State interest
standard; and
(5)
the lack of adequate and clear legal protection for the religious use of peyote by Indians
may serve to stigmatize and marginalize Indian tribes and cultures, and increase the risk
that they will be exposed to discriminatory treatment.
(b) Use, possession, or transportation of peyote
(1)
Notwithstanding any other provision of law, the use, possession, or transportation of
peyote by an Indian for bona fide traditional ceremonial purposes in connection with the
practice of a traditional Indian religion is lawful, and shall not be prohibited by the United
States or anv State. No Indian shall be penalized or discriminated against on the basis
of such use, possession or transportation, including, but not limited to, denial of
otherwise applicable benefits under public assistance programs.
(2)
This section does not prohibit such reasonable regulation and registration by the Drug
Enforcement Administration of those persons who cultivate, harvest, or distribute peyote
as may be consistent with the purposes of this section and section 1996 of this title.
(3)
This section does not prohibit application of the provisions of section 481.111 (a) of
Vernon’s Texas Health and Safety Code Annotated, in effect on October 6, 1994,
insofar as those provisions pertain to the cultivation, harvest, and distribution of peyote.
(4)
Nothing in this section shall prohibit any Federal department or agency, in carrying out
its statutory responsibilities and functions, from promulgating regulations establishing
reasonable limitations on the use or ingestion of peyote prior to or during the
performance of duties by sworn law enforcement officers or personnel directly involved
in. public transportation or any other safety-sensitive positions where the performance of
such duties may be adversely affected by such use or ingestion. Such regulations shall
be adopted only after consultation with representatives of traditional Indian religions for

https://www.law.cornell.edu/uscode/text/42/1983

App-98

7/9

42U.S. Code § 1983- Civil action for deprivation of rights

8/17/2021

which the sacramental use of peyote is integral to their practice. Any regulation
promulgated pursuant to this section shall be subject to the balancing test set forth in
section 3 of the Religious Freedom Restoration Act (Public Law 103-141: 42 U.S.C.
2000bb—1).
(5)
This section shall not be construed as requiring prison authorities to permit, nor shall it
be construed to prohibit prison authorities from permitting, access to peyote by Indians
while incarcerated within Federal or State prison facilities.
(6)
Subject to the provisions of the Religious Freedom Restoration Act (Public Law 103—
141: 42 U.S.C. 2000bb-1l 142 U.S.C. 2000bb et seq.], this section shall not be
construed to prohibit States from enacting or enforcing reasonable traffic safety laws or
regulations.
(7)
Subject to the provisions of the Religious Freedom Restoration Act (Public Law 10SMI: 42 U.S.C. 2000bb-1T this section does not prohibit the Secretary of Defense from
promulgating regulations establishing reasonable limitations on the use, possession,
transportation, or distribution of peyote to promote military readiness, safety, or
compliance with international law or laws of other countries. Such regulations shall be
adopted only after consultation with representatives of traditional Indian religions for
which the sacramental use of peyote is integral to their practice.
(c) Definitions
For purposes of this section—

(1)
the term "Indian” means a member of an Indian tribe:
(2)
the term "Indian tribe” means any tribe, band, nation, pueblo, or other organized group
or community of Indians, including any Alaska Native village (as defined in, or
established pursuant to, the Alaska Native Claims Settlement Act (43 U.S.C. 1601 et
seq.)), which is recognized as eligible for the special programs and services provided by
the United States to Indians because of their status as Indians:
(3) the term “Indian religion" means any religion—
(A)
which is practiced by Indians, and
(B)

https ://www.law.cornell.edu/uscode/te>d/42/1983

App-99

8/9

42U.S. Code § 1983- Civil action for deprivation of rights

8/17/2021

the origin and interpretation of which is from within a traditional Indian culture or
community; and
(4)
the term “State” means any State of the United States, and any political subdivision
thereof.
(d) Protection of rights of Indians and Indian tribes
Nothing in this section shall be construed as abrogating, diminishing, or otherwise
affecting—

(D
the inherent rights of any Indian tribe:
(2)
the rights, express or implicit, of any Indian tribe which exist under treaties, Executive
orders, and laws of the United States:
(3)
the inherent right of Indians to practice their religions; and
(4)
the right of Indians to practice their religions under any Federal or State law.
(1) Prohibited conduct
A person or government that is involved in adoption or foster care placements may not
(A)
deny to any individual the opportunity to become an adoptive or a foster parent, on the
basis of the race, color, or national origin of the individual, or of the child, involved; or
(B)
delay or deny the placement of a child for adoption or into foster care, on the basis of
the race, color, or national origin of the adoptive or foster parent, or the child, involved.
(2) Enforcement

https://wvw.law.cornell.ediVusccxle/text/42/1983

App-100

9/9

8/17/2021

28 U.S. Code § 1331 - Federal question

28 U.S. Code § 1331 - Federal question
The district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.
(a) The district courts shall have original jurisdiction of all civil actions where the matter
in controversy exceeds the sum or value of $75,000, exclusive of interest and costs,
and is between—

(1)
citizens of different States;
(2)
citizens of a State and citizens or subjects of a foreign state, except that the district
courts shall not have original jurisdiction under this subsection of an action between
citizens of a State and citizens or subjects of a foreign state who are lawfully admitted
for permanent residence in the United States and are domiciled in the same State;
(3)
citizens of different States and in which citizens or subjects of a foreign state are
additional parties; and
(4)
a foreign state, defined in section 1603fa) of this title, as plaintiff and citizens of a State
or of different States.
(b)
Except when express provision therefor is otherwise made in a statute of the United
States, where the plaintiff who files the case originally in the Federal courts is finally
adjudged to be entitled to recover less than the sum or value of $75,000, computed
without regard to any setoff or counterclaim to which the defendant may be adjudged to
be entitled, and exclusive of interest and costs, the district court may deny costs to the
plaintiff and, in addition, may impose costs on the plaintiff.
(1) a corporation shall be deemed to be a citizen of every State and foreign state by
which it has been incorporated and of the State or foreign state where it has its principal
place of business, except that in any direct action against the insurer of a policy or
contract of liability insurance, whether incorporated or unincorporated, to which action
the insured is not joined as a party-defendant, such insurer shall be deemed a citizen of

Appendix R
https ://vwvw.law.cornell.ediVuscode/te>l/28/1331

App-101

1/23

28 U.S, Code § 1331 - Federal question

8/17/2021

(A)
every State and foreign state of which the insured is a citizen;
(B)
every State and foreign state by which the insurer has been incorporated; and
(C)
the State or foreign state where the insurer has its principal place of business; and
(2)
the legal representative of the estate of a decedent shall be deemed to be a citizen only
of the same State as the decedent, and the legal representative of an infant or
incompetent shall be deemed to be a citizen only of the same State as the infant or
incompetent.
(d)
(1) In this subsection—
(A)
the term “class” means all of the class members in a class action:
(B)
the term “class action” means any civil action filed under rule 23 of the Federal Rules of
Civil Procedure or similar State statute or rule of judicial procedure authorizing an action
to be brought by 1 or more representative persons as a class action:
(C)
the term “class certification order” means an order issued by a court approving the
treatment of some or all aspects of a civil action as a class action: and
(D)
the term “class members" means the persons (named or unnamed) who fall within the
definition of the proposed or certified class in a class action.
(2) The district courts shall have original jurisdiction of any civil action in which the
matter in controversy exceeds the sum or value of $5,000,000, exclusive of interest and
costs, and is a class action in which—
(A)
any member of a class of plaintiffs is a citizen of a State different from any defendant;
(B)
any member of a class of plaintiffs is a foreign state or a citizen or subject of a foreign
state and any defendant is a citizen of a State; or
(C)
any member of a class of plaintiffs is a citizen of a State and any defendant is a foreign

https://www.l aw.cornell .edu/uscode/text/28/1331

App-102

2/23

28 U.S. Code § 1331 - Federal question

8/17/2021

state or a citizen or subject of a foreign state.
(3) A district court may, in the interests of justice and looking at the totality of the
circumstances, decline to exercise jurisdiction under paragraph (2) over a class action
in which greater than one-third but less than two-thirds of the members of all proposed
plaintiff classes in the aggregate and the primary defendants are citizens of the State in
which the action was originally filed based on consideration of—
(A)
whether the claims asserted involve matters of national or interstate interest;
(B)
whether the claims asserted will be governed by laws of the State in which the action
was originally filed or by the laws of other States;
(C)
whether the class action has been pleaded in a manner that seeks to avoid Federal
jurisdiction;
(D)
whether the action was brought in a forum with a distinct nexus with the class members
the alleged harm, or the defendants;
(E)
whether the number of citizens of the State in which the action was originally filed in all
proposed plaintiff classes in the aggregate is substantially larger than the number of
citizens from any other State, and the citizenship of the other members of the proposed
class is dispersed among a substantial number of States; and
(F)
whether, during the 3-year period preceding the filing of that class action. 1 or more
other class actions asserting the same or similar claims on behalf of the same or other
persons have been filed.
(4) A district court shall decline to exercise jurisdiction under paragraph (2)—
(A)
(i) over a class action in which—
(I)
greater than two-thirds of the members of all proposed plaintiff classes in the aggregate
are citizens of the State in which the action was originally filed;
(II) at least 1 defendant is a defendant—
(aa)
from whom significant relief is sought by members of the plaintiff class:

https://www.law.cornell.edu/uscode/te)d/28/1331

App-103

3/23

8/17/2021

28 U.S. Code § 1331 - Federal question

(bb)
whose alleged conduct forms a significant basis for the claims asserted by the proposed
plaintiff class: and
(cc)
who is a citizen of the State in which the action was originally filed; and
(III)
principal injuries resulting from the alleged conduct or any related conduct of each
defendant were incurred in the State in which the action was originally filed; and
(ii)
during the 3-year period preceding the filing of that class action, no other class action
has been filed asserting the same or similar factual allegations against any of the
defendants on behalf of the same or other persons; or
(B)
two-thirds or more of the members of all proposed plaintiff classes in the aggregate,
and the primary defendants, are citizens of the State in which the action was originally
filed.
(5) Paragraphs (2) through (4) shall not apply to any class action in which—
(A)
the primary defendants are States, State officials, or other governmental entities
against whom the district court may be foreclosed from ordering relief; or
(B)
the number of members of all proposed plaintiff classes in the aggregate is less than
100.
(6)
In any class action, the claims of the individual class members shall be aggregated to
determine whether the matter in controversy exceeds the sum or value of $5,000,000
exclusive of interest and costs.
(7)
Citizenship of the members of the proposed plaintiff classes shall be determined for
purposes of paragraphs (2) through (6) as of the date of filing of the complaint or
amended complaint, or, if the case stated by the initial pleading is not subject to Federal
jurisdiction, as of the date of service by plaintiffs of an amended pleading, motion, or
other paper, indicating the existence of Federal jurisdiction.
(8)
This subsection shall apply to any class action before or after the entry of a class

https ://www.law.cornell.edu/uscode/te)4/28/1331

App-104

4/23

8/17/2021

28 U.S. Code § 1331 - Federal question

certification order by the court with respect to that action.
(9) Paragraph (2) shall not apply to any class action that solely involves a claim—
(B)
that relates to the internal affairs or governance of a corporation or other form of
business enterprise and that arises under or by virtue of the laws of the State in which
such corporation or business enterprise is incorporated or organized; or
(C)
that relates to the rights, duties (including fiduciary duties), and obligations relating to or
created by or pursuant to any security (as defined under section 2(a)(1) of the
Securities Act of 1933 (15 U.S.C. 77b(aH1)1 and the regulations issued thereunder).
(10)
For purposes of this subsection and section 1453, an unincorporated association shall
be deemed to be a citizen of the State where it has its principal place of business and
the State under whose laws it is organized.
(11)

(A)
For purposes of this subsection and section 1453, a mass action shall be deemed to be
a class action removable under paragraphs (2) through (10) if it otherwise meets the
provisions of those paragraphs.
(B)
(i)
As used in subparagraph (A), the term “mass action" means any civil action (except a
civil action within the scope of section 1711(2)1 in which monetary relief claims of 100 or
more persons are proposed to be tried jointly on the ground that the plaintiffs’ claims
involve common questions of law or fact, except that jurisdiction shall exist only over
those plaintiffs whose claims in a mass action satisfy the jurisdictional amount
requirements under subsection (a).
(ii) As used in subparagraph (A), the term “mass action” shall not include any civil action
in which—
(I)
all of the claims in the action arise from an event or occurrence in the State in which the
action was filed, and that allegedly resulted in injuries in that State or in States
contiguous to that State;
(ID
the claims are joined upon motion of a defendant;

https ://vwvw.law.cornell.edu/uscode/te>4/28/1331

App-105

5/23

8/17/2021

28 U.S. Code § 1331 - Federal question

(III)
all of the claims in the action are asserted on behalf of the general public (and not on
behalf of individual claimants or members of a purported classl pursuant to a State
statute specifically authorizing such action; or
(IV)
the claims have been consolidated or coordinated solely for pretrial proceedings.
(C)
(i)
Any action(s) removed to Federal court pursuant to this subsection shall not thereafter
be transferred to any other court pursuant to section 1407, or the rules promulgated
thereunder, unless a majority of the plaintiffs in the action request transfer pursuant to
section 1407.
(ii) This subparagraph will not apply—
(I)
to cases certified pursuant to rule 23 of the Federal Rules of Civil Procedure; or

(ID
if plaintiffs propose that the action proceed as a class action pursuant to rule 23 of the
Federal Rules of Civil Procedure.
(D)
The limitations periods on any claims asserted in a mass action that is removed to
Federal court pursuant to this subsection shall be deemed tolled during the period that
the action is pending in Federal court.
(e)
The word “States", as used in this section, includes the Territories, the District of
Columbia, and the Commonwealth of Puerto Rico.
The district courts shall have original jurisdiction, exclusive of the courts of the States,
of:

d)
Any civil case of admiralty or maritime jurisdiction, saving to suitors in all cases all other
remedies to which they are otherwise entitled.
(2)
Any prize brought into the United States and all proceedings for the condemnation of
property taken as prize.
(June 25, 1948, ch. 646, 62 Stat. 931: May 24, 1949, ch. 139, §79, 63 Stat. 101.)
(a)

https^/www.law.cornell.edu/uscode/te>d/28/1331

App-106

6/23

8/17/2021

28 U.S. Code § 1331 - Federal question

Except as provided in subsection (b) of this section, the district courts shall have
original and exclusive jurisdiction of all cases under title 11.
(b)
Except as provided in subsection (e)(2), and notwithstanding any Act of Congress that
confers exclusive jurisdiction on a court or courts other than the district courts, the
district courts shall have original but not exclusive jurisdiction of all civil proceedings
arising under title 11, or arising in or related to cases under title 11.

(c)

(D
Except with respect to a case under chapter 15 of title 11, nothing in this section
prevents a district court in the interest of justice, or in the interest of comity with State
courts or respect for Stale law, from abstaining from hearing a particular proceeding
arising under title 11 or arising in or related to a case under title 11.
(2)
Upon timely motion of a party in a proceeding based upon a State law claim or State law
cause of action, related to a case under title 11 but not arising under title 11 or arising
in a case under title 11, with respect to which an action could not have been
commenced in a court of the United States absent jurisdiction under this section, the
district court shall abstain from hearing such proceeding if an action is commenced, and
can be timely adjudicated, in a State forum of appropriate jurisdiction.
(d)
Any decision to abstain or not to abstain made under subsection (c) (other than a
decision not to abstain in a proceeding described in subsection (c)(2)) is not reviewable
by appeal or otherwise by the court of appeals under section 158(d), 1291. or 1292 of
this title or by the Supreme Court of the United States under section 1254 of this title.
Subsection (c) and this subsection shall not be construed to limit the applicability of the
stay provided for by section 362 of title 11. United States Code, as such section applies
to an action affecting the property of the estate in bankruptcy.
(e) The district court in which a case under title 11 is commenced or is pending shall
have exclusive jurisdiction—

(D
of all the property, wherever located, of the debtor as of the commencement of such
case, and of property of the estate; and
(2)
over all claims or causes of action that involve construction of section 327 of title 11

https ://www.law.cornell.edu/uscode/te)4/28/1331

App-107

7/23

8/17/2021

28 U.S. Code § 1331 - Federal question

United States Code, or rules relating to disclosure requirements under section 327.
(a) The district courts shall have original jurisdiction of any civil action of interpleader or
in the nature of interpleader filed by any person, firm, or corporation, association, or
society having in his or its custody or possession money or property of the value of
$500 or more, or having issued a note, bond, certificate, policy of insurance, or other
instrument of value or amount of $500 or more, or providing for the delivery or payment
or the loan of money or property of such amount or value, or being under any obligation
written or unwritten to the amount of $500 or more, if
(1)
Two or more adverse claimants, of diverse citizenship as defined in subsection (a) or
(d) of section 1332 of this title, are claiming or may claim to be entitled to such money or
property, or to any one or more of the benefits arising by virtue of any note, bond,
certificate, policy or other instrument, or arising by virtue of any such obligation; and if
(2) the plaintiff has deposited such money or property or has paid the amount of or the
loan or other value of such instrument or the amount due under such obligation into the
registry of the court, there to abide the judgment of the court, or has given bond
payable to the clerk of the court in such amount and with such surety as the court or
judge may deem proper, conditioned upon the compliance by the plaintiff with the future
order or judgment of the court with respect to the subject matter of the controversy.
(b)
Such an action may be entertained although the titles or claims of the conflicting
claimants do not have a common origin, or are not identical, but are adverse to and
independent of one another.
(a)
Except as otherwise provided by Act of Congress, the district courts shall have
jurisdiction of any civil action to enforce, in whole or in part, any order of the Surface
Transportation Board, and to enjoin or suspend, in whole or in part, any order of the
Surface Transportation Board for the payment of money or the collection of fines,
penalties, and forfeitures.
(b)
When a district court or the United States Court of Federal Claims refers a question or
issue to the Surface Transportation Board for determination, the court which referred
the question or issue shall have exclusive jurisdiction of a civil action to enforce, enjoin,
set aside, annul, or suspend, in whole or in part, any order of the Surface
Transportation Board arising out of such referral.

https ://vvvvw.law.cornell.edLi/iiscode/le)4/28/1331

App-108

8/23

28U.S. Code § 1331 • Federal question

8/17/2021

(C)

Any action brought under subsection (b) of this section shall be filed within 90 days from
the date that the order of the Surface Transportation Board becomes final.
There is hereby authorized to be established a working capital fund for the Department
of Justice, which shall be available, without fiscal year limitation, for expenses and
equipment necessary for maintenance and operations of such administrative services
as the Attorney General, with the approval of the Office of Management and Budget,
determines may be performed more advantageously as central services. The capital of
the fund shall consist of the amount of the fair and reasonable value of such
inventories, equipment, and other assets and inventories on order pertaining to the
services to be carried on by the fund as the Attorney General may transfer to the fund
less related liabilities and unpaid obligations together with any appropriations made for
the purpose of providing capital. The fund shall be reimbursed or credited with advance
payments from applicable appropriations and funds of: (1) the Department of Justice,
other Federal agencies, and other sources authorized by law for supplies, materials,
and services; and (2) federally recognized tribes for supplies, materials, and services
related to access to Federal law enforcement databases; at rates which will recover the
expenses of operations including accrual of annual leave and depreciation of plant and
equipment of the fund. The fund shall also be credited with other receipts from sale or
exchange of property or in payment for loss or damage to property held by the fund.
There shall be transferred into the Treasury as miscellaneous receipts, as of the close
of each fiscal year, any net income after making provisions for prior year losses, if any.
The Attorney General shall promulgate rules and regulations which require the
disqualification of any officer or employee of the Department of Justice, including a
United States attorney or a member of such attorney’s staff, from participation in a
particular investigation or prosecution if such participation may result in a personal,
financial, or political conflict of interest, or the appearance thereof. Such rules and
regulations may provide that a willful violation of any provision thereof shall result in
removal from office.
(a) Beginning on June 1,1979, and at the beginning of each regular session of
Congress thereafter, the Attorney General shall report to Congress on the activities and
operations of the Public Integrity Section or any other unit of the Department of Justice
designated to supervise the investigation and prosecution of—

https://www.law.cornell.edu/uscode/te)4/28/1331

App-109

9/23

8/17/2021

28 U.S. Code § 1331 - Federal question

(1)
any violation of Federal criminal law by any individual who holds or who at the time of
such violation held a position, whether or not elective, as a Federal Government officer,
employee, or special employee, if such violation relates directly or indirectly to such
individual’s Federal Government position, employment, or compensation;
(2)
any violation of any Federal criminal law relating to lobbying, conflict of interest,
campaigns, and election to public office committed by any person, except insofar as
such violation relates to a matter involving discrimination or intimidation on grounds of
race, color, religion, or national origin;
(3)
any violation of Federal criminal law by any individual who holds or who at the time of
such violation held a position, whether or not elective, as a State or local government
officer or employee, if such violation relates directly or indirectly to such individual’s
State or local government position, employment, or compensation; and
(4)
such other matters as the Attorney General may deem appropriate.
Such report shall include the number, type, and disposition of all investigations and
prosecutions supervised by such Section or such unit, except that such report shall not
disclose information which would interfere with any pending investigation or prosecution
or which would improperly infringe upon the privacy rights of any individuals.
(b) Notwithstanding any provision of law limiting the amount of management or
administrative expenses, the Attorney General shall, not later than May 2, 2003, and of
every year thereafter, prepare and provide to the Committees on the Judiciary and
Appropriations of each House of the Congress using funds available for the underlying
programs—

(1)
a report identifying and describing every grant (other than one made to a governmental
entity, pursuant to a statutory formula), cooperative agreement, or programmatic
services contract that was made, entered into, awarded, or, for which additional or
supplemental funds were provided in the immediately preceding fiscal year, by or on
behalf of the Office of Justice Programs (including any component or unit thereof, and
the Office of Community Oriented Policing Services), and including, without limitation,
for each such grant, cooperative agreement, or contract: the term, the dollar amount or
value, a description of its specific purpose or purposes, the names of all grantees or

https://www.law.cornell.edu/uscode/text/28/1331

App-110

10/23

28 U.S. Code§ 1331 - Federal question

8/17/2021

parties, the names of each unsuccessful applicant or bidder, and a description of the
specific purpose or purposes proposed in each unsuccessful application or bid, and of
the reason or reasons for rejection or denial of the same; and
(2) a report identifying and reviewing every grant (other than one made to a
governmental entity, pursuant to a statutory formula), cooperative agreement, or
programmatic services contract made, entered into, awarded, or for which additional or
supplemental funds were provided, after October 1,2002, by or on behalf of the Office
of Justice Programs (including any component or unit thereof, and the Office of
Community Oriented Policing Services) that was programmatically and financially closed
out or that otherwise ended in the immediately preceding fiscal year (or even if not yet
closed out, was terminated or otherwise ended in the fiscal year that ended 2 years
before the end of such immediately preceding fiscal year), and including, without
limitation, for each such grant, cooperative agreement, or contract: a description of how
the appropriated funds involved actually were spent, statistics relating to its
performance, its specific purpose or purposes, and its effectiveness, and a written
declaration by each non-Federal grantee and each non-Federal party to such
agreement or to such contract, that—
(A)
the appropriated funds were spent for such purpose or purposes, and only such
purpose or purposes;
(B)
the terms of the grant, cooperative agreement, or contract were complied with; and
(C)
all documentation necessary for conducting a full and proper audit under generally
accepted accounting principles, and any (additional) documentation that may have
been required under the grant, cooperative agreement, or contract, have been kept in
orderly fashion and will be preserved for not less than 3 years from the date of such
close out, termination, or end;
except that the requirement of this paragraph shall be deemed satisfied with respect to
any such description, statistics, or declaration if such non-Federal grantee or such nonFederal party shall have failed to provide the same to the Attorney General, and the
Attorney General notes the fact of such failure and the name of such grantee or such
party in the report.
The Attorney General or the Attorney General's designee is authorized to pay the travel
expenses of newly appointed special agents and the transportation expenses of their

https:/AwAv.law.cornell.edu'usccxJe/te>d/28/1331

App-111

11/23

28 U.S. Code§ 1331 - Federal question

8/17/2021

families and household goods and personal effects from place of residence at time of
selection to the first duty station, to the extent such payments are authorized by section
5723 of title 5 for new appointees who may receive payments under that section.
There are authorized to be used from appropriations, for any fiscal year, for the
Department of Justice, such sums as may be necessary—

(1)
for travel and related expenses of employees of the Department of Justice serving
abroad and their families, to be payable in the same manner as applicable with respect
to the Foreign Service under paragraphs (2), (3), (5), (6), (8), (9), (11), and (15) of
section 901 of the Foreign Service Act of 1980. and under the regulations issued by the
Secretary of State; and
(2)
for health care for such employees and families, to be provided under section 904 of
that Act.
(a)
An attorney for the Government shall be subject to State laws and rules, and local
Federal court rules, governing attorneys in each State where such attorney engages in
that attorney's duties, to the same extent and in the same manner as other attorneys in
that State.
(b)
The Attorney General shall make and amend rules of the Department of Justice to
assure compliance with this section.
(c)
As used in this section, the term “attorney for the Government” includes any attorney
described in section 77.2(a) of part 77 of title 28 of the Code of Federal Regulations
and also includes any independent counsel, or employee of such a counsel, appointed
under chapter 40.
(a) In General.—Except to the extent provided otherwise by law, the activities of the
Department of Justice (including any bureau, office, board, division, commission,
subdivision, unit, or other component thereof) may, in the reasonable discretion of the
Attorney General, be carried out through any means, including—

(1)
through the Department’s own personnel, acting within, from, or through the
Department itself;

https ://www.law.cornell.edu/uscode/te>4/28/1331

App-112

12/23

8/17/2021

28 U.S. Code § 1331 - Federal question

(2)
by sending or receiving details of personnel to other branches or agencies of the
Federal Government, on a reimbursable, partially-reimbursable, or nonreimbursable
basis;
(3)
through reimbursable agreements with other Federal agencies for work, materials, or
equipment;
(4)
through contracts, grants, or cooperative agreements with non-Federal parties; and
(5)
as provided in subsection (b), in section 524, and in any other provision of law
consistent herewith, including, without limitation, section 1Q2(b^ of Public Law 102-395
(106 Stat. 18381 as incorporated by section 815(d) of Public Law 104-132 (110 Stat.
1315).
(b) Permitted Uses.—
(1) General permitted uses.—Funds available to the Attorney General (i.e., all funds
available to carry out the activities described in subsection (a)) may be used, without
limitation, for the following:
(A)
The purchase, lease, maintenance, and operation of passenger motor vehicles, or
police-type motor vehicles for law enforcement purposes, without regard to general
purchase price limitation for the then-current fiscal year.
(B)
The purchase of insurance for motor vehicles, boats, and aircraft operated in official
Government business in foreign countries.
(C)
Services of experts and consultants, including private counsel, as authorized by section
3109 of title 5. and at rates of pay for individuals not to exceed the maximum daily rate
payable from time to time under section 5332 of title 5.
(D)
Official reception and representation expenses (i.e., official expenses of a social nature
intended in whole or in predominant part to promote goodwill toward the Department or
its missions, but excluding expenses of public tours of facilities of the Department of
Justice), in accordance with distributions and procedures established, and rules issued,
by the Attorney General, and expenses of public tours of facilities of the Department of

https://www.law.cornell.ed u/uscode/te>l/28/1331

App-113

13/23

28 U.S. Code § 1331 - Federal question

8/17/2021

Justice.
(E)
Unforeseen emergencies of a confidential character, to be expended under the
direction of the Attorney General and accounted for solely on the certificate of the
Attorney General.
(F)
Miscellaneous and emergency expenses authorized or approved by the Attorney
General, the Deputy Attorney General, the Associate Attorney General, or the Assistant
Attorney General for Administration.
(G) In accordance with procedures established and rules issued by the Attorney
General—
(i)
attendance at meetings and seminars;
(ii)
conferences and training; and
(iii)
advances of public moneys under section 3324 of title 31: Provided, That travel
advances of such moneys to law enforcement personnel engaged in undercover activity
shall be considered to be public money for purposes of section 3527 of title 31.
(H)
Contracting with individuals for personal services abroad, except that such individuals
shall not be regarded as employees of the United States for the purpose of any law
administered by the Office of Personnel Management.
(I)
Payment of interpreters and translators who are not citizens of the United States, in
accordance with procedures established and rules issued by the Attorney General.
(J)
Expenses or allowances for uniforms as authorized by section 5901 of title 5. but without
regard to the general purchase price limitation for the then-current fiscal year.
(K) Expenses of—
(i)
primary and secondary schooling for dependents of personnel stationed outside the
United States at cost not in excess of those authorized by the Department of Defense
for the same area, when it is determined by the Attorney General that schools available
in the locality are unable to provide adequately for the education of such dependents;

https ://www.law.cornell.edu/uscode/te)4/28/1331

App-114

14/23

8/17/2021

28U.S. Code § 1331 - Federal question

and
(ii)
transportation of those dependents between their place of residence and schools
serving the area which those dependents would normally attend when the Attorney
General, under such regulations as he may prescribe, determines that such schools are
not accessible by public means of transportation.
(L) payment of rewards (i.e., payments pursuant to public advertisements for assistance
to the Department of Justice), in accordance with procedures and regulations
established or issued by the Attorney General: Provided, That—
(i) no such reward shall exceed $3,000,000, unless—
(I)
the reward is to combat domestic terrorism or international terrorism (as defined in
section 2331 of title 18): or
(II)
a statute should authorize a higher amount;
(ii)
no such reward of $250,000 or more may be made or offered without the personal
approval of either the Attorney General or the President;
(iii)
the Attorney General shall give written notice to the Chairmen and ranking minority
members of the Committees on Appropriations and the Judiciary of the Senate and of
the House of Representatives not later than 30 days after the approval of a reward
under clause (ii);
(iv)
any executive agency or military department (as defined, respectively, in sections 105
and 102 of title 5) may provide the Attorney General with funds for the payment of
rewards; and
(v)
neither the failure of the Attorney General to authorize a payment nor the amount
authorized shall be subject to judicial review.
(M)
(i)
At the request of an appropriate law enforcement official of a State or political
subdivision, the Attorney.General may assist ip the investigation of violent acts and
shootings occurring in a place of public use and in the investigation of mass killings and

https^/www.law.cornell.edu/iJscode/te)d/28/1331

App-115

15/23

8/17/2021

28 U.S. Code § 1331 - Federal question

attempted mass killings. Any assistance provided under this subparagraph shall be
presumed to be within the scope of Federal office or employment.
(i)Ul For purposes of this subparagraph—
(I)
the term “mass killings" means 3 or more killings in a single incident; and

(ID
the term “place of public use” has the meaning given that term under section 2332f(e)
(6^ of title 18. United States Code.
(2) Specific permitted uses.—
(A) Aircraft and boats.—
Funds available to the Attorney General for United States Attorneys, for the Federal
Bureau of Investigation, for the United States Marshals Service, for the Bureau of
Alcohol, Tobacco, Firearms and Explosives, for the Drug Enforcement Administration,
and for the Immigration and Naturalization Service may be used for the purchase, lease
maintenance, and operation of aircraft and boats, for law enforcement purposes.
(B) Purchase of ammunition and firearms; firearms competitions.—Funds available to
the Attorney General for United States Attorneys, for the Federal Bureau of
Investigation, for the United States Marshals Service, for the Bureau of Alcohol,
Tobacco, Firearms and Explosives, for the Drug Enforcement Administration, for the
Federal Prison System, for the Office of the Inspector General, and for the Immigration
and Naturalization Service may be used for—
(i)
the purchase of ammunition and firearms; and
(ii)
participation in firearms competitions.
(C) Construction.—
Funds available to the Attorney General for construction may be used for expenses of
planning, designing, acquiring, building, constructing, activating, renovating, converting,
expanding, extending, remodeling, equipping, repairing, or maintaining buildings or
facilities, including the expenses of acquisition of sites therefor, and all necessary
expenses incident or related thereto; but the foregoing shall not be construed to mean
that funds generally available for salaries and expenses are not also available for
certain incidental or minor construction, activation, remodeling, maintenance, and other
related construction costs.
(3) Fees and expenses of witnesses.—Funds available to the Attorney General for fees

https://vwvw.law.cornell.editfuscode/te>4/28/1331

App-116

16/23

8/17/2021

28 U.S. Code § 1331 - Federal question

and expenses of witnesses may be used for—
(A)
expenses, mileage, compensation, protection, and per diem in lieu of subsistence, of
witnesses (including advances of public money) and as authorized by section 1821 or
other law, except that no witness may be paid more than 1 attendance fee for any 1
calendar day;
(B)
fees and expenses of neutrals in alternative dispute resolution proceedings, where the
Department of Justice is a party; and
(C)
construction of protected witness safesites.
(4) Federal bureau of investigation.—
Funds available to the Attorney General for the Federal Bureau of Investigation for the
detection, investigation, and prosecution of crimes against the United States may be
used for the conduct of all its authorized activities.
(5) Immigration and naturalization service.—Funds available to the Attorney General for
the Immigration and Naturalization Service may be used for—
(A)
acquisition of land as sites for enforcement fences, and construction incident to such
fences;
(B)
cash advances to aliens for meals and lodging en route;
(C)
refunds of maintenance bills, immigration fines, and other items properly returnable,
except deposits of aliens who become public charges and deposits to secure payment
of fines and passage money; and
(D)
expenses and allowances incurred in tracking lost persons, as required by public
exigencies, in aid of State or local law enforcement agencies.
(6) Federal prison system.—Funds available to the Attorney General for the Federal
Prison System may be used for—
(A)
inmate medical services and inmate legal services, within the Federal prison system;
(B)
the purchase and exchange of farm products and livestock;

https7AMW/.law.cornell.edu/uscode/te^/28/1331

App-117

17/23

8/17/2021

28 U.S. Code § 1331 - Federal question

(C)
the acquisition of land as provided in section 4010 of title 18: and

(D)
the construction of buildings and facilities for penal and correctional institutions
(including prison camps), by contract or force account, including the payment of United
States prisoners for their work performed in any such construction;
except that no funds may be used to distribute or make available to a prisoner any
commercially published information or material that is sexually explicit or features nudity.
(7) Detention trustee.—
Funds available to the Attorney General for the Detention Trustee may be used for all
the activities of such Trustee in the exercise of all power and functions authorized by
law relating to the detention of Federal prisoners in non-Federal institutions or
otherwise in the custody of the United States Marshals Service and to the detention of
aliens in the custody of the Immigration and Naturalization Service, including the
overseeing of construction of detention facilities or for housing related to such
detention, the management of funds appropriated to the Department for the exercise of
detention functions, and the direction of the United States Marshals Service and
Immigration Service with respect to the exercise of detention policy setting and
operations for the Department of Justice.
(c) Related Provisions.—
(1) Limitation of compensation of individuals employed as attorneys.—
No funds available to the Attorney General may be used to pay compensation for
services provided by an individual employed as an attorney (other than an individual
employed to provide services as a foreign attorney in special cases) unless such
individual is duly licensed and authorized to practice as an attorney under the law of a
State, a territory of the United States, or the District of Columbia.
(2) Reimbursements paid to governmental entities.—
Funds available to the Attorney General that are paid as reimbursement to a
governmental unit of the Department of Justice, to another Federal entity, or to a unit of
State or local government, may be used under authorities available to the unit or entity
receiving such reimbursement.
(d) Foreign Reimbursements.—
Whenever the Department of Justice or any component participates in a cooperative
project to improve law enforcement or national security operations or services with a
friendly foreign country oh a cost-sharing basis, any reimbursements or contributions

https://vwAV.I aw.cornel I .edu/uscode/te^/28/1331

App-118

18/23

8/17/2021

28 U.S. Code§ 1331 - Federal question

received from that foreign country to meet its share of the project may be credited to
appropriate current appropriations accounts of the Department of Justice or any
component. The amount of a reimbursement or contribution credited shall be available
only for payment of the share of the project expenses allocated to the participating
foreign country.
(e) Railroad Police Training Fees.—
The Attorney General is authorized to establish and collect a fee to defray the costs of
railroad police officers participating in a Federal Bureau of Investigation law
enforcement training program authorized by Public Law 106-110. and to credit such
fees to the appropriation-account “Federal Bureau of Investigation, Salaries and
Expenses", to be available until expended for salaries and expenses incurred in
providing such services.
(f) Warranty Work.—
In instances where the Attorney General determines that law enforcement-, security-, or
mission-related considerations mitigate against obtaining maintenance or repair
services from private sector entities for equipment under warranty, the Attorney General
is authorized to seek reimbursement from such entities for warranty work performed at
Department of Justice facilities, and to credit any payment made for such work to any
appropriation charged therefor.
(a) Report.—
(1) In general.—The Attorney General shall submit to the Congress a report of any
instance in which the Attorney General or any officer of the Department of Justice—
(A) establishes or implements a formal or informal policy to refrain—
(i)
from enforcing, applying, or administering any provision of any Federal statute, rule,
regulation, program, policy, or other law whose enforcement, application, or
administration is within the responsibility of the Attorney General or such officer on the
grounds that such provision is unconstitutional; or
(ii)
within any judicial jurisdiction of or within the United States, from adhering to, enforcing,
applying, or complying with, any standing rule of decision (binding upon courts of, or
inferior to those of, that jurisdiction) established by a final decision of any court of, or
superior to those of, that jurisdiction, respecting the interpretation, construction, or
application of the Constitution, any statute, rule, regulation, program, policy, or other
law whose enforcement, application, or administration is within the responsibility of the

https://www.law.cornell.edu/uscode/text/28/1331

App-119

19/23

8/17/2021

28 U.S. Code § 1331 - Federal question

Attorney General or such officer;
(B) determines—
(i)
to contest affirmatively, in any judicial, administrative, or other proceeding, the
constitutionality of any provision of any Federal statute, rule, regulation, program,
policy, or other law, or
(ii)
to refrain (on the grounds that the provision is unconstitutional) from defending or
asserting, in any judicial, administrative, or other proceeding, the constitutionality of any
provision of any Federal statute, rule, regulation, program, policy, or other law, or not to
appeal or request review of any judicial, administrative, or other determination
adversely affecting the constitutionality of any such provision; or
(C) approves (other than in circumstances in which a report is submitted to the Joint
Committee on Taxation, pursuant to section 6405 of the Internal Revenue Code of
1986) the settlement or compromise (other than in bankruptcy) of any claim, suit, or
other action—
(i)
against the United States (including any agency or instrumentality thereof) for a sum
that exceeds, or is likely to exceed, $2,000,000, excluding prejudgment interest; or
(ii) by the United States (including any agency or instrumentality thereof) pursuant to an
agreement, consent decree, or order (or pursuant to any modification of an agreement,
consent decree, or order) that provides iniunciive or other nonmonetary relief that
exceeds, or is likely to exceed, 3 years in duration: Provided, That for purposes of this
clause, the term “injunctive or other nonmonetary relief shall not be understood to
include the following, where the same are a matter of public record—
(I)
debarments, suspensions, or other exclusions from Government contracts or grants;

(ID
mere reporting requirements or agreements (including sanctions for failure to report);
(III)
requirements or agreements merely to comply with statutes or regulations;
(IV)
requirements or agreements to surrender professional licenses or to cease the practice
of professions, occupations, or industries;
(V)

https ://www.law.cornel1.ediVuscode/te)4/28/1331

App-120

20/23

8/17/2021

28 U.S. Code § 1331 - Federal question

any criminal sentence or any requirements or agreements to perform community
service, to serve probation, or to participate in supervised release from detention,
confinement, or prison; or
(VI)
agreements to cooperate with the government in investigations or prosecutions
(whether or not the agreement is a matter of public record).
(2) Submission of report to the congress.—For the purposes of paragraph (1), a report
shall be considered to be submitted to the Congress if the report is submitted to—
(A)
the majority leader and minority leader of the Senate;
(B)
the Speaker, majority leader, and minority leader of the House of Representatives;
(C)
the chairman and ranking minority member of the Committee on the Judiciary of the
House of Representatives and the chairman and ranking minority member of the
Committee on the Judiciary of the Senate; and
(D)
the Senate Legal Counsel and the General Counsel of the House of Representatives,
(b) Deadline.—A report shall be submitted—

(D
under subsection (a)(1)(A), not later than 30 days after the establishment or
implementation of each policy;
(2)
under subsection (a)(1)(B), within such time as will reasonably enable the House of
Representatives and the Senate to take action, separately or jointly, to intervene in
timely fashion in the proceeding, but in no event later than 30 days after the making of
each determination; and
(3)
under subsection (a)(1)(C), not later than 30 days after the conclusion of each fiscalyear quarter, with respect to all approvals occurring in such quarter.
(c) Contents.—A report required by subsection (a) shall—

(D
specify the date of the establishment or implementation of the policy described in
subsection (a)(1)(A), of the making of the determination described in subsection (a)(1)
(B), or of each approval described in subsection (a)(1)(C);

https ://www.law.corneIl.edu/uscode/te>4/28/1331

App-121

21/23

8/17/2021

28 U.S. Code § 1331 - Federal question

(2) include a complete and detailed statement of the relevant issues and background
(including a complete and detailed statement of the reasons for the policy or
determination, and the identity of the officer responsible for establishing or
implementing such policy, making such determination, or approving such settlement or
compromise), except that—
(A)
such details may be omitted as may be absolutely necessary to prevent improper
disclosure of national-security- or classified information, of any information subject to
the deliberative-process-, executive-, attorney-work-product-, or attorney-client
privileges, or of any information the disclosure of which is prohibited by section 6103 of
the Internal Revenue Code of 1986. or other law or any court order if the fact of each
such omission (and the precise ground or grounds therefor) is clearly noted in the
statement: Provided, That this subparagraph shall not be construed to deny to the
Congress (including any House, Committee, or agency thereof) any such omitted details
(or related information) that it lawfully may seek, subsequent to the submission of the
report; and
(B) the requirements of this paragraph shall be deemed satisfied—
(i)
in the case of an approval described in subsection (a)(1)(C)(i), if an unredacted copy of
the entire settlement agreement and consent decree or order (if any) is provided, along
with a statement indicating the legal and factual basis or bases for the settlement or
compromise (if not apparent on the face of documents provided); and
(ii)
in the case of an approval described in subsection (a)(1)(C)(ii), if an unredacted copy
of the entire settlement agreement and consent decree or order (if any) is provided,
along with a statement indicating the injunctive or other nonmonetary relief (if not
apparent on the face of documents provided); and
(3)
in the case of a determination described in subsection (a)(1)(B) or an approval
described in subsection (a)(1)(C), indicate the nature, tribunal, identifying information,
and status of the proceeding, suit, or action.
(d) Declaration.—
In the case of a determination described in subsection (a)(1)(B), the representative of
the United States participating in the proceeding shall make a clear declaration in the
proceeding that any position expressed as to the constitutionality of the provision

https ://www.law.cornell.edu/uscode/te)4/28/1331

App-122

22/23

8/17/2021

28 U.S. Code § 1331 - Federal question

involved is the position of the executive branch of the Federal Government (or, as
applicable, of the President or of any executive agency or military department).
(e) Applicability to the President and to Executive Agencies and Military Departments.—
The reporting, declaration, and other provisions of this section relating to the Attorney
General and other officers of the Department of Justice shall apply to the President (but
only with respect to the promulgation of any unclassified Executive order or similar
memorandum or order), to the head of each executive agency or military department
(as defined, respectively, in sections 105 and 102 of title 5, United States Code) that
establishes or implements a policy described in subsection (a)(1)(A) or is authorized to
conduct litigation, and to the officers of such executive agency.

https ://www.law.cornell.edu/uscode/te)l/28/1331

App-123

23/23

This case has been designated as an eFiling case. To review a copy of the
Notice of Mandatory eFiling visit www.oakgov.com/clerkrod/efiling.
STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND
2013-132055-CH
DTE ELECTRIC COMPANY f/k/a
JUDGE SHALINA KUMAR
THE DETROIT EDISON COMPANY,
a Michigan corporation,
Case No:

O

CL
CO

o

Honorable

Plaintiffs,

<N
CO

v.
JOSEPH CONSTANT
an Individual,

CO

LU

Defendant.

LL

CO
O
CM
CD

o
c
o
O

LELAND PRINCE (P30686)
DTE ELECTRIC COMPANY
Attorney for Plaintiff
One Energy Plaza
688 WCB - Legal Department
Detroit, Michigan 48226
(313) 235-7725 - Office
princel@ dteenergy.com

■O

c

CO

MOTION FOR ORDER TO SHOW CAUSE WHY THIS COURT
SHOULD NOT ISSUE A PRELIMINARY INJUNCTION

co
O
U)

c

U_

£
■O

NOW COMES the Plaintiff, DTE Electric Company, (“DTE Electric”) by and through
its attorney, Leland Prince, and for its Motion For Order To Show Cause Why This Court Should
Not Issue A Preliminary Injunction, states as follows:

CD

>
0)

o
CD
OZ

1.

Plaintiff is a Michigan corporation whose address is One Energy Plaza, Detroit,

Michigan 48226. Plaintiff is a regulated utility company that supplies electricity to residential
and commercial customers in the State of Michigan.
2.

Defendant is a customer of DTE Electric and is the owner of property located at

49 Highland Drive Bloomfield Hills Michigan, legally described as: Section 4 T2 N.R. 10E Twp.

Appendix S
Page 1 of 8
App-124

FEE

of Bloomfield Oakland County Michigan. (Hereinafter “Subject Parcel”)
3.

Plaintiff has installed poles, overhead electric lines and equipment on land

situated adjacent to and on the property where Defendant’s property is located.
4.
hCM
CO

o
Q_

CO
O

Pursuant to Michigan Public Service Commission, Rule C5.4, Access to Premises,

it is the customer’s responsibility: “[a]s a condition of taking service, [ to provide ] authorized
employees and agents of the Company ... access to the customer’s premises at all reasonable
hours to install, turn on disconnect, inspect, read, repair or remove its meters, and to install, turn

CO
LU

on, disconnect, repair, or remove its meters and to install, operate and maintain company

co

property, and to inspect and determine the connected electrical load.”

LL
O
CM

<1)

5.

Plaintiff is required by Michigan Public Service Commission Rule 460.3505 to

adopt and maintain a line clearance program, including tree trimming, to maintain the reliability

O
>%

c

3
O

O
"D

c

of the electric line, Plaintiff must trim portions of Defendant’s trees that are growing into the
easement and are endangering the reliability of the lines.
6.

Plaintiff has an express easement and claims a prescriptive easement to maintain

(0
CO

and operate its electric lines and equipment situated near and on the property occupied by

O
O)

c
LL

O
"O
CD
>
0)
O
<D

CC

Defendant.
7.

MCLA 560.190(d) provides that public utilities shall have the right to trim or

remove trees that interfere with their use of easements.
8.

Despite Plaintiffs lawful authority to access the property, Defendant has

consistently refused to allow Plaintiff to trim trees that are growing into the easement, thus
preventing Plaintiff from completing its line clearance reliability improvement program.
9.

Defendant’s refusal to allow access to his property to trim and remove trees is

endangering the electric reliability of hundreds of Plaintiff s customers serviced by the lines.

Page 2 of 8

App-125

There is a threat of immediate irreparable harm is resulting from Defendant’s actions.
10.

There is no adequate remedy at law to protect the customers affected by

Defendant’s refusal to allow the line clearance reliability improvement program to be completed.
11.
N-

CM
CO

o

Q_
(D

Plaintiff has filed a Complaint for Permanent Injunction to enjoin Defendant from

interfering with Plaintiffs line clearance reliability improvement program.
12.

The electric reliability of the lines will be jeopardized during the time required for

final determination of the issues stated in the complaint.

O

00
LD

LL
CO
O
CM

<D

13.

Plaintiff is seeking a preliminary injunction to enjoin Defendant from interfering

with Plaintiffs line clearance reliability improvement program.
14.

Four factors are considered in determining whether a preliminary injunction

should issue: (a) harm to the public interest if the injunction issues; (b) whether harm to the

O
c

D
O

O
~o
c

applicant in the absence of the injunction outweighs the harm to the opposing party if the
injunction is granted; (c) the strength of the applicant’s demonstration that the applicant is likely
to prevail on the merits; and (d) a demonstration that the applicant will suffer irreparable injury if

CO

CO

a preliminary injunction is not granted. Thermatool Corp v. Borzvm, 227 Mich App 366, 377,

O)

575 NW2d 334(1998).

o
c

LL
O

u
d)
>
CD
O
<D

cr

15.

Each of the above four factors favors granting a preliminary injunction where (a)

a preliminary injunction will cause no harm to the public but instead will greatly benefit the
public interests by improving the safety and reliability of electrical service to all the commercial
and residential customers served by this line; (b) the potential harm to Plaintiff and its residential
and commercial customers in the form of equipment damage, power outages and low voltage
service outweighs any potential harm to the Defendant stemming from the tree trimming; (c)
Plaintiff has an easement for its electrical line on Defendants’ land and thus Plaintiff is likely to

Page 3 of 8

App-126

prevail on the merits; and (d) Plaintiff will suffer irreparable injury if a preliminary injunction
does not issue because of the compromised reliability of the electric line and the increased risk of
outages and damages to the customers served by that line.
WHEREFORE, the Plaintiff respectfully requests that this Court will issue an Order to
CM
CO
O

2
CL

CD
O
CO

LU

LL
CO
O
CM

Show Cause requiring Defendant to appear before this Court and Show Cause why a Preliminary
Injunction should not issue. Following the hearing, Plaintiff requests a Preliminary Injunction
enjoining Defendant from interfering with Plaintiffs rights to complete its line clearance
reliability improvement program and allow Plaintiffs workers with their vehicles and equipment
to gain access to Defendant’s property to trim and remove trees that are growing into Plaintiffs
. electric line easement.

0

O

Respectfully submitted,

>%
C

DTE ELECTRIC COMPANY

O

o

By:

■o

c

CD
CD

O

O)

c

LL

Dated: February 5, 2013

/s/ Leland Prince
LELAND PRINCE (P30686)
Attorney for Plaintiff
One Energy Plaza
688 WCB - Legal Department
Detroit, Michigan 48226
(313) 235-7725 -Office
princel @ dteenergy .com

O
~G
0
>
0
O
0

O'

Page 4 of 8

App-127

This case has been designated as an eFiling case. To review a copy of the
Notice of Mandatory eFiling visit www.oakgov.com/clerkrod/efiling.
STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND

2013-132055-CH
JUDGE SHALINA KUMAR

DTE ELECTRIC COMPANY f/k/a
THE DETROIT EDISON COMPANY,
a Michigan corporation,
1^
CM
CO
O

2
Q_
CO
O

Case No:

Plaintiffs,

Honorable

v.
JOSEPH CONSTANT
an Individual,

CO

LU
Li.

CO
O

CM
0)

O
>*
c
o
O

Defendant.
LELAND PRINCE (P30686)
DTE ELECTRIC COMPANY
Attorney for Plaintiff
One Energy Plaza
6S8 WCB - Legal Department
Detroit, Michigan 48226
(313) 235-7725 - Office
princel@ dteenergy.com

"O

c

CD

NOTICE OF HEARING

CD

O
U)
c

PLEASE TAKE NOTICE that an "Order To Show Cause Why This Court Should Not
Issue APreliminary Injunction ” will be brought on for hearing on FEB 20, 2013 beginning at
j= 1:30pm fTfWWW! or as soon thereafter as counsel may be heard. The Court hearing location will be at
the 6th Circuit Court of Michigan; Oakland County Circuit Court; 1200 N. Telegraph Road;
o
Pontiac, Michigan 48341.
~o
Respectfully submitted,
CD

>

DTE ELECTRIC COMPANY

CD
O
0)

cr

By:

Dated: February 5, 2013

/s/ Leland Prince
LELAND PRINCE (P30686)
Attorney for Plaintiff
One Energy Plaza
688 WCB - Legal Department
Detroit, Michigan 48226
(313) 235-7725 - Office
princel@dteenergy.com

Page 5 of 8

App-128

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND

2013-132055-CH
JUDGE SHALINA KUMAR

DTE ELECTRIC COMPANY f/k/a
THE DETROIT EDISON COMPANY,
a Michigan corporation,
hCNI

Case No:

Plaintiffs,

Honorable

CO

o

2
CL

CD
O

CD
LD

LL
CO
O

CNI
<1)

O
c

3
O

O

V.

JOSEPH CONSTANT
an Individual,
Defendant.
LELAND PRINCE (P30686)
DTE ELECTRIC COMPANY
Attorney for Plaintiff
One Energy Plaza
688 WCB - Legal Department
Detroit, Michigan 48226
(313) 235-7725 - Office
princel@ dteenergy.com

"D

C
CO

co

ORDER TO SHOW CAUSE WHY A
PRELIMINARY INJUNCTION SHALL NOT ISSUE

O)

At a session of this Court, held in the City of Pontiac,

O
c

ll

£
*D
CD
>
<3)
O

Cl)

CL

County of Oakland, State of Michigan, on FEB 05 2013
PRESENT: HONORABLE SHALINA KUMAR
CIRCUIT COURT JUDGE
Upon review of the Plaintiffs Complaint, the Motion for an Order to Show Cause Why A
Preliminary Injunction Should Not Issue, and the Court being fully advised in the premises:

Page 6 of 8

App-129

IT IS HEREBY ORDERED that Defendant Joseph Constant show cause before the
above entitled court, Oakland County Circuit Court; 6th Circuit Court; 1200 N. Telegraph;
Pontiac, Michigan 48341; beginning at 1:30pm

o’clock of said day; on the

20th

day

of February. 2013, at, or as soon thereafter as counsel may be heard, as to why the court
hCM
CO

o
Q_

CD
O
CO

LU

LL
CO

o

CM
0)

should not grant a Preliminary Injunction Restraining and Enjoining Defendant, his agents,
servants and employees and anyone receiving notice of the preliminary injunction from
preventing, interfering with or in any way impeding Plaintiffs access to property located at 49
Highland Drive Bloomfield Hills Michigan for the purpose of cutting and trimming trees,
maintaining, replacing and or repairing DTE Electric Company electricity lines, poles and
equipment situated at or near the subject property.
IT IS FURTHER ORDERED that a copy of this Order to Show Cause Why A

O
>»

c

Preliminary Injunction Should Not Issue, the Complaint for Peimanent Injunction and the

3
O

Motion For Order To Show Cause Why This Court Should Not Issue A Preliminary

TJ

Injunction above referred to, be served upon the Defendant on or before the

O
c

13th day of

CD
CD

o

February

, 2013.

O)

c

LL

o
■Q

/s/Shalina Kumar
CIRCUIT COURT JUDGE
SHALINA KUMAR

(1)
>
0)

o
CD
O'

Page 7 of 8

App-130

AL

This case has been designated as an eFiling case. To review a copy of the
Notice of Mandatory eFiling visit www.oakgov.com/clerkrod/efiling.
STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND

2013-132055-CH
JUDGE SHALINA KUMAR

DTE ELECTRIC COMPANY f/k/a
THE DETROIT EDISON COMPANY,
a Michigan corporation,
hCM

Case No:
Honorable

Plaintiffs,

CO

o
2
Q_
CO
O

v.
JOSEPH CONSTANT
an Individual,

DO

LD

LL
CO
O
CM

d)

o
c
o
O

Defendant.
LELAND PRINCE (P30686)
DTE ELECTRIC COMPANY
Attorney for Plaintiff
One Energy Plaza
688 WCB - Legal Department
Detroit, Michigan 48226
(313) 235-7725 - Office
princel @ dteenergy .com

"D
C
CG

CERTIFICATE OF SERVICE

CG

O

O)

c

LL
O

The undersigned, being first duly sworn, states that on the 5th dav of February. 2013.
she served a copy of Plaintiff s “Motion For Order To Show Cause Why This Court Should
Not Issue A Preliminary Injunction; Notice of Hearing; Order To Show Cause” and this
“Certificate ofService” upon: Joseph Constant: 49 Highland Drive: Bloomfield Hills. Michigan
48302. via Electric Case Filing (ECF) System and U.S. 1st Class Mail.

■o

CD

>
o
<D

CD

cn

Sworn to and subscribed before me this 5th
day of
February
, 2013.
/s/ Karen L. Bradley
Notary Public,

Wavne

Acting in_____Wavne

County, MI
County, Ml

My Commission Expires: September 13. 2014

Page 8 of 8

App-131

/s/ Karen L. Bradley
Karen L. Bradley, Notary Public

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND
DTE ELECTRIC CO
Plaintiff,

NO:

2013-132055-CH

V
HON. SHALINA KUMAR

CONSTANT,JOSEPH,,
Defendant,

O

ORDER
At a session of Court
held in Oakland County, Michigan
on 02/21/2013

Q_
CM
CD

LU

LL
CO
O
CM
TO
O
C
Z3
O

O

THE COURT FINDS:
The parties having appeared before the Court for Plaintiffs Motion for Preliminary Injunction.

THEREFORE, THE COURT HEREBY ORDERS:
The Order to Show Cause why a Preliminary Injunction is hereby adjourned to allow the parties to file supplemental briefs
within 2 weeks of the entry of this Order. The Court will decide whether to grant or deny a Preliminary Injunction on the
briefs and submissions of the parties.

■O

c

TO

/s/Shalina Kumar

TO

O

HON. SHALINA KUMAR

O)
c

Circuit Court Judge

LL
O
"D
TO
>
TO
O
TO

o'

Appendix T
App-132

AL

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND
DTE ELECTRIC COMPANY f/k/a
THE DETROIT EDISON COMPANY,
co
CM

o

2
Q_
N.

Plaintiff,

Case No. 13-132055-CH
Hon. Shalina D. Kumar

v.
JOSEPH CONSTANT,

CM

(Z

Defendant.

<

co
o

OPINION AND ORDER

CM

>»

At a session of said Court held in the
Courthouse, City of Pontiac, Oakland County
Michigan, on MAR 27 2013

c
3
o
O

PRESENT: THE HON. SHALINA D. KUMAR, CIRCUIT COURT JUDGE

<D

O

TJ
C

This matter is before the Court on Plaintiff DTE Electric Company’s f/k/a The

CD

CD

O

05
C

Detroit Edison Company (“Plaintiff’s” or “DTE’s”) “Motion for Preliminary Injunction.”1
On February 5, 2013, the Court ordered Defendant Joseph Constant (“Defendant" or

LL

o
"O

“Constant”) to show cause why the Court should not grant a Preliminary Injunction

a)

restraining and enjoining Defendant from interfering with or in any way impeding

o

Plaintiff’s access to 49 Highland Drive, Bloomfield Hills, Michigan, 48302 (the

>
CD

CD

“Property”)2 for the purpose of cutting and trimming trees, as well as maintaining,

1

On February 5, 2013, Plaintiff filed its “Complaint for Permanent Injunction” and
“Motion for Preliminary Injunction.”
2 The Property is legally described as “Section 4 T2 N.R. 10E, Township of Bloomfield,
Oakland County, Michigan.”
1

Appendix U
App-133

replacing, and repairing Plaintiffs electricity lines, poles, and equipment situated at or
near the Property.3

On February 21, 2013, the Court issued an Order adjourning

Plaintiffs Motion in order to allow both parties to file supplemental briefs no later than
March 7, 2013. On March 1, 2013, Plaintiff filed its supplemental brief. Defendant filed
co
CNJ

o

2

his supplemental brief on March 15, 2013, in contravention of the Court’s February 21,
2013 Order.4 Pursuant to MCR 2.119(F)(2), the Court dispenses with oral argument.

CL
Facts

hcm

O'
<
co
o
CM

Plaintiff is a regulated utility company that supplies electricity to residential and
commercial customers in the State of Michigan.

Defendant is one of Plaintiff’s

customers and owns the Property at issue in this case. On or about October 21, 1912,
E. Waldman, the previous owner of the Property, granted Plaintiffs predecessor in

O
interest, the Eastern Michigan Edison Company (“Eastern”), a Right of Way to place its
c

3
O

electric lines over the Property.5

Since October 21, 1912, Plaintiff has openly and

O
"O

c

CD
CD

o

Ui

c

LL

£
■Q

0)

>

a>
o
<d

CC

3 The Court’s February 5, 2013 Order also directed the parties to appear before the
Court at 1:30pm on February 20, 2013.
4 In his untimely response brief, Defendant repeatedly asserts that Plaintiffs
“representations in its Comp!aint[ ] and Motion are extensively and exhaustively false
and fraudulently stated.” In support of this contention, Defendant refers generally to the
103 pages of exhibits that he attached to his response brief. Importantly, “a mere
statement without authority is insufficient to bring an issue before this Court. It is not
sufficient for a party ‘simply to announce a position or assert an error and then leave it
up to this Court to discover and rationalize the basis for his claims, or unravel and
elaborate for him his arguments, and then search for authority either to sustain or reject
his position.”1 Wilson v Taylor, 457 Mich 232, 243 (1998) (citing Mitcham v Detroit, 355
Mich 182,203(1959)).
5 The Right of Way has the following legal description: “North of and adjacent to the
south line of the subdivision known and recorded as Bloomfield Highlands, from
Woodward Avenue to the west line of said subdivision; also south of and adjacent to the
north line of the same subdivision of Bloomfield Highlands from Woodward Avenue to
the west line of said subdivision. Poles to be set within three feet of the property line,
and wherever possible, on or near the lot lines between the several lots, to be
designated by first party.”
2

App-134

notoriously installed, maintained, serviced, repaired, and replaced poles, overhead
electrical lines and equipment in the following locations in relation to the Property: the
west border south to north and the south border east to west. Plaintiff has also trimmed
and removed trees on the land situated on and adjacent to Defendant’s Property during
co
CM
■'tf

o
Q_
hCN

QC
<

co
o
CM

the same time period. Moreover, at least every five years since 1912, DTE crews and
contractors have visited the Property to trim trees and otherwise maintain Plaintiff’s
poles and equipment. However, Defendant now refuses to allow Plaintiff to access the
Property in order to trim and cut trees or make necessary repairs and replacements for
the safe and efficient delivery of electricity to Defendant, as well as other residential and
commercial customers in the area.6
Standard of Review

<D

O
>

MCR 3.310 governs a motion for a preliminary injunction.

“The granting of

c
3
o
O

injunctive relief is within the sound discretion of the trial court, although the decision

TJ

c

must not be arbitrary and must be based on the facts of the particular case.” Comm’rof

co
O

Ins v Arcilio, 221 Mich App 54, 77 (1997). The object of a preliminary injunction is to

(0

CD

preserve the status quo, so that upon the final hearing the rights of the parties may be

LL

determined without injury to either. Attorney Gen v Thomas Solvent, 146 Mich App 55,

c

o

56 (1985).

In determining whether to issue a preliminary injunction, the Court must

■O'

CD

>

consider four factors: (1) harm to the public interest if an injunction issues, (2) whether

CD

o
a)
CC

harm to the applicant in the absence of temporary relief outweighs the harm to the
opposing party if relief is granted, (3) the strength of the applicant’s demonstration that
the applicant is likely to prevail on the merits, and (4) demonstration that the applicant

6 On November 11,2010, Defendant first objected to Plaintiff accessing the Property.
3
App-135

will suffer irreparable injury if the relief is not granted. Comm’r of Ins, 221 Mich App at
77-78; see also Michigan State Employees Ass’n v Dep't of Mental Health, 421 Mich
152 (1984).
III.
oo
CNJ

o

2
Q_

Analysis

A. Plaintiffs Right of Way
Plaintiffs easement was created by a Right of Way that Eastern received on
October 21, 1912.

The Right of Way granted Eastern the right to trim trees and

CM

CH
<

co
o

maintain its equipment and electric lines that were erected on the Property. The Right
of Way also expressly granted Eastern the right “to further extend its said lines across

CM

said lands for the purpose of enabling it to furnish service to the owners or occupants of

cd

property on Bloomfield Highlands.”

O
>»

Importantly, the rights of the holder of an easement are defined by the easement

c
D
o
O

agreement. Great Lakes Gas Transmission Co v MacDonald, 193 Mich App 571, 575

"O

c

(1992). Further, the grantee has all rights that are incident or necessary to the

co
O

reasonable and proper enjoyment of the easement. Unverzagt v Miller, 306 Mich 260,

CO

O)

265 (1943). The owner of the land subject to an easement has the right to use the land

LL

in any manner not inconsistent with the easement, but has no right to interfere with or

£

obstruct the reasonable and proper use of the easement. Andrews v Columbia Gas

c

"D
CD

>

Transmission Corp, 544 F 3d 618, 624 (6th Cir 2008).

CD
O
CD

easement has the right to remove objects within it that unreasonably interfere with or

CC

Moreover, the owner of an

obstruct its reasonable and proper use. Id.
In his response brief, Defendant asserts that “Plaintiff has no easement[ ] rights
on . . . Defendant’s [Pjroperty at the westerly side of [his] [Property beyond 3 feet from

4 '

App-136

the southerly lot line of [his] [Property. Plaintiffs easement is at the easterly side and
southerly side of [his] [Property. Defendant has never objected to Plaintiffs access of
[his] lines.” Essentially, Defendant argues that Plaintiff is not allowed to operate outside
of its easement rights. However, Plaintiff has not asked the Court to issue a preliminary
oo
CM

o
Q_

N-

injunction with respect to areas of land outside of Plaintiffs Right of Way, but rather has
asserted its rights that are incident and necessary to Plaintiffs use of the easement.
Moreover, Defendant has not presented evidence that Plaintiff seeks to exercise its

CM

a:

<

co
o
CM

easement rights outside of Plaintiffs Right of Way. In sum, Plaintiff seeks access to
Defendant’s Property so that its crews and contractors can trim trees and maintain
Plaintiffs equipment on the Property pursuant to Plaintiffs Right of Way.
B. Plaintiffs Prescriptive Easement

<D

O
In addition to the Right of Way, Plaintiff also has a prescriptive easement to
c
D
o
O
u
c

access the Property to trim trees and maintain its equipment.

“[A]n easement by

prescription arises from a use of [another’s property] that is open, notorious, adverse,

CB
CB

O

and continuous for a period of fifteen years.” Goodall v Whitefish Hunting Club, 208

O)

Mich App 642, 645 (1995). As stated above, the poles and lines that overhang the

LL

Property were erected in 1912. Since that time, Plaintiffs crews have come on the

O

Property at least every five years to trim trees and maintain Plaintiffs electrical lines and

c

tj
0)

>
<D

equipment.7 Furthermore, pursuant to the Subdivision Control Act of 1967, “[t]he public

CD

utilities shall have the right to trim or remove trees that interfere with their use of

O

O'

easements.”

MCL 560.190.

Therefore, Plaintiff is entitled to access Defendant’s

7 In his response brief, Defendant acknowledges that he “never. .. consistently refused
to allow Plaintiff to trim trees that are growing into the easement thus preventing Plaintiff
from completing its line clearance reliability improvement program.”
5
App-137

Property for the purpose of trimming trees and maintaining its equipment pursuant to
Plaintiff’s prescriptive easement. Goodall, supra.
C. MCR 3.310
Plaintiff has presented the Court with John Hammond’s sworn testimony that the
co
CNJ

o

failure to trim trees and maintain Plaintiffs equipment on the Property will cause the tree
branches to touch or fall upon the electric wires, which would disrupt electrical service

CL
hCNJ

and create a serious safety hazard to the public.8 In his Affidavit, Mr. Hammond asserts

ol

that “it is absolutely necessary to trim trees and maintain equipment on Defendant’s

<

2
co

[Property in order to comply with the State of Michigan[’$] requirements for line

o
CM

reliability and safety.” Moreover, Mr. Hammond avers that “[t]he failure to trim the trees

CD

and maintain the equipment creates a real and present danger of falling lines, potential

O
>>

c
D
o
O
~o
C

fires and interruption of electric service.” Hence, there is uncontroverted evidence that if
Plaintiff does not trim the trees and maintain its equipment on the Property, Plaintiff’s
customers will not only be deprived of electricity, but will also face significant safety

CD
CD

risks and threats to their well-being.

O

Consequently, the harm to Plaintiff and the public in the absence of an injunction

05

c

LL
O
TJ
0)
>
05
O
0)

O'

outweighs the harm to Defendant.9 See Comm'r of Ins, supra. Relatedly, the issuance
of the requested injunction will not harm the public interest.

See id.

Instead, the

Plaintiff and the public will suffer irreparable harm if the injunction is not granted. See
id, see also Hammond Affidavit. In addition, by preventing Plaintiff from trimming trees
on the Property, Defendant is interfering with Plaintiff’s Right of Way and prescriptive
8

Mr. Hammond is employed by DTE as the corporation’s Supervisor of Regional
Planning.
9 As an additional note, Defendant has not articulated the nature of the harm that
Plaintiff’s use of its easement will cause Defendant.
6
App-138

easement, in addition to acting contrary to Michigan law. See Andrews, supra; Goodall,
supra; MCL 560.190. Therefore, Plaintiff has demonstrated that, under Michigan law, it
is likely to prevail on its Complaint for Permanent Injunction seeking to enjoin Defendant
from interfering with Plaintiff's easement and its right to access the Property to perform
co

CM

o
CL
N.

line clearance by trimming and removing trees that are growing into Plaintiff’s
easement.

See id.

Hence, the Court grants Plaintiff’s “Motion for Preliminary

Injunction.”

CM

QC

<

co
o

WHEREFORE IT IS HEREBY ORDERED that Plaintiff DTE Electric Company’s
“Motion for Preliminary Injunction” is hereby GRANTED.

CM

IT IS SO ORDERED.

<D

THIS ORDER DOES NOT RESOLVE THE LAST PENDING CLAIM AND DOES

O
>
c

NOT CLOSE THE CASE.

3
O

O
■Q

C
03

Dated: MAR 27 2013

/s/Shalina Kumar
Hon. Shalina D. Kumar

AL

03

o
O)

c

LL

£
"O
0)

>

<D
O
<D

cc

Proof of Service
I certify that a copy of the above instrument was served upon the
attorneys of record or the parties not represented by counsel in the above
case by EFILING it to their addresses as disclosed on the 27th day of
March, 2013.
fs/ Jenice R. McGruder

7
App-139

STATE OF MICHIGAN IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND
DTE ELECTRIC CO
V
CONSTANT.JOSEPH,,

Plaintiff,

NO:

201M320S5-CH

HON. SHALINA KUMAR

Defendant,

In the matter of:
ORDER REGARDING MOTION
00

Motion TWe:

PlaintifTa motion for voluntary dismissal.

(O
O

5
0.
<0

O
D
<
CO

The above named motion ie:

E granted.

o
CN

C granted In part, denied In part

£

©

[~l denied.

O
*
c

H for the reasons stated on the record.

3
O

O

■O

In addition:

c
S2

CD

O
O)

DATED:

08/1&2013

/s/Shalina Kumar

c

HON. SHALINA KUMAR

U_

Circuit Court Judge

£

*o
>

8a;

o:

Page

I

Appendix V
App-140

TM

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND

JOSEPH CONSTANT,
C.A. No. 2016-155099-CZ
Plaintiff,
HON. RAE LEE CHABOT
vs.
O)
O

JAMES.M HAMMOND,
Defendant.

<
co

ORDER OF DISQUALIFICATION

CM

>

O

Z

CO

At a session of the said Court, held in the Courthouse
Tower, City of Pontiac, Countv of Oakland, State of
Michigan, on
NOV 2 3

2016

o
CM

a>
O

PRESENT: HONORABLE RAE LEE CHABOT, Circuit Judge
IT IS HEREBY ORDERED:
Judge Rae Lee Chabot, P28006, on motion of the Court, is disqualified from, hearing this

c
D
O

O

TJ
C
CD

case for the following reason, pursuant to MCR 2.003:
a. Interested as a party.
b. Personally biased or prejudiced for or against a party or attorney.

CD

O

c.. Consulted or employed as an attorney in the matter in controversy.

O)

c

LL

o
T3

CD
>
<X>
o
0)

0C

d. Was a partner of a party, attorney for a party, or member of a law firm representing a
party within the preceding two years.
e. Related within the third degree (civil law) of consanguinity or affinity to a person
acting as an attorney or within the sixth degree (civil law) to a party.
f. The judge’s spouse or minor child owns a stock, bond, security, or other l^gal or
equitable interest In a. corporation which is a party,, unless specifically excepted bj MCR
2.003 (B):(6)(a)(b)or (c).
g. Other: Personal fear of the in Pro Perf^iaihtiff.
ji/

/
i
(

v:7 \ / r"'^ VM..........
Hon: R4o£o©/Chabot, Circuit Judge

Appendix W
App-141

i

Additional material
from this filing is
available in the
Clerk's Office.

